<html>
<title> - ON THE FRONT LINES: THE IMPACTS OF COVID-19 ON TRANSPORTATION WORKERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   ON THE FRONT LINES: THE IMPACTS OF
                   COVID-19 ON TRANSPORTATION WORKERS

=======================================================================

                                (116-61)

                             REMOTE HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                              JUNE 9, 2020
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             
             

     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
42-966 PDF                 WASHINGTON : 2021                               
                             
                             
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
SCOTT PERRY, Pennsylvania            STEVE COHEN, Tennessee
RODNEY DAVIS, Illinois               ALBIO SIRES, New Jersey
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
LLOYD SMUCKER, Pennsylvania          DONALD M. PAYNE, Jr., New Jersey
PAUL MITCHELL, Michigan              ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               MARK DeSAULNIER, California
MIKE GALLAGHER, Wisconsin            STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama              STEPHEN F. LYNCH, Massachusetts
BRIAN K. FITZPATRICK, Pennsylvania   SALUD O. CARBAJAL, California, 
JENNIFFER GONZALEZ-COLON,            Vice Chair
  Puerto Rico                        ANTHONY G. BROWN, Maryland
TROY BALDERSON, Ohio                 ADRIANO ESPAILLAT, New York
ROSS SPANO, Florida                  TOM MALINOWSKI, New Jersey
PETE STAUBER, Minnesota              GREG STANTON, Arizona
CAROL D. MILLER, West Virginia       DEBBIE MUCARSEL-POWELL, Florida
GREG PENCE, Indiana                  LIZZIE FLETCHER, Texas
Vacancy                              COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:
    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:
    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chairman, Subcommittee on Aviation, prepared 
  statement......................................................    89

                               WITNESSES

Larry I. Willis, President, Transportation Trades Department, 
  AFL-CIO:
    Oral statement...............................................     5
    Prepared statement...........................................     7
Lamont Byrd, Director of Safety and Health, International 
  Brotherhood of Teamsters:
    Oral statement...............................................    11
    Prepared statement...........................................    12
Susannah Carr, Flight Attendant, United Airlines, testifying on 
  behalf of the Association of Flight Attendants--CWA, AFL-CIO:
    Oral statement...............................................    15
    Prepared statement...........................................    17
Thomas Shaw, Transit Operator, Southeastern Pennsylvania 
  Transportation Authority, testifying on behalf of the Transport 
  Workers Union of America:
    Oral statement...............................................    21
    Prepared statement...........................................    23
Randy Guillot, President, Triple G Express, Inc. and Southeastern 
  Motor Freight, Inc., and Chairman, American Trucking 
  Associations (ATA), testifying on behalf of ATA:
    Oral statement...............................................    28
    Prepared statement...........................................    29

                       SUBMISSIONS FOR THE RECORD

Statement of the American Bus Association, Submitted for the 
  Record by Hon. Sam Graves of Missouri..........................    90
Submissions for the Record by Hon. Jesus G. ``Chuy'' Garcia of 
  Illinois:
    ``Many of Chicago area's essential workers are people of 
      color and live in lower-income neighborhoods, new analysis 
      says,'' by Jessica Villagomez, Chicago Tribune, April 27, 
      2020.......................................................    92
    ``The price of being `essential': Latino service workers bear 
      brunt of coronavirus,'' by Hailey Branson-Potts, Alejandra 
      Reyes-Velarde, Matt Stiles, and Andrew J. Campa, Los 
      Angeles Times, May 17, 2020................................    94
    ``Subway and bus workers are bearing a disproportionate 
      coronavirus death toll,'' by Dana Rubinstein, Politico, 
      April 7, 2020..............................................    99
    ``Transit workers are paying a heavy price during the 
      pandemic,'' by Justin George and Greg Jaffe, Washington 
      Post, May 17, 2020.........................................   101
    ``2019 Labor Force Statistics from the Current Population 
      Survey,'' U.S. Bureau of Labor Statistics..................   108

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              June 9, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Committee on Transportation and 
Infrastructure
    FROM:  LStaff, Committee on Transportation and 
Infrastructure
    RE:      LFull Committee Hearing on ``On the Front Lines: 
The Impacts of COVID-19 on Transportation Workers''
_______________________________________________________________________


                                PURPOSE

    The Committee on Transportation and Infrastructure will 
meet on June 9, 2020, to examine the impacts of the COVID-19 
crisis on transportation workers. At the hearing, Members will 
hear about how the COVID-19 crisis has impacted the health, 
working conditions, and employment opportunities of 
transportation industry workers and will receive 
recommendations on policy actions to safeguard these important 
front line employees. Testimony will be provided by the 
Transportation Trades Department (TTD) of the AFL-CIO, a flight 
attendant, a bus operator, the International Brotherhood of 
Teamsters, and the American Trucking Association.

                               BACKGROUND

    The COVID-19 pandemic surged across the globe, bringing 
travel to a virtual standstill, significantly reducing global 
commerce, disrupting every industry sector, and killing 90,313 
Americans as of May 30, 2020.\1\ \2\ Millions of workers have 
been ordered to work from home and millions more have lost 
their jobs. Yet for some, work continues in the face of the 
menacing threat of this novel coronavirus. Transportation 
workers remain on the front lines keeping products moving, 
buses and trains running, planes flying, and infrastructure 
projects on schedule. The country needs these vital workers to 
continue their work, and efforts should be made to protect 
these workers.
---------------------------------------------------------------------------
    \1\ Note: Per the Centers for Disease Control and Prevention, 
``Data during this period are incomplete because of the lag in time 
between when the death occurred and when the death certificate is 
completed, submitted to NCHS (National Center for Health Statistics) 
and processed for reporting purposes. This delay can range from 1 week 
to 8 weeks or more, depending on the jurisdiction, age, and cause of 
death''.
    \2\ CDC, Daily Update of Totals by Week and State (last accessed 
June 5, 2020), available at https://www.cdc.gov/nchs/nvss/vsrr/COVID19/
index.htm.
---------------------------------------------------------------------------

AVIATION:

    Demand for air travel all but evaporated soon after 
coronavirus infections in the United States began to skyrocket 
in mid-March. In April, the Transportation Security 
Administration (TSA) screened 90 percent fewer passengers daily 
than it did in the same month in 2019.\3\ As demand plummeted, 
U.S. airlines quickly reduced national capacity, now offering 
less than 30 percent of seating capacity offered at the same 
time last year.\4\ The pandemic triggered a financial crisis 
unlike any ever faced by the global aviation industry. The 
International Air Transport Association, which represents 
global airlines including U.S. carriers, projects that airline 
passenger traffic will not return to pre-pandemic levels before 
2023.\5\ Domestically, Airlines for America--the trade 
association representing the largest U.S. carriers--estimated 
that U.S. airlines are burning more than $10 billion in cash 
each month.\6\ Given that the pandemic only began seriously 
affecting the volume of airline operations more than halfway 
through the first quarter of 2020, industry expects that second 
quarter losses will be similar, if not substantially greater. 
More than 750,000 workers are employed by U.S. passenger and 
cargo airlines, with a large proportion of these workers facing 
the prospect of furlough as a result of this substantially 
reduced demand.\7\
---------------------------------------------------------------------------
    \3\ TSA, Travel Checkpoint Numbers for 2019 and 2020 (last accessed 
June 3, 2020) available at https://www.tsa.gov/coronavirus/passenger-
throughput.
    \4\ John Grant, OAG Coronavirus Update--Week Nineteen Everyone is 
Waiting for June, OAG (May 25, 2020), https://www.oag.com/blog/oag-
coronavirus-update-week-nineteen.
    \5\ Int'l Air Transp. Ass'n, COVID-19: Outlook for air travel in 
the next five years (May 13, 2020), available at https://www.iata.org/
en/iata-repository/publications/economic-reports/covid-19-outlook-for-
air-travel-in-the-next-5-years/.
    \6\ David Shepardson, Exclusive: U.S. Airlines Burn Through $10 
Billion a Month as Traffic Plummets, Reuters (May 5, 2020) available at 
https://www.reuters.com/article/us-health-coronavirus-airlines-
congress/exclusive-u-s-airlines-burn-through-10-billion-a-month-as-
traffic-plummets-idUSKBN22H2ZM.
    \7\ BTS, Airline Employment Data by Month (last accessed May 29, 
2020) available at https://www.transtats.bts.gov/Employment/
---------------------------------------------------------------------------
    Recognizing the immediate need to save these jobs, Congress 
included $32 billion in the overwhelmingly bipartisan 
Coronavirus Aid, Relief, and Economic Security Act (CARES Act; 
P.L. 116-136) to preserve the jobs of employees of airlines and 
airlines' contractors through September 30, 2020, conditioned 
on the airlines and contractors not involuntarily furloughing 
or reducing the pay rates and benefits of workers before that 
date and refraining from stock buybacks and limiting executive 
compensation.\8\ This effort worked, with every major airline 
signing an agreement with the Department of Treasury to receive 
payroll grants.\9\ Unfortunately, as the grants are exhausted 
and September 30 approaches, many airlines expect to furlough a 
yet-undetermined number of workers \10\. The CARES Act also 
authorizes the Treasury Secretary to provide loans totaling $29 
billion to passenger and cargo airlines, although to date 
neither the airlines nor the Department of Treasury have 
disclosed whether any loan applications have been received or 
processed.
---------------------------------------------------------------------------
    \8\ Pub. L. 116-136 (2020).
    \9\ Dept. of Treasury, Payroll Support Programs, (last accessed 
June 2, 2020) available at https://home.treasury.gov/policy-issues/
cares/preserving-jobs-for-american-industry/payroll-support-program-
payments.
    \10\ American Airlines and Delta move to cut thousands of jobs, 
Financial Times (last accessed June 3, 2020) available at https://
www.ft.com/content/2861caea-89a1-49b0-b12c-9473c7162f19.
---------------------------------------------------------------------------
    In the meantime, aviation workers face risks from exposure 
to COVID-19. As air travel demand begins to recover, flight 
attendants, pilots, gate agents, and service workers face a 
growing number of travelers who are not required under Federal 
law to wear masks, have not been screened for the virus, and 
are unable or unwilling to follow social distancing precautions 
both in the air and on the ground. Customers on full 
transcontinental flights \11\ have raised concerns that 
airlines are not doing enough to protect passengers and 
crewmembers by keeping seats empty to promote physical 
distancing. Airlines generally oppose calls for a Federal 
requirement that they block middle seats on flights to provide 
for greater physical distancing.\12\ However, at least four 
major airlines--Delta, Alaska, JetBlue, and Southwest--are 
voluntarily limiting capacity so that passengers can spread out 
on board, and United and American advise passengers at check-in 
if their flights are booked to more than 70 percent of capacity 
and permit them to change to alternative flights free of charge 
\13\. Further, all major airlines are requiring passengers and 
flight attendants to wear masks or other protective face 
coverings on board their aircraft, although so far airlines are 
not directing crewmembers to strictly enforce these 
requirements.\14\ On June 1, 2020, the International Civil 
Aviation Organization (ICAO) Council released a report and 
recommendations to further reduce health risks for aviation 
workers and passengers and to align international aviation 
efforts as air travel begins to increase.\15\ The guidelines 
cover safety issues for airports, aircraft, crew, and 
passengers.\16\ The Federal Aviation Administration (FAA) has 
declined to issue regulations requiring airlines to block seats 
or requiring passengers to wear masks on board. There is 
concern that once the U.S. airlines' voluntary policies expire, 
there will be no overarching Federally-mandated protection 
against further spread of the virus through the aviation 
system.
---------------------------------------------------------------------------
    \11\ Dawn Gilbertson and Chris Woodyard, Packed United flight 
leaves passengers `scared,' `shocked' amid fears of the coronavirus, 
USA Today (May 10, 2020) available at https://www.usatoday.com/story/
travel/airline-news/2020/05/10/coronavirus-full-united-flight-leaves-
passengers-scared-shocked/3105870001/.
    \12\ Brianna Gurciullo, Airline Industry Aligned Against Passenger 
Distancing Mandates, Politico (May 27, 2020) available at https://
subscriber.politicopro.com/article/2020/05/airline-industry-aligned-
against-passenger-distancing-mandates-1942066.
    \13\ Elizabeth Wolf, More space through summer: Delta will block 
middle-seat selection, cap cabin seating through Sept. 30, Delta 
Airlines Release, https://news.delta.com/more-space-through-summer-
delta-will-block-middle-seat-selection-cap-cabin-seating-through-sept-
30; See also: https://www.alaskaair.com/content/advisories/coronavirus; 
See also: http://otp.investis.com/clients/us/jetblue_airways/usn/
usnews-story.aspx?cid=981&newsid=68927; See also: https://
community.southwest.com/t5/Blog/Our-Southwest-Promise/ba-p/106668#; See 
also: https://thepointsguy.com/news/option-to-change-full-aa-flights/.
    \14\ Airlines for America, COVID-19: How U.S. Carriers are Working 
to Protect Travelers (June 4, 2020), https://www.airlines.org/blog/
covid-19-how-u-s-carriers-are-working-to-protect-travelers/.
    \15\ ICAO, ICAO Council Adopts New COVID-19 Aviation Recovery `Take 
Off' Guidelines (June 1, 2020) available at https://www.icao.int/
Newsroom/Pages/ICAO-Council-adopts-new-COVID.aspx.
    \16\ Id.
---------------------------------------------------------------------------

MARITIME TRANSPORTATION:

    The U.S. maritime industry, including merchant mariners, 
vessel owners and operators, and shipbuilders, the Nation's 
port system, and supporting industries, integrate our economy 
with a vast global maritime supply chain system that moves more 
than 90 percent of the world's trade by tonnage, including 
sources of energy, consumer goods, agricultural products, and 
raw materials.\17\ These industries, vessels, infrastructure, 
and personnel also play critical roles in national security, 
supporting our Nation's ability to provide sealift for the 
Department of Defense (DoD) during times of war and national 
emergency. A 2019 study conducted by PricewaterhouseCoopers 
(PwC) estimated the total U.S. maritime workforce at 
approximately 650,000 Americans \18\.
---------------------------------------------------------------------------
    \17\ Maritime Administrator Mark H. Buzby Testimony before the 
House Committee on Transportation and Infrastructure Subcommittee on 
Coast Guard and Maritime Transportation (March 6, 2019).
    \18\ Transportation Institute, U.S. Maritime Workforce Grows to 
650,000 Americans in Booming Jobs Economy (March 4, 2019), https://
transportationinstitute.org/u-s-maritime-workforce-grows-to-650000/.
---------------------------------------------------------------------------
    U.S. documented (flagged) commercial vessels and civilian 
mariners carry goods to and from, as well as within, the United 
States. These vessels are operated by U.S. licensed deck and 
engineering officers and unlicensed seafarers. During times of 
peace and war, the U.S. Merchant Marine acts as a naval 
auxiliary to deliver troops and war material to military 
operations abroad. Throughout our history, the Navy has relied 
on U.S. flagged commercial vessels to carry weapons and 
supplies and ferry troops to the battlefield. During Operations 
Enduring Freedom and Iraqi Freedom, U.S. flagged commercial 
vessels transported 90 percent of sustainment cargoes to 
Afghanistan and Iraq.\19\ Currently, there are approximately 
41,000 non-fishing related commercial vessels flagged and 
operating in the United States.\20\ The vast majority of these 
vessels are engaged in domestic waterborne commerce, generally 
referred to as the ``Jones Act trade,'' moving 115 million 
passengers and nearly $300 billion worth of goods between ports 
in the U.S. on an annual basis.\21\ Each year the domestic 
coastwise fleet carries nearly 900 million tons of cargo 
through the inland waterways, across the Great Lakes, and along 
the Atlantic, Pacific, and Gulf of Mexico coasts.\22\
---------------------------------------------------------------------------
    \19\ Transp. Inst., U.S. Maritime Workforce Grows to 650,000 
Americans in Booming Jobs Economy (March 4, 2019) https://
transportationinstitute.org/u-s-maritime-workforce-grows-to-650000.
    \20\ MARAD, https://www.maritime.dot.gov/data-reports/data-
statistics/data-statistics.
    \21\ National Strategy for the Marine Transportation System: 
Channeling the Maritime Advantage 2017-2022 (Oct. 2017), http://
www.cmts.gov/downloads/
National_Strategy_for_the_Marine_Transportation_System_October_2017.pdf;
 Economic Contribution of the US Tugboat, Towboat, and Barge Industry 
(June 22, 2017), https://www.marad.dot.gov/wp-content/uploads/pdf/Econ-
Impact-of-US-Tugboat-Towboat-and-Barge-Industry-lh-6-22-17.pdf.
    \22\ The U.S. Waterway System Transportation Facts & Information, 
https://usace.contentdm.oclc.org/digital/collection/p16021coll2/id/
1429/ .
---------------------------------------------------------------------------
    Public ports in the United States play an indispensable 
role in local and regional economies throughout the Nation.\23\ 
Ports generate business development and provide employment to 
more than 13 million Americans, which includes those that work 
at the ports themselves and those employed in global trade and 
import/export support services.\24\ According to the American 
Society of Civil Engineers (ASCE), there are 926 ports in the 
United States, each essential to the Nation's competitiveness 
by serving as gateways through which 99 percent of U.S. 
overseas trade passes.\25\ Ports are responsible for $4.6 
trillion in economic activity--roughly 26 percent of the U.S. 
economy.\26\ The American Association of Port Authorities 
(AAPA) reports that, seaport activities alone accounted for 
$378.1 billion in Federal, state, and local tax revenues in 
2018.\27\ More than 150 deep draft seaports are located along 
the Atlantic and Pacific Oceans as well as the Great Lakes, the 
Gulf of Mexico, Alaska, Hawaii, Puerto Rico, Guam, and the U.S. 
Virgin Islands.\28\ Within the Nation's ports are more than 
3,500 publicly or privately held marine terminals.\29\ Marine 
terminals provide wharfage, dock, warehouse, or other 
facilities to vessels using the U.S. maritime transportation 
system public port authorities, or private operators who lease 
property from such authorities.\30\
---------------------------------------------------------------------------
    \23\ Global Trade Magazine, 2020 U.S. Ports Summary (last accessed 
May 26, 2020) available at https://www.globaltrademag.com/us-ports/.
    \24\ Id.
    \25\ ASCE, 2019 Infrastructure Report Card, Ports (Jan. 2017) 
available at https://www.infrastructurereportcard.org/wp-content/
uploads/2017/01/Ports-Final.pdf.
    \26\ Id.
    \27\ AAPA, The Economic Impact of U.S. Seaports (2019) available at 
http://aapa.files.cms-plus.com/2019_PortsFundingMap.pdf.
    \28\ Global Trade Magazine, https://www.globaltrademag.com/us-
ports/.
    \29\ MARAD, Maritime Transportation System Summary (2020) available 
at https://www.maritime.dot.gov/outreach/maritime-transportation-
system-mts/maritime-transportation-system-mts.
    \30\ Fed. Maritime Com. Marine Terminal Operators (2020) available 
at https://www.fmc.gov/resources-services/marine-terminal-operators/
---------------------------------------------------------------------------
    According to the Organization for Economic Cooperation and 
Development (OECD), the global maritime industry has been 
severely impacted by COVID-19, leaving virtually no market 
segment spared.\31\ Ocean carriers across key trades, 
especially the trans-Pacific trades, enacted capacity cuts, 
either by increasing the number of blank sailings or by laying 
up vessels.\32\ According to recent reports, U.S. ports are 
projecting a 20 to 30 percent drop in container volumes in the 
first half of 2020 caused by general shutdowns across many key 
markets in nations affected by the COVID-19 pandemic.\33\ 
Worse, the global cruise industry worth approximately $150 
billion in 2019 has suspended operations entirely through July 
with no certainty that operations will resume afterwards.\34\ 
\35\ International markets are also experiencing similar 
declines. A well-functioning global supply chain of critical 
medical supplies is necessary to obtain the Personal Protective 
Equipment (PPE) needed to keep U.S. maritime workers safe.
---------------------------------------------------------------------------
    \31\ OECD, COVID-19 and International Trade: Issues and Actions 
(2020).
    \32\ DHL, Global Freight Forwarding, Ocean Freight Market Update 
(May 2020) available at www.dhl.com/content/dam/dhl/global/dhl-global-
forwarding/documents/pdf/glo-dgf-ocean-market-update.pdf.
    \33\ Wall Street Journal, U.S. Ports Likely to See Slump in Cargo 
Volume from Coronavirus (Mar. 3, 2020).
    \34\ Smith, Jen Rose, CNN, What's in Store for the Cruise Industry 
(May 1, 2020), https://www.cnn.com/travel/article/cruise-industry-
coronavirus-aftermath/index.html.
    \35\ The LoadStar, https://theloadstar.com/no-bounce-back-in-
demand-for-container-shipping-this-year/.
---------------------------------------------------------------------------
    To protect maritime workers from the virus and subsequent 
transmission while on duty on vessels or at work in port, the 
U.S. Coast Guard (USCG), in cooperation with the Centers for 
Disease Control and Prevention (CDC), issued Maritime Safety 
Information Bulletins reminding vessel operators of notice 
requirements for any ill passengers or crew before vessels 
arrive in the United States. The CDC also adopted protocols for 
the assessment, isolation, quarantine, transportation, and 
medical treatment of passengers and crew members afflicted by 
the virus while at sea. Similarly, the USCG has implemented 
revised boarding procedures for its service members who must 
board private vessels to conduct compliance, inspection, law 
enforcement or safety activities, including ``virtual 
boardings,'' and distribute PPE to limit exposure of USCG 
personnel while conducting operations. Commercial carriers and 
maritime and longshore unions have adopted new practices to 
avoid transmission, such as adjusted work shifts to limit 
exposure, time for cleaning and disinfecting workspaces, and 
isolation of crews prior to departure to reduce the risk of 
transmission during crew rotations.\36\
---------------------------------------------------------------------------
    \36\ President and CEO, Eric P. Ebeling, American Roll-On Roll-Off 
Carrier Group, On Behalf of USA Maritime Testimony before the House 
Committee on Transportation and Infrastructure Subcommittee on Coast 
Guard and Maritime Transportation (May 29, 2020).
---------------------------------------------------------------------------
    U.S. ports, Marine Terminal Operators (MTOs), and 
stevedores are seeking Federal help to shoulder additional 
costs tied to COVID-19 and to weather the bigger impact from 
the loss of containerized, breakbulk, bulk, and Ro-Ro cargoes, 
as well as losses from the cruise industry which is completely 
shut down in the U.S. through July. The National Association of 
Waterfront Employers (NAWE) on behalf of its MTO members 
requested a one-time grant program of $400 million to go toward 
cleaning supplies and PPE, including plexiglass shields between 
truck gate operators and drayage drivers.\37\ AAPA has asked 
Congress to consider a $1.5 billion grant program for ports, 
allowing them to maintain their workforces and weather 
financial shocks that could reportedly trigger the direct loss 
of up to 130,000 jobs.\38\
---------------------------------------------------------------------------
    \37\ See U.S. Coast Guard, Marine Safety Information Bulletin, MSIB 
Number: 07-20, March 18, 2020; Marine Safety Information Bulletin, MSIB 
Number: 08-20, March 19, 2020; Marine Safety Information Bulletin, MSIB 
Number: 09-20, March 26, 2020; and Marine Safety Information Bulletin, 
MSIB Number: 13-20, April 3, 2020; see slso Letter from NAWE to House 
Committee on Transportation and Infrastructure Subcommittee on Coast 
Guard and Maritime Transportation, May 6, 2020, Assistance for Marine 
Terminal Operators, Operating Ports and Related Companies.
    \38\ Letter from AAPA to House Committee on Transportation and 
Infrastructure Subcommittee on Coast Guard and Maritime Transportation, 
April 16, 2020, COVID-19 Relief Package.
---------------------------------------------------------------------------
    Scores of U.S. mariners who serve aboard U.S.-flag cargo 
ships that operate overseas are unable to take leave or return 
home due to COVID-19 lockdown measures imposed by foreign 
governments. U.S. mariners, serving aboard these vessels which 
are part of the Maritime Security Program, typically serve a 
four-month assignment on ship and then rotate home by air to 
the United States for time off while awaiting their next 
assignment. A fresh crew flies in to relieve them. Right now, 
foreign governments are refusing to allow U.S. mariners to 
leave their ships, to enter overseas airports, or to use hotels 
or any other form of accommodation or transport which would 
allow them to return home. The longer they are at sea without 
relief, the more difficult it becomes to guarantee the safe and 
efficient delivery of the vital food, medicine, military 
supplies and other cargo, and may threaten the essential supply 
chain for some 200,000 active U.S. military personnel now 
serving overseas. Six national maritime unions have recently 
written to the Secretaries of State and Defense asking them to 
enter negotiations as quickly as possible with foreign 
government to allow these important crew rotations to occur as 
expeditiously as possible \39\.
---------------------------------------------------------------------------
    \39\ Maritime Unions, Letter to the Administration, received by 
Secretary Mark Esper and Secretary Mike Pompeo (May 28, 2020) at 
https://bridgedeck.org/latestnews/Unions_Letter_To_Administration.pdf.
---------------------------------------------------------------------------

HIGHWAYS AND TRANSIT:

    The COVID-19 pandemic has changed the way Americans travel, 
commute, and purchase goods impacting sectors including public 
transportation, trucking, and construction. Transit agencies 
nationwide have experienced declining ridership, with some 
systems sustaining ridership losses of nearly 90 percent, 
causing transit agencies to reduce their hours of service.\40\ 
Many transit operators, drivers, station managers, and 
maintenance employees continue to report to work, providing 
critical transportation services to essential workers. To 
increase the safety of both frontline workers and passengers, 
transit agencies have implemented social distancing safety 
measures on buses and trains, including limiting capacity, 
suspending fare collection, and requiring rear-door bus 
boarding.\41\ Transit workers, however, continue to report 
challenges accessing personal protective equipment (PPE).\42\ 
In an effort to help protect these essential workers, the DOT 
announced that nearly 5 million cloth face masks will be 
provided to public transportation workers.\43\ Serious risks 
remain for transit workers; to date more than 50 members of the 
Amalgamated Transit Union alone have died from COVID-19 and 
countless more have been infected or exposed.\44\
---------------------------------------------------------------------------
    \40\ Khurana, Mansee, NBC News, Transit Systems in Free Fall Beg 
for Federal Help over Coronavirus (March 24, 2020), https://
www.nbcnews.com/politics/politics-news/transit-systems-free-fall-beg-
federal-help-over-coronavirus-n1165256.
    \41\ The American Public Transp. Ass'n, The COVID-19 Pandemic 
Public Transportation Responds: Safeguarding Riders and Employees, 
(April 13, 2020) available at https://www.apta.com/wp-content/uploads/
COVID-19_Transit_Guide_FINAL_04132020.pdf.
    \42\ Select Subcommittee on the Coronavirus Crisis, Hearing: Heroes 
of the Coronavirus Crisis: Protecting Frontline and Essential Workers 
During the Pandemic (May 21, 2020).
    \43\ Dept. of Transp., Trump Administration to Distribute over 15 
Million Cloth Facial Coverings to America's Transportation Workforce, 
(May 28, 2020) available at https://www.transportation.gov/briefing-
room/trump-administration-distribute-over-15-million-cloth-facial-
coverings-americas.
    \44\ Amalgamated Transit Union, As States Reopen, Transit Worker 
Death Toll Reaches Grim Benchmark (May 27, 2020) available at https://
www.atu.org/media/releases/as-states-reopen-transit-worker-death-toll-
reaches-grim-benchmark.
---------------------------------------------------------------------------
    Further efforts to improve worker safety, passenger health, 
and system reliability will be required in order for transit to 
support a broader return to work and economic recovery. Transit 
advocates forecast a long financial recovery with fare revenues 
and local tax receipts predicted to be depressed through fiscal 
year (FY) 2021. To aid transit agencies, workers, and riders, 
Congress provided $25 billion to support public transportation 
throughout the Nation in the CARES Act. The House of 
Representatives has also passed the HEROES Act, which seeks to 
provide an additional $15.75 billion to transit agencies that 
serve the most populated urban areas, would require passengers 
to wear masks, and would ensure transit workers on systems with 
the highest ridership have access to PPE.
    Meanwhile, the trucking industry and its drivers have kept 
Americans supplied with food, medicine, and other necessities 
throughout the COVID-19 pandemic. The Nation's truck drivers 
have risked their own health and safety in order to ensure the 
continued movement of goods. By transporting PPE, food, and 
consumer goods, truck drivers have kept products moving and 
have played a vital role in the immediate response to the 
coronavirus. While some trucking sectors have seen demand drop 
abruptly, drivers delivering essentials such as medical 
supplies, safety equipment, and food to restock grocery store 
shelves have continued to work in order to make these critical 
deliveries. On March 13, 2020, the Federal Motor Carrier Safety 
Administration (FMCSA) issued Emergency Declaration No. 2020-
002 waiving hours-of-service regulations for motor carriers and 
drivers transporting essential supplies and equipment to aid in 
emergency relief efforts.\45\ The Emergency Declaration was 
subsequently extended until June 14, 2020.\46\ Besides risks to 
their health and safety, truck drivers making essential 
deliveries during the COVID-19 pandemic have also had to 
contend with restaurant and business closures that have left 
them without options for hot meals or access to clean restrooms 
while on the road. In March, FMCSA encouraged States to allow 
public and private rest areas to remain open so that drivers 
transporting essential supplies could stop to rest and use the 
bathroom.\47\ And while commercial activity is ordinarily 
prohibited in interstate highway rest areas, on April 3, 2020, 
FMCSA issued a notice that the agency was suspending 
enforcement against commercial food trucks operating in 
Federally funded interstate highway rest areas until the 
national emergency declaration is lifted.\48\
---------------------------------------------------------------------------
    \45\ Fed. Motor Carrier Safety Admin., Expanded Emergency 
Declaration under 49 CFR Sec.  390.23 No. 2020-002 (Relating to COVID-
19) (April 8, 2020) available at https://www.fmcsa.dot.gov/emergency/
expanded-emergency-declaration-under-49-cfr-ss-39023-no-2020-002-
relating-covid-19.
    \46\ Fed. Motor Carrier Safety Admin., Extension of Expanded 
Emergency Declaration No. 2020-002 Under 49 CFR Sec.  390.25, (May 13, 
2020) available at https://www.fmcsa.dot.gov/emergency/extension-
expanded-emergency-declaration-no-2020-002-under-49-cfr-ss-39025.
    \47\ Nason, Nicole, Letter to AASHTO, Received by Patrick McKenna, 
(March 23, 2020), https://www.fhwa.dot.gov/media/aashto.cfm.
    \48\ Fed. Highway Admin., Notice of Enforcement Direction: 
Operation of Commercial Food Trucks in Federally Funded Interstate 
Highway Rest Areas During the Public Health Emergency (COVID-19) (April 
3, 2020) available at https://www.fhwa.dot.gov/media/noe.cfm.
---------------------------------------------------------------------------
    In response to recommendations from the CDC, many States 
have closed government offices to help slow the spread of 
COVID-19. These closures included State Driver Licensing 
Agencies (SDLA) which are responsible for testing and 
administration of commercial driver's licenses (CDL). In order 
to ensure an adequate supply of commercial motor vehicle 
drivers are able to deliver essential supplies, FMCSA issued a 
series of waivers for drivers who are unable to obtain, renew, 
or be tested for their CDL due to SDLA closures.\49\ The 
waivers are set to expire on June 30, 2020.\50\
---------------------------------------------------------------------------
    \49\ Fed. Motor Carrier Safety Admin., FMCSA Coronavirus (COVID-19) 
Information & Resources, (last accessed June 2, 2020) available at 
https://www.fmcsa.dot.gov/COVID-19.
    \50\ Id.
---------------------------------------------------------------------------
    Finally, the transportation construction sector has been 
deemed essential in most States and continues to operate 
despite the COVID-19 crisis. Many States have used the period 
of reduced traffic and ridership to accelerate highway and 
transit projects in order to decrease costs and project 
delivery timelines. Even in States and localities which have 
halted construction due to COVID-19, some transportation-
related construction has been allowed to continue. However, 
COVID-19 can pose serious health and safety risks to 
construction workers whose jobs require them to work in close 
proximity to others while on a job site. To help combat virus 
spread, certain areas have adopted precautions such as 
screening for symptoms, social distancing requirements, and 
staggering work schedules to reduce the total number of 
employees present at one time.

RAIL TRANSPORTATION:

    Like airlines and public transportation, Amtrak has been 
affected by the COVID-19 crisis. In a recent letter to 
Congressional leadership, Amtrak stated that service is around 
five percent of normal levels (as of May 2020).\51\ This 
reduced ridership has contributed to lower revenues and higher 
costs for Amtrak and its state-supported route partners.\52\ 
Congress provided $1.018 billion in the CARES Act to support 
the national passenger railroad, of which $239 million was made 
available to cover the increased costs to States. The CARES Act 
also required Amtrak to report weekly on the number of 
employees furloughed as a result of the pandemic and to provide 
such employees the opportunity to be recalled to their previous 
positions when Amtrak restores service levels.
---------------------------------------------------------------------------
    \51\ Flynn, William J., Amtrak Supplemental FY21 Funding Letter to 
Congress, Received by The Honorable Mike Pence and The Honorable Nancy 
Pelosi, (May 25, 2020), at https://media.amtrak.com/wp-content/uploads/
2020/05/Amtrak-Supplemental-FY21-Funding-Letter-to-Congress-Final-
Signed-5.25.20.pdf.
    \52\ Id.
---------------------------------------------------------------------------
    Currently, Amtrak projects a 50 percent reduction in 
system-wide revenue for FY 2021 compared to its original 
projections for the full year.\53\ According to its letter to 
Congress, to help offset revenue losses in FY 2021, Amtrak will 
take steps to reduce operating costs by approximately $500 
million.\54\ This includes reducing $150 million by shifting 
all long-distance routes to less-than-daily service, 
significantly reducing Northeast Corridor (NEC) frequencies, 
and working with State partners to determine the level and type 
of service they can sustain.\55\ Amtrak also predicts cutting 
labor costs by $350 million through attrition, voluntary 
separation programs, hiring restrictions, and other 
measures.\56\ Some reports indicate a potential 20 percent 
reduction in the workforce.\57\ Even after making these service 
and workforce reductions, Amtrak is requesting an additional 
$1.475 in supplemental aid, on top of its annual appropriations 
request, to make up for lost revenue and to cover costs 
associated with COVID-19 in FY 2021.
---------------------------------------------------------------------------
    \53\ Id.
    \54\ Id.
    \55\ Id.
    \56\ Id.
    \57\ Ted Mann, Amtrak Prepares to Cut 20% of Workforce, Wall Street 
Journal (May 26, 2020) available at https://www.wsj.com/articles/
amtrak-prepares-to-cut-20-of-workforce-11590529328.
---------------------------------------------------------------------------
    The impact of the pandemic on consumer demand and trade 
levels have also affected the freight rail industry and its 
workers. The U.S. railroads reported measuring 14.3 percent and 
11.3 percent lower volumes of carloads and intermodal units, 
respectively, over the same period in 2019.\58\ The April 
Surface Transportation Board's monthly employment data report 
shows that employment within Class I railroads has reduced by 
13 percent from the year prior.\59\ Across the entire passenger 
and freight railroad industry, the number of unemployment and 
sickness claims under the Railroad Unemployment Insurance Act 
have increased--unemployment claims in May 2020 total 29,273 
(versus 4,953 in May 2019) and sickness claims in May 2020 
total 10,007 (versus 8,598 in May 2019).\60\
---------------------------------------------------------------------------
    \58\ Ass'n of American Railroads, Weekly Rail Traffic for the Week 
Ending May 23, 2020 (May 27, 2020) available at https://www.aar.org/
news/weekly-rail-traffic-for-the-week-ending-may-23-2020/.
    \59\ Surface Transp. Board, Employment Data, (last accessed June 2, 
2020) available at https://prod.stb.gov/reports-data/economic-data/
employment-data/ . Note that most of the Class I railroads have 
implemented precision scheduled railroading (PSR), which has led to 
cutting its workforce. STB date does not make a distinction between 
reductions caused by PSR and the pandemic.
    \60\ Railroad Retirement Board, Staff Briefing (June 1, 2020).
---------------------------------------------------------------------------
    The freight railroads have undertaken various levels of 
efforts to provide needed PPE to its workforce, while Amtrak 
recently began requiring all customer-facing employees (and all 
customers) to wear facial coverings.\61\
---------------------------------------------------------------------------
    \61\ Amtrak, Amtrak: Ready for Our Customers (last accessed June 2, 
2020) available at https://www.amtrak.com/coronavirus.
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet> LMr. Larry Willis, President, Transportation 
Trades Department of the AFL-CIO
    <bullet> LMr. Lamont Byrd, Director of Safety and Health, 
International Brotherhood of Teamsters
    <bullet> LMs. Susannah Carr, Flight Attendant, United 
Airlines, on behalf of the Association of Flight Attendants--
CWA
    <bullet> LMr. Tom Shaw, Transit Operator, Southeastern 
Pennsylvania Transportation Authority, on behalf of the 
Transportation Workers Union
    <bullet> LMr. Randy Guillot, President, Triple G Express, 
Inc. and Southeastern Motor Freight Inc., and Chairman, 
American Trucking Associations, on behalf of the American 
Trucking Associations

 
 ON THE FRONT LINES: THE IMPACTS OF COVID-19 ON TRANSPORTATION WORKERS

                              ----------                              


                         TUESDAY, JUNE 9, 2020

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 1:04 p.m., in room 
2167 Rayburn House Office Building and via Webex, Hon. Peter A. 
DeFazio (Chairman of the committee) presiding.
    [Audio malfunction.]
    Mr. DeFazio. The test is over. OK. Back to where I was with 
a brief opening statement.
    I mean, obviously, our Nation has been tremendously 
challenged over the last months. COVID has disrupted the entire 
fabric of the country. Hopefully, we are beginning to move 
toward a recovery phase, which would come with an 
infrastructure investment to put people back to work, but we 
also now have the challenge of what has happened--the murder of 
George Floyd.
    And the House Democrats introduced a bill yesterday. It is 
being heard tomorrow, and it will be marked up next week. And I 
expect the week after next we will work on substantial justice 
reform in the House of Representatives. And then the following 
week we will be taking up an infrastructure package and perhaps 
other bills. I am not quite certain what all those might be.
    We are hearing today from one of, obviously, under our 
jurisdiction, the most impacted sectors of the economy, those 
who work in transportation, both in terms of the economic 
impact, the loss of ridership or paying passengers in the case 
of aviation, the challenges to trucking. Certain sectors are 
incredibly busy; other sectors have been devastated, 
particularly those who deliver automobiles and some other 
sectors.
    There have been questions in all sectors about personal 
protective equipment and other measures that need to be taken 
to protect transit workers, aviation flight attendants, pilots, 
passengers on airplanes, passengers in transit on rail, on 
Amtrak. I was talking to the new president of Amtrak yesterday. 
Their revenues are still down over 90 percent.
    So, you know, we have many challenges across many sectors. 
Maritime has been impacted. So we are going to hear from the 
folks on the front lines today, how this has impacted them, 
what measures have been taken, what is working, what isn't, 
what further measures need to be taken--can they be done 
voluntarily, do they need to be done with Federal direction, 
either administratively or legislatively--to keep workers and 
passengers safe, to keep freight moving in an orderly way, to 
help restore the economy, and other challenges.
    So, with that, I would defer to Ranking Member Graves for 
his opening statement.
    Sam?
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Good afternoon and welcome. I want to begin today's hearing by 
recognizing the tragedy of George Floyd's death at the hands of a white 
Minneapolis, MN police officer fifteen days ago. Our nation watched his 
brutal murder in horror, a murder perpetrated by the very men sworn to 
protect and serve their communities. George Floyd's name joins an ever-
growing list of Black and brown individuals who have been victim to 
police brutality and systemic racism in policing.
    George Floyd's murder and those of Breonna Taylor, and Ahmaud 
Arbery are gasping reminders of the original sins of our nation that go 
back over 400 years. George, Breonna, and Ahmaud's lives were taken 
violently because of the systemic failures of our nation. This is 
wrong. This is shameful. This is not what America should be, and we 
will not go back. We have had enough.
    In the two weeks since Mr. Floyd's murder, thousands of Americans 
have peacefully assembled in all 50 states to petition their government 
for change. My hometown, which has a proud tradition of civic 
participation and free speech expression, saw the largest protest in 
our history last week, as residents rose up in response to these 
shameful racist acts and demanded immediate justice and reform.
    The episodes of brutality by local police across the country and 
President Trump's ordered assault on peaceful protestors--to score a 
photo op--underscore the urgent necessity for reforms in our criminal 
justice system. My colleagues and I will make it absolutely clear to 
African-Americans and all victims of police brutality that we hear your 
pain, we mourn with you. And importantly, we will not sit idly by and 
let these injustices persist.
    In the coming days, the Judiciary Committee will consider 
comprehensive legislation to reform our police departments, limiting 
the transfer of weapons of war to local police, and eliminate the 
qualified immunity doctrine that has indemnified law enforcement 
officers from the consequences of the violent crimes they've committed 
against the public they serve. Let there finally be justice and dignity 
for George Floyd and the countless others who lost their lives because 
of our past failures.
    It is against this somber backdrop that we join you today under 
further extraordinary circumstances. The COVID-19 pandemic has affected 
every aspect of American life, shuttering restaurants, cancelling 
sporting events, and killing more than 100,000 Americans, which has 
disproportionately impacted African-American and Hispanic communities 
across the country. Even the United States Congress has been impacted, 
as we are joining you live from the first ever hybrid virtual and in-
person hearing in our Committee's history.
    While the coronavirus has left many industries reeling, few have 
been as hard hit as the transportation industry. Providing an essential 
service, transportation workers have continued to show up to work 
driving buses and trains, caring for passengers on airplanes, moving 
freight, and repairing roads and bridges.
    While many of us have had the great privilege of being able to work 
from home, transportation workers have not. They continue showing up to 
work, often without adequate PPE, to make sure that our economy 
functions and we have access to the goods, services, and supplies that 
we need. When these workers go out to serve the public, they don't know 
what they'll be exposed to and if they'll endanger their family when 
they come home each night.
    Truck drivers played a vital role in the early response to COVID-
19, keeping grocery stores stocked with supplies and transporting PPE 
and other medical equipment across the country. All the while, rest 
stops and restaurants across the country were closing, increasing the 
discomfort and challenge of doing an already difficult job.
    American mariners carrying food and supplies to troops stationed 
abroad have also been caught in the grasp of the COVID-19 pandemic. As 
countries across the world shut their borders, mariners participating 
in the Maritime Security Program have been unable to leave their ships 
at international ports of call and replacement crews have been unable 
to provide relief due to travel bans domestically and abroad.
    The global pandemic has also left the aviation industry facing the 
greatest financial crisis it has ever seen, and passenger demand for 
air travel isn't expected to return to pre-pandemic levels until 2023. 
While much of the attention has been focused on air carriers, more than 
750,000 Americans are employed by passenger and cargo airlines, the 
majority of whom are facing furlough and layoff threats in the near 
future.
    I was proud to champion language in the CARES Act to preserve 
airline and airline contractor jobs by creating the Payroll Support 
Program. I wasn't going to allow us to make the same mistakes we made 
after 9/11 when Congress bailed out the airlines, but the Bush 
administration required cuts to employee pay and benefits, including 
the ravaging of employee pensions while CEOs got fat bonuses and golden 
parachutes. We were able to guarantee rank and file employees job 
protections along with no reductions to their rate of pay and benefits 
packages through the end of September. And I will continue to fight to 
protect these jobs.
    While air travel is trickling back up, flight attendants, pilots, 
gate agents, and service workers face a growing number of travelers who 
are not required under Federal law to wear masks, have not been 
screened for the virus, and are unable or unwilling to follow social 
distancing precautions both in the air and on the ground. Airlines have 
taken a patchwork approach to worker and passenger safety, with some 
allowing full planes to fly six-hour transcontinental journeys. Even 
worse, some airlines attempted to profit off of the public health 
crisis. Frontier Airlines began charging customers to leave an empty 
seat between them and other passengers until I publicly shamed them 
into changing their egregious policy.
    Although the airlines require facemasks, the lack of a Federal 
mandate on protective equipment and physical distancing on board leaves 
flight attendants with little enforcement and greater personal risk. 
The FAA has refused to intervene, and Secretary Chao recently dismissed 
public health and safety as merely a ``labor-management'' issue.
    But it's not just aviation employees who are forced to work in 
unsafe environments. Across the board, Federal agencies have refused to 
issue mandatory guidance protecting workers and the general public, 
instead relying on voluntary recommendations that offer little 
practical guidance other than suggesting that agencies develop rules to 
keep their employees safe without even collecting best practices from 
different sectors.
    Is that the best that our Federal government can do? Encourage 
agencies to adopt non-specific measures on social distancing and PPE? 
We employ one of the greatest public health research bodies on Earth, 
and all we can do is vague voluntary guidance? Our transportation 
workers are putting their lives on the line to preserve access to 
health care, supplies, jobs, and the global economy. They deserve 
better, and I hope we can deliver that for them.
    So, before I run out of time, I want to say to our witnesses, and 
to your brothers and sisters in the field, thank you. Your sacrifices 
on behalf of our country are greatly appreciated, and we know the risk 
you take on our behalf.

    Mr. Graves of Missouri. Thank you, Mr. Chairman. I 
appreciate it.
    And I do appreciate your willingness to conduct today's 
event as a hybrid hearing. I think it is important to allow 
Members who want to participate in person the option to do 
that. And, at the very least, we ought to be able to figure 
out--and I think we have at this point--figure out the 
technical issues when it comes to the committee hearing room 
itself.
    You know, it is important to understand just how, as you 
pointed out, this coronavirus pandemic has impacted frontline 
transportation workers so we can determine at least a path to a 
safe recovery. The pandemic has ravaged our country, with 
entire sectors of our economy coming to a screeching halt. And 
I am sure we all hope that last week's better than expected 
jobs report is the beginning of a recovery, but that still 
remains to be seen.
    Throughout this pandemic, many workers have continued to 
show up and put in a hard day's work. And just like the overall 
economy, different sectors of the transportation economy have 
been impacted in different ways by coronavirus, but many of the 
essential workers in the transportation sector are still doing 
their jobs.
    So, moving forward to a recovery, we have to make smart, 
safe, and calculated decisions to get our workforce going and 
businesses hiring again. And this is going to affect our 
ability to restart and reconnect supply chains that are 
absolutely key to any recovery.
    As Americans, as we get back to traveling, we need to be 
safe and use effective measures to give us the confidence we 
need to return. But we also have to ensure that the workers 
that provide these transportation services, that they are safe.
    And I am glad we will have the opportunity today to hear 
directly from frontline workers about their experiences during 
the pandemic. And thank you to all of the witnesses for 
participating today, but, more importantly, thank you for 
keeping our economy moving even in some very, very difficult 
times.
    And, finally, I do want to add, as everybody else has added 
too, it is incumbent upon us to make sure that we mute and 
unmute ourselves throughout this process.
    But, with that, I yield back.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman DeFazio. First, I appreciate your willingness 
to conduct today's event as a hybrid proceeding. I think it is 
important to allow any Member who wants to participate in person the 
option to do so and I hope we can continue to do that for any official 
Committee activities.
    It's important to understand how the coronavirus pandemic has 
impacted frontline transportation workers so we can determine a path to 
a safe recovery.
    The pandemic has ravaged our country, with entire sectors of our 
economy coming to a screeching halt. I'm sure we all hope last week's 
better-than-expected jobs report is the beginning of recovery, but that 
remains to be seen.
    Throughout this pandemic, many workers have continued to show up 
and put in a hard day's work. Just like the overall economy, different 
sectors of the transportation economy have been impacted in different 
ways by the coronavirus, but many of the essential workers in this 
sector are still doing their jobs.
    Moving forward to recovery, we must make smart, safe, and 
calculated decisions to get our workforce going and businesses hiring 
again. This will affect our ability to restart and reconnect supply 
chains that are key to economic recovery.
    As Americans get back to traveling, they need safe and effective 
measures to give them the confidence needed to return. But we also must 
ensure that the workers providing these transportation services are 
safe.
    I'm glad we have the opportunity today to hear directly from 
frontline workers about their experiences during the pandemic. Thank 
you for participating today, but more importantly, thank you for 
keeping our country moving even in these difficult times.

    Mr. DeFazio. Thanks, Sam. I appreciate your opening 
statement.
    With that, I will move on to our witnesses. The first 
witness will be Larry Willis, president of the Transportation 
Trades Department of the AFL-CIO.
    Mr. Willis, unmute yourself and proceed with your 
statement.
    Someone else needs to mute. Someone else needs to mute, 
please.
    OK. Go ahead.

TESTIMONY OF LARRY I. WILLIS, PRESIDENT, TRANSPORTATION TRADES 
   DEPARTMENT, AFL-CIO; LAMONT BYRD, DIRECTOR OF SAFETY AND 
HEALTH, INTERNATIONAL BROTHERHOOD OF TEAMSTERS; SUSANNAH CARR, 
FLIGHT ATTENDANT, UNITED AIRLINES, TESTIFYING ON BEHALF OF THE 
 ASSOCIATION OF FLIGHT ATTENDANTS--CWA, AFL-CIO; THOMAS SHAW, 
  TRANSIT OPERATOR, SOUTHEASTERN PENNSYLVANIA TRANSPORTATION 
AUTHORITY, TESTIFYING ON BEHALF OF THE TRANSPORT WORKERS UNION 
  OF AMERICA; AND RANDY GUILLOT, PRESIDENT, TRIPLE G EXPRESS, 
   INC. AND SOUTHEASTERN MOTOR FREIGHT, INC., AND CHAIRMAN, 
 AMERICAN TRUCKING ASSOCIATIONS (ATA), TESTIFYING ON BEHALF OF 
                              ATA

    Mr. Willis. Thank you, Mr. Chairman and Ranking Member 
Graves, for the invitation on behalf of our 33 affiliated 
unions and millions of frontline workers represented by the 
unions the opportunity to be here virtually today. I think it 
is an important hearing.
    I want to thank you, Mr. Chairman and Mr. Graves, for your 
kind comments about our members and the role that we are 
playing during this pandemic; and, Mr. DeFazio, for your 
leadership, and members of this committee, with the CARES Act 
and the Heroes Act, other things that have been done to speak 
to this public health and economic crisis.
    You know, our members, they operate and build 
transportation networks that bring people, goods, and critical 
supplies to every corner of our Nation. Whether they work in 
aviation, transit, or rail, commercial bus, construction, or 
longshore and maritime sectors, they are essential by any 
definition of the word.
    As COVID-19 has spread across our country, many of these 
workers have continued to perform essential duties, often at 
great personal cost. I am talking about transit workers who 
have continued to drive buses in the face of the pandemic 
despite hundreds, if not thousands, of deaths in this sector 
alone; longshore workers who continue to load and unload 
vessels in close quarters; the freight rail workers who forge 
ahead even as carriers slash workforces that are already 
dangerously thin; pilots and flight attendants, who were some 
of the first U.S. workers exposed to COVID-19, that were not 
given the right tools they needed to protect themselves and 
their passengers.
    I am also talking about those who have lost their jobs as 
our economy has ground to a halt, are unsure about when their 
next paycheck is coming, and now find themselves without 
healthcare during a pandemic.
    Since the beginning of this crisis, transportation labor 
has prioritized the safety of our Nation's frontline workers. 
You called for appropriate PPE, workplace sanitation and 
cleaning procedures, and proper social distance policies at 
work.
    Despite these repeated calls for action, this 
administration and far too many employers have failed to 
provide timely or appropriate responses to this virus or have 
flat-out refused to act.
    In this stunning absence of leadership and swift action, it 
has been working people and their unions that have sounded the 
alarm and used their collective power to----
    [Audio interruption.]
    Mr. DeFazio. Please mute.
    Go ahead, Larry.
    Mr. Willis. But a crisis of this magnitude demands a 
national solution. Congress must act decisively and with the 
full authority of the Federal Government. For transportation 
workers, this means enforceable, modal-specific rules that we 
know will keep our members, passengers, and their families 
safer and better protected.
    Many of the mandates we have called for were included in 
the Heroes Fund pension reform passed by the House and should 
be expanded to cover our broad and diverse transportation 
system. We also support the Every Worker Protection Act of 
2020, which would require OSHA to issue an Emergency Temporary 
Standard within 7 days. By adopting these measures, Congress 
can make a real difference in the lives of frontline 
transportation employees and all workers.
    Your job, however, cannot end there. The economic impact of 
COVID-19 has been devastating and will reverberate years beyond 
the immediate healthcare crisis that we are in. Congress must 
use every tool at its disposal to mitigate the hard times 
ahead, including bold Federal investment in our transportation 
network.
    Public transit needs billions more to maintain critical 
services and avoid job cuts in communities across the country. 
Amtrak reports it is expecting a 50-percent cut in riders in 
the next fiscal year and plans to furlough up to 20 percent of 
its workforce--a plan that must be rejected.
    The closure of school facilities has resulted in the loss 
of employment for thousands of schoolbus drivers, mechanics, 
and other employees. Slowing cargo volumes threaten the 
viability of the U.S. maritime industry. Stipends for vessels 
enrolled in the Maritime Security Program should be increased.
    Air travel, as has been mentioned, is down over 90 percent 
compared to last year. And while the CARES Act payroll grant 
program did an excellent job of preventing immediate and 
massive crisis in the sector, we know that the airline industry 
remains in an extremely difficult and challenging financial 
position.
    We also know that investing in infrastructure creates and 
sustains good jobs in construction, maintenance, operations, 
and manufacturing. What is more, when we improve the quality 
and accessibility of our transportation network, the economic 
opportunity of those investments extends to every corner of our 
economy, from businesses who can move goods quicker and more 
reliably, to workers who reach new opportunities because of 
improved highway and transit access.
    Finally, we cannot ignore the fact, especially given the 
times that Chairman DeFazio mentioned, that communities of 
color have been disproportionately impacted by this crisis. We 
must understand that this did not happen by accident; it was 
the direct result of systemic racism that has plagued our 
Nation.
    While one hearing, one speech, with one piece of 
legislation cannot unravel generations of oppression, change 
can start today, right now, with all of us. As lawmakers, as 
labor leaders, as workers, we must all see racism and racial 
injustice for the disease that it is and seek to implement 
solutions that uplift and support our black and brown brothers 
and sisters and say with conviction, ``Black lives matter.''
    With that, Mr. Chairman, thank you again for the 
opportunity to testify.
    [Mr. Willis' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Larry I. Willis, President, Transportation Trades 
                          Department, AFL-CIO
    On behalf of the Transportation Trades Department, AFL-CIO (TTD), 
and our 33 affiliated unions, I want to first thank Chairman DeFazio 
and Ranking Member Graves for inviting me to testify today on the 
impacts of COVID-19 on the transportation workforce. I am also proud to 
be here today with witnesses from two TTD-affiliated unions; Susannah 
Carr, a United Airlines flight attendant on behalf of the Association 
of Flight Attendants, CWA and Tom Shaw, a transit operator at SEPTA on 
behalf of the Transport Workers Union.
    As COVID-19 has spread across the nation, causing over 100,000 
deaths and unprecedented disruption to our way of life, we appreciate 
the opportunity to share the perspective of the frontline 
transportation workforce.
    The working people we represent move America. Our members run and 
build the transportation networks that bring people, goods, and 
critical supplies to every corner of our nation. It is our members in 
every segment of the aviation, transit, commercial bus, rail, 
construction, longshore, and maritime sectors that make these 
industries function. They are essential by any definition of the word.
    Over the last few months, many of these workers have continued to 
perform their essential duties, far too often at great personal cost. 
Many others find themselves among the 40 million Americans who have 
lost their jobs due to an economy that has ground to a halt. During a 
national health crisis, these members are now without their hard-earned 
union health care benefits, and are unsure when the next paycheck is 
coming. Workers have felt these impacts across every sector of the 
transportation industry, and I am here today to tell their stories.
    When essential employees like medical personnel have to get to 
their jobs, it is our members who get them there safely. Transit 
workers have continued to drive and maintain buses in the face of 
pandemic, despite hundreds if not thousands of deaths in the sector. At 
the same time, a drastic drop in fare box revenues threatens the 
abilities of transit agencies to continue to provide service at all.
    A 95% decrease in ridership on Amtrak threatens the livelihood of 
its employees and the future of the carrier, who just last week 
announced it will be cutting up to 20% of its workforce starting in the 
fall. Air travel is likewise down over 90% compared to last year and 
this industry faces severe financial strain. While the CARES Act 
payroll grant program protects jobs until October 1st, many workers are 
facing reduced hours and uncertain job security once the layoff and 
furlough protections are lifted. The indefinite cancellation of in-
person education has left thousands of school bus drivers, matrons, and 
mechanics out of a job with no end in sight. The motorcoach industry, 
which provides critical intercity transportation across the country, 
has seen nearly 3,000 companies shut down and almost 100,000 employees 
laid off.
    This crisis also reminds us of the irreplaceable role of our 
freight network and its essential workforce. Food, medical supplies, 
and the goods that fuel our economy must still reach their 
destinations, yet, COVID-19 has not spared the systems and employees 
that move them. Across the country, freight railroads are slashing 
already dangerously thin workforces as carloads fall. We are witnessing 
outbreaks at ports and harbors where longshoremen load and unload 
vessels in close quarters, and increasingly uncertain futures for the 
maritime shipping industry and sustainment of the essential defense 
functions it provides. Even the Postal Service is at risk, as USPS and 
the 600,000 jobs it supports face total insolvency in a matter of 
months without needed and warranted government assistance.
    This crisis also requires us to support the work that federal 
employees play in keeping our transportation network safe and secure 
and recognize steps that must be taken to protect this workforce. For 
instance, at the FAA, employees work in close proximity to each other, 
use shared electronic equipment, and cannot always follow the CDC's 
recommendation for social distancing to avoid spreading the virus. 
Through their unions--air traffic controllers, technicians, inspectors, 
and other essential FAA employees--fought for and secured smart 
teleworking policies, flexible scheduling and operational practices, 
and coordinated cleaning and sanitization to reduce employee exposure 
to the virus. At TSA, similar joint action is needed to ensure the 
safety of the Transportation Security Officers (TSOs) who are 
continuing to do their jobs keeping our nation's skies safe. TSA needs 
to provide clear mandates for masks in security checkpoints for 
passengers, as well as the regular rotation of security lines for 
cleaning and sanitization. Further, now more than ever, TSOs need the 
rights and due process afforded to other federal employees through 
Title V.
    A loss of state revenues and financial uncertainty has frozen 
critical infrastructure projects, threatening both the construction 
workforce and the transportation system that depends on the continuous 
maintenance and improvements they provide. At the federal level, a 
suspension of aviation taxes and a lack of consumer demand in the 
industry has threatened the viability of the Airport and Airways Trust 
Fund, which provides funding for FAA operations, facilities and 
equipment, research and development, and airport improvement grants.
    Since the beginning of the pandemic, it has been the top priority 
of transportation labor to ensure that frontline employees are provided 
the protections they need to keep them as safe as possible from 
exposure to COVID-19. Simply put, it is untenable and unacceptable for 
any essential infrastructure employee to go to work without adequate 
personal protective equipment (PPE), for their workplace to be 
improperly cleaned and sterilized, or to be potentially exposed to 
COVID-19 because of improper social distancing policies or passengers 
without face coverings.
    Unfortunately, many of our employers took weeks or months to roll 
out meaningful COVID-19 responses. Some airlines, as well as Amtrak, 
actually prohibited the use of masks or gloves by their employees until 
pressured into reversing course. A commuter railroad refused to stop 
using a biometric device employees use to clock in to work, 
acknowledging that while the equipment was frequently touched by dozens 
of people, it would be too burdensome to switch to a safer system. And 
a freight railroad provided its conductors and engineers with masks of 
such poor quality that facial hair poked straight through the fabric.
    While some individual efforts have been more successful, the 
patchwork of COVID-19 plans across our transportation system has been 
inadequate. A national crisis demands national response and leadership. 
This is why we have repeatedly called on the federal government and 
this administration to impose mandatory safety rules in all modes of 
transportation and across our broader economy. Too often these pleas 
have been rejected or simply ignored due to a misguided belief that 
employers will eventually rise to the challenge of their own accord. 
Let's be clear: these failures and inactions have directly caused 
infections and cost lives that could have been saved with early and 
well-coordinated strategies.
    Let us also be clear: it has been workers and their unions that 
have sounded the alarm in the workplace and used collective bargaining 
agreements and public advocacy to force the hands of policymakers and 
employers. The ability of workers to document safety violations without 
fear of reprisal, secure meaningful sick leave policies, and access 
Employee Assistance Programs exists because many transportation workers 
are covered by collective bargaining agreements.
    However, we cannot continue with piecemeal solutions across 
companies, agencies, cities, and states. Congress must act decisively 
and with the full authority of the federal government. We applaud your 
efforts to include needed modal specific protections for aviation, 
transit, and Amtrak in the HEORES Act. Strong federal mandates like 
these are the clear solution to keeping transportation workers safe. We 
call on Congress to build on the framework of HEROES and provide 
similar critical protections for all frontline transportation workers. 
This includes:
    <bullet>  The provision of high quality PPE, in accordance with CDC 
guidelines, to employees who are at risk of infection. This must 
include masks, gloves, hand sanitizer, and sanitizing wipes
    <bullet>  A requirement of owners and operators of planes, 
commercial motor vehicles, trains, and vessels to clean and sanitize 
them per CDC guidelines
    <bullet>  A requirement of owners and operators of transportation 
facilities to clean and sanitize them per CDC guidelines
    <bullet>  The establishment of mandatory notification systems, by 
which employees are alerted if a coworker has tested positive
    <bullet>  A mandate for passengers to wear masks on all passenger 
transportation

    In addition to the transportation and modal specific standards, we 
also support H.R. 6559, the COVID-19 Every Worker Protection Act of 
2020 and the promulgation of an OSHA Emergency Temporary Standard 
(ETS), to provide enforceable workplace safety standards across the 
country and across industries. Regrettably, the Occupational Health and 
Safety Administration (OSHA) has thus far been unwilling to issue a 
standard that would mandate adequate provision of PPE and workplace 
cleaning and sanitizing. While the ETS is long overdue at this point, 
the bill would be a strong step towards finally protecting all workers 
from COVID-19, as well as from retaliation for reporting infection 
control problems to their employer or for wearing their own PPE.
    In addition to PPE, protection of transportation workers must also 
include rapid and reliable testing. Employees across all industries 
must be able to quickly access testing at no cost to themselves and 
without retaliation for doing so. In the event that a worker tests 
positive, they must further be permitted to use paid sick leave while 
they are ill. Failure to deploy large-scale, accessible testing or 
incentivizing workers to avoid tests because they are afraid of losing 
wages or their job entirely will ensure the pandemic lasts longer, and 
extracts a higher human cost from the transportation industry.
    The unique impacts of COVID-19 may also necessitate a fundamental 
reimagining of existing employee benefits. It is unconscionable that 
any worker in the U.S. would be forced to go into work while sick with 
the virus because they are not offered paid sick leave. The deaths of 
100,000 individuals and counting threaten financial ruin for thousands 
of families, and to this end, some form of death benefit could be 
warranted. We support the HEROES Act expansion of the Longshore and 
Harbor Workers' Compensation program to cover any worker infected with 
COVID-19, and believe that it is an excellent template for other 
frontline workers.
    We also support the creation of a hazard or premium pay mechanism 
for frontline employees who continue to come to work despite the danger 
to themselves and their families. The inclusion of the HEROES Fund and 
its provision of $13 per hour of additional pay in the House-passed 
bill is a desperately needed recognition of the conditions our members 
face. As with the provision of PPE, some private employers have adopted 
premium pay programs voluntarily, frequently to great fanfare. But too 
often, once the cameras are gone and any hint of reopening begins, 
these benefits have vanished. A comprehensive federal program, 
supporting a wide swath of private and public sector employees should 
continue to be an integral component of your efforts. By adopting these 
tenets, Congress can make a real difference in the lives of frontline 
transportation workers, and better ensure that they can safely return 
to their families at the end of the day. The members represented by 
TTD's affiliate unions have risked everything to keep the nation 
moving, and they deserve both gratitude and decisive action.
    Congress' job however, cannot end there. In addition to the need to 
protect workers from the virus, we must also address the immediate and 
longer-term economic toll this pandemic has taken and will continue to 
impose on our country. As states reopen and some Americans return to 
work, we should understand that the economy will not immediately snap 
back to pre-COVID levels of productivity. While there is no doubt that 
the shutdowns and social distancing requirements of the last several 
months were necessary, potentially catastrophic after-effects must be 
addressed. Fortunately, Congress has numerous tools at its disposal to 
avoid some degree of the hard times ahead.
    Without bold federal investments, core components of our 
transportation network face disaster. Passenger transportation will not 
rebound the day, week, or month that distancing restrictions are 
relaxed. We have called for substantial emergency supplemental funding 
for public transit agencies to ensure that employees remain connected 
to their jobs and benefits, and that transit systems can continue to 
operate during elongated downturns in fare box revenue. While Congress 
avoided the immediate crisis for public transit by providing robust 
funding in the CARES Act, we know that billions more will be needed in 
the coming months.
    Similarly, Amtrak projects that, optimistically, its ridership will 
be 50% of normal in FY '21, and it believes it cannot operate on such 
reduced revenues. We support its request for an additional $1.475 
billion, but demand that further assistance be predicated on avoiding 
furloughs and safeguarding future service. We also believe emergency 
supplemental funding is needed for the motorcoach industry and its 
heavily impacted workforce. Congress must also develop a solution to 
ensure the continued solvency of the Airport and Airway Trust Fund that 
will support the FAA so it can continue to operate and maintain the 
National Airspace System.
    We also know that investing in infrastructure is one of the 
greatest investments the federal government can make, with a return of 
between $1.50 and $3 dollars for every dollar spent. Those investments 
directly create and sustain good jobs in construction, engineering, 
maintenance, and operations. What's more, when we improve the quality 
and accessibility of our transportation network, the economic 
opportunity of those investments extends to every corner of the 
American economy--from businesses who can move goods quicker and more 
reliably to workers who can reach new opportunities because of improved 
highway and transit access.
    While we believe that significant long-term investment in 
infrastructure is one of the most crucial steps Congress can take right 
this minute to put us squarely on the path to recovery, those 
investments will mean little if we sacrifice our capacity to put 
projects on the ground. The economic impacts of COVID-19 on state and 
local funding must also be taken seriously. Revenue from sales taxes, 
gas taxes, municipal bonds, fare box collection, tolling, and other 
sources state and local governments count on to pay their share for 
infrastructure have taken a significant hit. We cannot wait to shore up 
lost revenue and make critical infrastructure investments until after 
state DOTs are forced to furlough workers, cities can no longer access 
financing to revitalize crumbling streets, and construction workers 
have been laid off because projects are being cancelled.
    Economic impacts must also be addressed in the maritime industry, 
where slowing cargo volumes threaten the viability of the U.S. flagged 
vessels enrolled in the Maritime Security Program. We have called for 
both supplemental stipends for enrolled vessels and programmatic 
waivers that will preserve the defense-critical operational readiness 
of the vessels and ensure continuing full employment of qualified U.S. 
mariners. Beyond economic needs, U.S. mariners are presently trapped 
aboard U.S.-flag cargo ships, unable to take leave or return home due 
to extreme COVID-19 lockdown measures imposed by foreign governments 
who will not allow them to disembark at ports and access transportation 
services. These mariners must be brought home immediately.
    As mentioned, the closure of school facilities has resulted in loss 
of employment for thousands of school bus drivers. While Congress has 
directed meaningful funding to education programs, including for 
payroll of district employees and contractors, these funds have not 
always reached these workers. To date, far too many drivers have been 
left out in the cold. Congress must address this problem and ensure 
that the jobs and benefits of all school bus drivers are protected.
    We also must not allow short-sighted political gamesmanship to 
destroy irreplaceable and critical institutions. Congress must address 
the emergency financial needs of the USPS, and should not permit long-
standing privatization proponents to take advantage of the pandemic to 
allow USPS and its workforce to wither on the vine.
    Finally, in the event that any future stimulus legislation 
addresses the manufacturing sector, we call on you to ensure that such 
efforts specifically and exclusively target domestic manufacturing with 
strong domestic content standards. We will not recover from this crisis 
by subsidizing work performed in other countries and overseas.
    Congress' role must not end when COVID-19 positives hit zero, or 
the last patient leaves the hospital--it must wield the full strength 
and support of the federal government and lead our country and its 
critical infrastructure workers forward. We cannot undo the tragic 
impacts the pandemic has had thus far, but we can change the terms of a 
post-pandemic future.
    While I have outlined a number of positive steps Congress can take 
to alleviate the effects of this crisis, I must also warn that there 
are industries who are opportunistically using this public health 
crisis as an excuse to rush through their own unrelated priorities. To 
this end, we call for vigilance from this committee on actions taken by 
the Department of Transportation's modal agencies. While agencies have 
found it prudent to waive, modify, or otherwise suspend certain safety 
regulations to better adapt to COVID-19 conditions, we note that many 
of these waivers align with long-term deregulatory priorities of 
industry. Going forward, we reject any characterization that brief 
demonstrations during deeply unique circumstances is adequate 
justification for the modification of long-standing regulations. It is 
our hope that the Committee will exercise its oversight on any such 
attempts.
    In closing, I speak to you today at a critical juncture in the 
nation's response to the COVID-19 pandemic. The actions that this 
committee and Congress take in the coming weeks will be highly 
determinative of what the future holds for the critical infrastructure 
workers represented by TTD's member unions. We look forward to working 
with you on legislation that protects workers, their families, and the 
travelling public today; and guarantees a robust and functional 
transportation system for tomorrow. Thank you for the opportunity to 
testify.

    Mr. DeFazio. Thank you, Mr. Willis.
    Next, we will proceed to Lamont Byrd.
    And, oh, I neglected to say at the outset that your 
statements in their entirety will be included in the record, 
without objection.
    Hearing none.
    I will ask each witness to summarize and stay within the 5 
minutes, because I am sure we are going to have a number of 
questions from Members.
    So next will be Lamont Byrd, director of safety and health, 
International Brotherhood of Teamsters.
    Lamont, unmute and testify.
    Mr. Byrd. Thank you, Chairman DeFazio, Ranking Member 
Graves, and members of the committee. Again, my name is Lamont 
Byrd. I am the director of safety and health for the 
International Brotherhood of Teamsters. And thank you for 
inviting me here to testify today.
    The Teamsters Union represents over 600,000 commercial 
drivers and other transportation workers who transport goods 
throughout our Nation's supply chains. Most of our 
transportation members are essential employees who transport 
groceries and other critical supplies. Our more than 250,000 
UPS members are delivering an extraordinary number of packages 
to our homes as a result of the increase in online shopping. We 
also represent drivers and other workers in the solid waste and 
medical waste sectors, who are especially key during this 
pandemic.
    An example I would like to share with you is the work that 
our members from the Yellow and Roadway companies recently did 
for a nationwide retailer of essential goods. In a highly 
coordinated, time-sensitive move, Teamster drivers delivered 
plexiglass safety shields to more than 1,500 retail locations 
so the workers in those stores could operate safely and provide 
the goods needed in their communities.
    In spite of being at an unprecedented health risk 
themselves, truck drivers and other transportation workers 
continue to perform essential services 24 hours each day, 7 
days each week. They deliver goods and perform their jobs 
regardless of the fact that they may be working in a COVID-19 
hotspot.
    Teamster representatives report that some of our driver 
members are being pressured to work longer hours and deliver 
more freight due to significant increases in freight volume. In 
other sectors, drivers are experiencing significant declines in 
the number of loads that they transport, and some report being 
laid off.
    Drivers report that there continues to be shortages of PPE 
and safety supplies available to them. Some motor carriers are 
not consistently complying with CDC guidelines and best 
practices for COVID-19 prevention.
    They also report having difficulty accessing food, toilet, 
and hand-washing facilities while on the road as a result of 
businesses being closed or having policies that restrict 
visitors from using them. Teamster locals are picking up the 
slack by making masks for our members and producing and 
distributing massive quantities of hand sanitizer for drivers 
to use while on the job.
    Commercial drivers have an important role in ensuring that 
our Nation has stable, operational supply chains; studies 
suggest that they may also be key workers relative to acquiring 
and transmitting diseases that are spread from person to 
person.
    Commercial drivers travel extensively, come into contact 
with large numbers of people, and have higher rates of obesity 
and chronic conditions. These factors combined suggest that 
truck drivers may be at increased risk of exposure to SARS CoV-
2, experience more serious illness should they develop COVID-
19, and may spread the disease as they travel.
    Truck drivers and all transportation workers need forceful, 
science-based legislation and health and safety regulations. 
Regulatory agencies need the funding, staffing, and authority 
to enforce those regulations. And employers need assistance to 
ensure that they can manage the economic challenges they face 
due to the pandemic.
    To that end, Senators Cantwell, Markey, and Blumenthal 
recently introduced the Essential Transportation Employee 
Safety Act of 2020. This bill would, among other things, compel 
trucking companies to come clean and disinfect their trucks in 
accordance with CDC guidance. It would also assist drivers in 
getting PPE and priority testing in the case of exposure. The 
International Union strongly supports this legislation and 
encourages that it be passed into law.
    We also need an OSHA Emergency Temporary Standard on 
airborne infectious disease. The Every Worker Protection Act, 
introduced by Congressman Scott in the House and Senator 
Baldwin in the Senate, would require the standard to get done. 
Drivers are at a high risk of exposure when they make 
deliveries to warehouses, nursing homes, or other work sites. 
Making sure that the workers that they encounter during these 
deliveries are covered by an OSHA standard will go far in 
helping to keep truck drivers safe while on the job.
    Drivers also need their employers to be able to weather 
these troubling times economically. In passage of the CARES 
Act, Congress foresaw the challenges that many essential 
businesses would encounter when operating in a pandemic 
environment. It is important for small and large trucking 
companies to have access to resources made available under the 
CARES Act.
    When the economic recovery begins, shippers will be 
counting on motor carriers, large and small, to transport their 
goods. We need them and their drivers ready to answer this 
call.
    There has never been a more challenging time to be a 
transportation worker. Conditions our members have been working 
under during the pandemic are unprecedented, and our members 
continue to provide nonstop service to keep our Nation's supply 
chains operational.
    I again would like to thank you for the opportunity to 
share our thoughts with you, and I am available to answer any 
questions that you may have. Thank you.
    [Mr. Byrd's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Lamont Byrd, Director of Safety and Health, 
                 International Brotherhood of Teamsters
                              Introduction
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee, my name is Lamont Byrd, Director of Safety and Health for 
the International Brotherhood of Teamsters (IBT). Thank you for 
inviting me here today to testify about the impact of COVID-19 on 
transportation workers.
    The Teamsters Union represents over 600K commercial drivers and 
other transportation workers who load/unload/handle and transport goods 
that are critical to supporting this nation's supply chains. The 
majority of our transportation sector workers are classified as 
essential employees, including those who transport groceries, medical 
supplies, and general freight from our food processing and 
manufacturing facilities, and ports. Our membership also includes over 
250 thousand UPS workers who, as a result of the pandemic are 
processing and delivering extraordinary numbers of packages to homes as 
a result of a dramatic increase in online shopping. We also represent 
solid and medical waste workers who are an oftentimes overlooked group 
of transportation workers who are especially key to during this 
pandemic as they support our efforts to maintain this nation's public 
health and sanitation.
    Transportation workers are at unprecedented health risk, yet they 
perform essential services 24 hours each day, 7 days each week. They 
deliver goods and perform their jobs regardless of whether that 
geographic area has been designated as a COVID-19 ``hot spot''. In many 
instances, they perform this critically important work without having 
been provided with the necessary personal protective equipment and 
safety supplies to protect themselves.
    An example I would like to share with you is the work that drivers 
and dockworkers from the Yellow and Roadway companies recently did for 
a nationwide retailer of essential goods. In a highly coordinated, 
time-sensitive move, Teamster drivers delivered plexiglass safety 
shields to more than 1,500 retail locations so the workers in those 
stores could operate safely, thus ensuring their communities had the 
goods they needed.
          Impact on Transportation Workers and Motor Carriers
    Teamster Union representatives report that some sectors of the 
trucking industry have experienced a veritable explosion in freight 
volume that surpasses what is normally seen during peak volume seasons. 
Consequently, drivers in those sectors are frequently being pressured 
to work longer hours and deliver more freight; and doing so without the 
staffing support that they normally receive during peak freight 
seasons.
    Other sectors of the industry are experiencing a steep decline in 
volume and revenue as some state governments issue ``stay at home'' 
orders as a result of the COVID-19 pandemic. Drivers in those sectors 
are working fewer hours, delivering less freight, experiencing 
reductions in compensation, and in some cases have been laid off.
    Motor carriers report that they are incurring increased operational 
costs and challenges at a time when the nation is depending on our 
truck driver members to make around the clock deliveries. Management 
representatives from those motor carriers suggest that the increased 
operational costs are a direct result of providing personal protective 
equipment (PPE); implementing enhanced cleaning and disinfection 
protocols; and delays at shipper's businesses.
    Drivers report that there continue to be shortages of PPE and 
safety supplies available to them. Some motor carriers are not 
consistently complying with CDC guidelines concerning routine cleaning 
and disinfecting shared vehicles and tools; not enforcing policies 
requiring maintaining physical distancing and providing PPE and other 
safety supplies. Teamster locals have had to pick up the slack, making 
masks for our members, or even producing and distributing massive 
quantities of hand sanitizer for our drivers to use on the job.
    Teamster drivers also report experiencing difficulty accessing 
food, toilet, and handwashing facilities while on the road as a result 
of businesses being closed or having policies that restrict visitors 
from using the facilities.
                   Impact on Driver Health and Safety
    Commercial drivers not only have a significant role in ensuring 
that this nation has stable, operational supply chains, according to 
researchers who submitted a recent journal article \1\, they may be key 
workers relative to acquiring and transmitting the virus such as SARS 
CoV-2, which causes Coronavirus Disease 2019 (COVID-19). This virus is 
spread from person-to-person, and there are factors associated with 
commercial drivers that place them at increased risk of becoming 
infected and spreading the virus. The Bureau of Transportation 
Statistics (BTS), reported that truck drivers traveled over 180 billion 
miles in 2018 \2\. They traveled to virtually every corner of the 
United States. Due to the nature of their work, they come into contact 
with a wide range of individuals, including, but not limited to 
customers, coworkers, and members of the general public. Drivers also 
have social contacts both at home and on the road.
---------------------------------------------------------------------------
    \1\ ``A novel COVID-19 based truck syndemic? Implications for 
public health, safety, and vital supply chains''. MK Lemke, PhD, et 
al., American Journal of Industrial Medicine, 2020.
    \2\ https://www.bts.gov/content/us-vehicle-miles
---------------------------------------------------------------------------
    Several studies are concluding that truck drivers are likely to 
have a higher rate of medical conditions such as obesity, diabetes, and 
hypertension.\3\ Studies also show that tobacco use tends to be more 
prevalent among this group of workers \4\ and they tend to work longer 
hours than most other workers. These factors combined suggest that 
truck drivers may be at increased risk of exposure to SARS CoV-2; 
experience more severe health outcomes should they develop COVID-19, 
and may spread the disease as they travel.
---------------------------------------------------------------------------
    \3\ https://www.ncbi.nlm.nih.gov/pmc/articles/PMC6237367/
    \4\ https://www.ncbi.nlm.nih.gov/pmc/articles/PMC1945044/
---------------------------------------------------------------------------
    As they see their coworkers and other individuals become ill and 
even die, many of our driver-members express concerns about becoming 
occupationally exposed, ill, and spreading the infection.
                            What is needed?
    Commercial drivers not only have a significant role in ensuring 
that this nation has stable, operational supply chains, but researchers 
also suggest that drivers may be key workers relative to acquiring and 
transmitting viruses that are spread from person-to-person, such as 
SARS CoV-2. Commercial drivers travel to all corners of the United 
States and they can interact with a large number of people, including 
customers, social contacts, and the general public.
    Studies show that drivers are likely to have a higher rate of 
medical conditions such as obesity, diabetes, and hypertension; and 
have a high rate of tobacco use. These factors combined suggest that 
truck drivers may be at increased risk of exposure to SARS CoV-2; 
experience more severe health outcomes should they develop COVID-19, 
and may spread the disease as they travel. Truck drivers and all 
transportation workers need forceful, science-based health and safety 
regulations and regulatory agencies need the funding, staffing, and 
authority to enforce those regulations to ensure that they and the 
critical supply chains they support are protected. They also need 
strong legislation put in place to protect their health and safety and 
ensure that their employers can manage the economic challenges that 
they face as a result of the pandemic.
    To that end, Senators Cantwell, Markey, and Blumenthal recently 
introduced the Essential Transportation Employee Safety Act of 2020. 
This bill would, among other things, compel trucking companies to 
clean, disinfect, and sanitize their trucks in accordance with CDC 
guidance. It would also assist drivers in getting PPE and priority 
testing in case of exposure. The International Union strongly supports 
this legislation and encourages it to be passed into law.
    We also need OSHA to issue an emergency temporary standard on 
airborne infectious disease. The Every Worker Protection Act (H.R. 
6559) introduced by Congressman Scott in the House and Senator Baldwin 
in the Senate would require this standard get done. Drivers are at a 
high risk of exposure when they stop to make a delivery at a warehouse, 
factory, or other worksites. Making sure the people they interact with 
during these deliveries are in turn covered by an OSHA standard will go 
far in helping to keep truck drivers safe on the job.
    Drivers also need their employers to be able to weather these 
troubling times economically. In the passage of the CARES Act, Congress 
foresaw the challenges that many essential businesses such as trucking 
companies would encounter when operating in a pandemic environment. It 
is just as important that small and large trucking companies have 
access to resources made available under the CARES Act. When the 
economic recovery begins, retailers, manufacturers, and businesses will 
be counting on motor carriers, large and small to transport their 
goods. We need them, and their drivers, ready to answer this call, and 
not rebuilding in the wake of this crippling economic downturn.
    On the regulatory front, we are concerned that there are efforts to 
weaken regulations that should be protective of transportation workers. 
The FMCSA recently revised the Hours of Service Regulations for 
commercial drivers by:
    <bullet>  Increasing the daily work hours for short-haul drivers 
from 12 hours each day to 14 hours and expanding the driving window 
from 12 to 14 hours
    <bullet>  Requiring drivers to take a ``rest'' break after 8 hours 
of continuous driving. This is a significant departure from the 
previous rule that required drivers to take a rest break within the 
first 8 hours of coming on duty.
    <bullet>  Defining ``rest period'' as any time period during which 
a driver is not operating a commercial motor vehicle. This ``rest'' 
period time includes off duty time, or on-duty, not driving time 
(during which a driver may perform non-driving job tasks such as 
loading or unloading a truck, or manually delivering goods). The 
previous rule required drivers to be off duty during the ``rest'' 
period.

    The regulatory revision occurred while commercial drivers who are 
involved in the transportation of goods in response to the pandemic are 
operating under ``suspended'' hours of service regulations, which 
allows drivers to drive and work an unrestricted number of hours on a 
daily and weekly basis. We commented on this regulatory revision and 
expressed our concerns that the revisions will not mitigate driver 
fatigue or improve transportation safety. There is also an ongoing 
discussion about a shortage of qualified commercial drivers that is 
further complicated by the fact that the drivers that are currently 
active in the transportation industry are an aging workforce.
    We agree that there is a need for an influx of new drivers into the 
transportation industry. In an effort to make a positive contribution 
towards recruiting and training new drivers and dockworkers and 
upgrading the skills of incumbent dockworkers, the Teamsters Union, in 
collaboration with the Department of Labor and several motor carrier 
employers, established a transportation worker apprenticeship program. 
However, we are aware of some stakeholders looking at this crisis as an 
opportune time to expand the driver workforce by lowering the minimum 
driving age for commercial motor vehicle operators in interstate 
commerce. We disagree, commercial driving is an extremely complex job, 
and to perform this job safely, drivers have to be able to competently 
operate a large vehicle, efficiently manage time, and make life 
decisions to manage their health and safety. Failure to meet these 
criteria can result in significant consequences regarding the health 
and safety of the driver, the motoring public, and due to the pandemic, 
the stability of the supply chains. Not to mention the callousness of 
suggesting there is a lack of trained drivers in this country while 
millions of workers, including many truck drivers, are out of work.
                               Conclusion
    There has never been a more challenging time to be a driver than 
now. Conditions our members have been working under during the COVID-19 
pandemic are unprecedented. Our drivers and other members have been 
providing non-stop service, under extraordinary circumstances, to keep 
our nation's supply chain open for business. This workforce is 
critically important to this nation's ability to maintain operational 
supply chains and should be afforded the protections and support need 
to enable them to perform their jobs safely. We thank you for the 
opportunity to present our experience to you today.

    Mr. DeFazio. OK. Thanks very much, Lamont.
    Now, Susannah Carr, flight attendant for United Airlines, 
on behalf of the Association of Flight Attendants--CWA, AFL-
CIO.
    Susannah?
    Ms. Carr. Chairman DeFazio, Ranking Member Graves, and 
members of the committee, thank you for allowing me the 
opportunity to speak with you today.
    I have been a flight attendant for United Airlines and a 
member of AFA since 2015. What began as a means to see the 
world turned into the career of my dreams. I take pride in my 
role as one of aviation's first responders, a professional 
certified by the Federal Aviation Administration.
    When reports of COVID-19 began to circulate, I, like many, 
hoped it would be contained, it would be addressed swiftly, and 
that the impact to our industry would be minimal. What began as 
a few canceled flights to Asia quickly escalated to a full 
pull-down of our flight schedule.
    My life and the lives of my coworkers were immediately 
disrupted. Overnight, our industry went from thriving to at 
risk of total collapse. Within a matter of days, the security 
of our jobs came into question. If something didn't change 
fast, not only would we be without our careers, we would be 
without our health insurance in a global pandemic.
    Without the swift action of Congress in the drafting and 
passing of the CARES Act, I would be on furlough now. Because 
of your leadership, I kept my job. I am able to pay my bills 
and have the peace of mind that a paycheck and medical 
insurance coverage provides, particularly in a time of crisis.
    I want to work, and I have remained on active status with 
my airline throughout the pandemic, but my last working flight 
was on March 22, 2020. It was a return flight from Zurich, 
United's last direct flight.
    I remember how concerned the passengers were about being 
able to get home. Many were wearing masks or covering their 
faces with scarves or other clothing. Some had on gloves. Many 
of our passengers refused to take any of the service items from 
us, trying to limit their contact. You could feel the tension 
on the plane. People were visibly worried about anyone moving 
around, and they worked to stay away from the other passengers.
    Although masks were available for emergencies, we were 
discouraged from wearing them during normal procedures. We wore 
gloves, which we changed frequently, and used disinfectant 
wipes to clean our workspaces. We used hand sanitizer each time 
we came through the galley. As a first responder, I wanted to 
reassure passengers that I was doing everything I possibly 
could to get them home safely.
    We know a lot more now than we did in March about the 
virus. I know that we need clear and enforceable Federal rules 
for health and safety that will protect our passengers, all of 
us serving as essential workers, our families at home, and 
millions of businesses counting on the resumption of safe 
commercial air travel.
    I have been ready and on call to report for assignment. My 
most recent assignment was airport standby. Procedures had 
changed, and I had to report early in order to complete a brief 
health assessment and temperature check. I was cleared before I 
was admitted through security.
    During my last assignment, the normally busy Newark Airport 
was nearly empty. While on duty, I was called to preboard a 
flight to Houston. The gate area was crowded with passengers 
not following the social distancing guidelines, including 
removing their masks. When I was released from my boarding 
assignment, the gate area remained equally crowded.
    The next time I report to work, which could be tomorrow, I 
will be required to submit additional health assessments, which 
include self-examination and a temperature check by a company 
application.
    Each time I come to work, there is a risk of exposure. I 
haven't been able to visit my mother in over 3 months because 
she is in a high-risk category. My coworkers and I worry about 
bringing this virus home to our loved ones.
    COVID-19 remains an unprecedented threat to aviation. The 
traveling public needs to feel confident that they are safe to 
travel and be aware of the changes made for their safety. 
Creating a unified set of rules for all airlines ensures there 
is no confusion or personal interpretation of safety 
guidelines.
    The Department of Transportation has taken steps to protect 
the health of passengers before, requiring passengers to 
refrain from smoking and to wear a seatbelt while seated. In a 
post-pandemic world, wearing a mask should be no different.
    Based on my years of experience, I know that a Federal 
mandate to require all passengers and crew to wear a face mask 
while in the airport and while onboard the aircraft is 
necessary. The virus is a safety threat that we cannot see, and 
yet we must continue to do everything in our power to protect 
ourselves and the passengers who have placed their trust in us.
    I believe that clear Federal rules will also help rebuild 
confidence in air travel and allow us to play our role in the 
country's broader economic recovery.
    Although air travel is slowly picking up, it is nowhere 
near the level that it was before the pandemic began. We will 
almost certainly need continued support after September 30. 
That is why Congress must act now to continue the work the 
CARES Act began.
    Payroll support needs to be continued through at least 
January 31, supporting workers like me during a recession and 
ensuring we can continue to contribute not only as aviation's 
first responders but as part of a recovering economy. Without 
an extension, mass layoffs are surely a certainty.
    My fellow aviation workers have shown incredible bravery as 
they have continued to work on the front lines of this 
pandemic. We shouldn't have to depend on the goodwill of 
carriers or on voluntary international standards to keep us and 
our passengers safe during this health crisis. We need a 
mandatory Federal standard to keep everyone safe. We are 
counting on Congress and the members of this committee to get 
through this difficult time.
    Thank you for inviting me, and I look forward to your 
questions.
    [Ms. Carr's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Susannah Carr, Flight Attendant, United Airlines, 
testifying on behalf of the Association of Flight Attendants--CWA, AFL-
                                  CIO
    Dear Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee:
    My name is Susannah Carr. I am a Flight Attendant with United 
Airlines, based at Newark Liberty International Airport. On behalf of 
the 50,000 members of the Association of Flight Attendants--CWA, AFL-
CIO (AFA), and millions of workers in aviation and across the 
transportation sector, thank you for the opportunity to testify today 
on the risks we face on the front lines of the pandemic and the 
important work Congress has done to protect my job and those of 
hundreds of thousands of aviation workers in the air and on the ground.
    COVID-19 remains an unprecedented threat to aviation. Hundreds of 
flight attendants have tested positive for the virus and 10 have lost 
their lives. Three months in, commercial volume is still down by more 
than 85 percent from last year. As a result of the pandemic, nearly 
1,000 U.S. Flight Attendants have lost jobs permanently and thousands 
more have accepted voluntary furloughs or leaves. Trans States Airlines 
and Compass Airlines have both shuttered since the onset of COVID-19, 
while Norwegian closed U.S. Flight Attendant bases at the end of March 
(Flight Attendants have contractual recall rights for 2 years if 
operations resume) and Cathay Pacific announced it will end U.S. based 
operations as of June 20, 2020. Longtime charter carrier Miami Air 
filed for bankruptcy on March 24, 2020, solely as a result of the 
pandemic, risking 350 jobs in the Miami area.
    The health and economic impacts of COVID-19 are significant, and 
just as air travel changed in the aftermath of 9/11, it will need to 
change now to adapt to the new realities of the post-pandemic world. 
I'm grateful for the opportunity to testify today, and to share my 
experience with how COVID-19 is affecting the work, health, and 
financial security of flight attendants.
    Federal COVID-19 Health and Safety Rules Are Needed to Protect 
                        Passengers and Workers:
    Although I have remained active consistently throughout the 
pandemic, my last working flight was on March 22, 2020. It was a return 
flight from Zurich, United's last direct flight. I remember how 
concerned the passengers were about being able to get home. Many were 
wearing masks or covering their faces with scarves or other clothing. 
Some had on gloves. Many of the passengers refused to take any of the 
service items from us, trying to limit their contact. You could feel 
the tension on the plane. People were visibly worried about anyone 
moving around and they worked hard to stay away from other passengers.
    Although masks were available for emergencies we were discouraged 
from wearing them during normal procedures. We wore gloves, which we 
changed frequently, and used disinfectant wipes to clean our 
workspaces. We used hand sanitizer each time we came through the 
galley. As a first responder, I wanted to reassure passengers that I 
was doing everything I possibly could do to get them home safely. All 
of us on the frontlines have had the same experience, that same 
feeling.
    We know a lot more now than we did in March about the virus. I know 
that we need clear, enforceable federal rules for health and safety 
that will protect our passengers, all of us serving as essential 
workers and our families at home, and millions of businesses counting 
on the resumption of safe commercial air travel.
    The response to COVID-19, the biggest crisis aviation has ever 
faced, has been a hodge-podge of individual voluntarily-adopted 
measures by airlines. The best available public health information 
confirms that crew and passenger use of masks and cloth face coverings, 
along with proper hand hygiene and social distancing, can help to limit 
the health risks of air travel. The airlines took an important step 
when they put policies in place requiring masks, but in the absence of 
federal requirements, these policies and related communication will 
remain inconsistent and unclear. Enforcement will be nearly impossible. 
And, we can't count on consistent procedures in the airports either, 
which leaves many vulnerabilities and opportunities for spread.
    Thus far, federal agencies have failed to provide the clear rules 
we need to keep people safe. On May 11, 2020, the FAA updated a 
previous guidance document (non-required) for air carrier operators, 
SAFO 20009,\1\ to include an expanded CDC list of COVID-19 symptoms,\2\ 
but still did not require the use of masks or other personal protective 
equipment (PPE) by crew and passengers. At least one carrier, Omni, has 
refused to follow SAFO guidelines, assigning discipline to flight 
attendants when sick, and outright refuses to notify passengers and 
crew who may have been exposed.
---------------------------------------------------------------------------
    \1\ FAA; COVID-19: Updated Interim Occupational Health and Safety 
Guidance for Air Carriers and Crews; May 11, 2020. https://www.faa.gov/
other_visit/aviation_industry/airline_operators/airline_safety/safo/
all_safos/media/2020/SAFO20009.pdf. Accessed May 18, 2020.
    \2\ CDC; Symptoms of Coronavirus; Page last reviewed: May 13, 2020. 
https://www.cdc.gov/coronavirus/2019-ncov/symptoms-testing/
symptoms.html. Accessed May 18, 2020.
---------------------------------------------------------------------------
    No flight attendant wants to tell a scared passenger that there's 
nothing we can do to make them feel safe. Flight attendants and gate 
agents need full management support and the authority to enforce 
airline policies that keep everyone safe and defuse tensions. Without 
the reinforcement that comes with federal rules--the same regulations 
we use to stop smokers and get people to sit down and buckle up--we're 
being set up to fail. And that will put passengers and crew at risk.
    On June 1, our union wrote again to the U.S. Departments of 
Transportation (DOT) and Health and Human Services (HHS) to urge the 
Departments to issue emergency safety and health rules for aviation 
during the COVID-19 pandemic. We cited the emergency measures taken to 
address airline security following the events of September 11, 2001, 
and more recent health and safety measures, including the recent DOT 
ban on e-cigarette use aboard aircraft, the purpose of which was to 
``reduce the risk of adverse health effects on passengers and 
crewmembers.'' Specifically, we asked that DOT promulgate an emergency 
rule for the duration of the pandemic that includes the following 
specific measures for all commercial flights:
    <bullet>  All airplane cabin occupants must wear a mask or cloth 
face covering per CDC guidelines.\3\ Masks should be worn at all times, 
except as necessary for eating, drinking, or during other similar, 
temporary activities. Incidents involving passenger violations of this 
rule should be considered interfering in a crewmember's duties in 
violation of 14 CFR Sec. Sec.  91.11 or 121.580, or 49 USC Sec.  46504.
---------------------------------------------------------------------------
    \3\ CDC; Use of Cloth Face Coverings to Help Slow the Spread of 
COVID-19; https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-
sick/diy-cloth-face-coverings.html; Accessed May 18, 2020.
---------------------------------------------------------------------------
    <bullet>  Flight attendants, as aviation's first responders and 
potential carriers of the virus without proper protection, must be 
provided N95 masks, gloves, and other PPE. While we recognize the 
challenges originally created due to supply chains, we reiterate the 
need to implement this standard as soon as practicable following proper 
provisioning of hospital workers and other health care professionals.
    <bullet>  Government must establish and conduct health monitoring 
for passengers and crewmembers, which could include temperature checks, 
signs/symptoms, travel history, and viral or antibody testing. While 
these measures will not prevent every asymptomatic person (who may 
still be capable of transmitting the virus) from boarding a flight, 
they will minimize this risk and deter abuse.
    <bullet>  Social distancing standards in the cabin must be set; 
this may require defining hard load limits that vary depending on 
specific airplane cabin configurations. Although this could result in 
more aircraft placed into service for the duration of the pandemic, 
minimizing the spread of COVID-19 on aircraft should decrease the 
duration of the emergency.
    <bullet>  Require airlines to meet cleaning standards to disinfect, 
or sanitize, per appropriate CDC guidance, aircraft cabin surfaces 
after each flight.
    <bullet>  Maximum cabin air ventilation rates must be required, 
particularly during boarding and deplaning, and High Efficiency 
Particulate Air (HEPA) filters must be installed and replaced per 
manufacturer's instructions.

    It is clear to anyone working a flight that the current environment 
of inconsistent and voluntary airline policies is not working as it 
should. These airline policies and practices are poorly communicated to 
crew and passengers alike, leaving flight attendants to risk our health 
and safety while attempting to manage the otherwise avoidable conflicts 
that result. Our passengers deserve better.
    As we look forward to the recovery of commercial air travel, our 
goal must be to raise the standards of safety and the confidence of all 
who fly. Enforceable, mandatory, national standards, including those 
outlined here, will protect my colleagues, protect our passengers, and 
help our industry take off again.
                        Payroll Support Program:
    When the pandemic hit, my fellow flight attendants and I were 
immediately concerned for our safety and the safety of our passengers. 
But we also worried about our jobs and paychecks. Air travel quickly 
ground to a halt. Airports looked like ghost towns. It was clear 
aviation would collapse without intervention, and along with it all of 
our jobs.
    While I am currently available to work a full schedule, the flying 
isn't there. In the month of April, I had four trips scheduled, all of 
which were cancelled, and no reassignment was given. During the month 
of May I was on Reserve and was given one airport assignment. During 
the airport standby I was called to the gate to work pre boarding, but 
I ultimately did not work the flight. For the month of June I am on 
Reserve again and have been released with pay each day thus far. There 
are no trips to pick up. Normally you would have several trips a day 
become available to add hours to your schedule. Most of us worked many 
more hours than our minimum guarantees to make ends meet, but that is 
impossible now. I know that without Congressional intervention, I would 
have been furloughed for several months already and reliant on 
unemployment if I could get it. I know so many who have struggled to 
even get their unemployment checks.
    That's why I am so grateful to the members of this committee and 
the leadership of my union. Thanks to their hard work and foresight 
that day has yet to come. Congress passed the Payroll Support Program 
(PSP) in the Coronavirus Aid, Relief, and Economic Security (CARES) Act 
in March to keep the dedicated, highly-trained and credentialed 
workforce of the aviation industry paid, connected to our healthcare, 
and out of the unemployment lines.
    Funding for the PSP goes exclusively toward maintaining the 
salaries, wages, and benefits of my fellow aviation workers and me. It 
also conditions the carriers' receipt of the funding on refraining from 
any involuntary furloughs prior to September 30th, 2020--a provision 
that prevented the kinds of mass unemployment we've seen in other 
industries from happening in the aviation industry. Instead, this 
historic, workers first relief package has saved our jobs and kept us 
connected to our benefits. It has kept our industry intact--and that 
means the millions of people who make up aviation.
    If you take only one message from my testimony today, let it be 
this: the PSP is working. Though my hours are down given the decline in 
demand for air travel, I'm still getting paid and so are my fellow 
flight attendants. This means we can still pay our rents and mortgages, 
we can still put food on the table for our families, and we can still 
cover other necessary expenses, like copays for prescription drugs. 
We're also still covered by our employer-sponsored health insurance--a 
pretty big relief since the idea of losing my health insurance in the 
middle of a global pandemic is terrifying. And, because we're still 
getting paid, we're still paying taxes and contributing to our local 
economies as consumers.
    The PSP is not perfect. Two issues undercut the value of the 
payroll support program for workers. First, Congress did not fully fund 
the program, providing $25 billion instead of the full $31 billion 
needed to fully cover payroll and benefits for airline workers across 
the industry. Treasury determined the fair approach was to prorate each 
airline's payroll grant allocation to 76% of the requested amount.
    Second, Treasury exercised the option under the Act to attach 
financial instruments to the grants and require 30% of the payroll 
grant over $100 million be treated instead as a loan. Together these 
actions by the Treasury resulted in a $12 billion shortfall. To cover 
the gap, approximately 40,000 Flight Attendants across the industry, 
nearly 35 percent of the entire U.S. Flight Attendant workforce, have 
voluntarily taken leave to help ensure the payroll grants are able to 
support those who remain on active status.
    The PSP has also been jeopardized by a small handful of bad actors 
who have proceeded to flout the CARES Act by cutting hours and cheating 
workers, despite taking PSP funding. I'm lucky to be a member of a 
union and covered by a collective bargaining agreement, which 
stipulates my pay is protected by a minimum number of hours in our 
contract. Delta Air Lines has refused to guarantee this same minimum 
standard for flight attendants, despite taking federal PSP funds. The 
program was explicitly intended to protect workers, keep us in our jobs 
even if not ``on the job'' at the same rate. The program was about 
stability for those of us who work and have built our lives around the 
paychecks and benefits we need to protect ourselves, our families, and 
remain available to serve as essential workers now, and be in place to 
lift our economy without delay once COVID-19 is contained.
    Thus far, Secretary Mnuchin and the Treasury have been unwilling to 
fully enforce the CARES Act and ensure that the funds are used as 
Congress intended. Despite letters from members of Congress and 
repeated requests by our union, Treasury has not responded to requests 
that they issue guidance to carriers to make clear that slashing hours 
is a violation of the grant program. While the vast majority of 
airlines have used the payroll grants as intended, Treasury's silence 
on the outliers has facilitated the cut hours and allowed a few bad 
actors to attempt to set up a competition on the backs of airline 
workers. Absent additional pressure and oversight from Congress, I 
worry that more aviation workers will see cuts to their hours and pay. 
I would ask that the members of this committee reach out to the 
officials at Treasury, including Secretary Mnuchin, who are overseeing 
the PSP, and ask that they put a stop to these cuts and enforce the law 
as Congress intended.
    The PSP has saved the jobs of hundreds of thousands of aviation 
workers, including mine. It has given me financial security and 
emotional security. This is a historic workers first relief package and 
the members of this committee should be proud of this legislation and 
what it has accomplished. But we have to make sure that a lapse in this 
critical protection does not undo the good work that was started.
    The program is set to expire on September 30th and the time to 
prepare for October 1 is now. When CARES was written it was expected 
the industry would be closer to full recovery by the fall. It is clear 
now, that will not happen. At a minimum, Congress should extend the 
program through the New Year as was already done for the Paycheck 
Protection Program. An extension of the PSP through January 31st will 
ensure that we do not see a wave of layoffs in the aviation industry 
flood unemployment offices in October. While airlines have had time to 
stabilize the operation with reduced capacity, it is now my job and 
nearly 500,000 other aviation jobs that are on the line October 1, 2020 
without an extension of the program. The program is already in place. 
It just needs to be extended.
    It is an honor to represent my flying partners and other aviation 
workers here today. We are so grateful for the work of Chairman DeFazio 
this entire committee. We are counting on your continued action to make 
sure we don't have to face the loss of our jobs this fall. Safety is 
fundamental to the success of air travel because consumer demand simply 
will not rebound without confidence in safe air travel. The people on 
the frontlines of aviation need your continued support on this and our 
jobs in order to ensure aviation, and all of the people within it, can 
continue to support the U.S. economy. Thank you for your time, 
attention, and action. I look forward to your questions.

    Mr. DeFazio. Thanks, Susannah. Appreciate your testimony.
    We would now move on to Tom Shaw, transit operator for 
SEPTA in Philadelphia, on behalf of the Transport Workers 
Union.
    Tom?
    Mr. Shaw. Thank you, Chairman DeFazio, Ranking Member 
Graves, and all the members of the Committee on Transportation 
and Infrastructure, for inviting me to discuss the impacts of 
COVID-19 on frontline transportation workers.
    I am a bus operator for SEPTA in Philadelphia and a member 
of Transport Workers Union Local 234. I have been a driver for 
over 20 years. I served 10 years in the United States Army, 
driving heavy equipment through war zones. My service in the 
military ended in 2005 when I was critically injured in Iraq. 
After 18 months recovering, I joined SEPTA in 2006. Like other 
veterans, I am proud that I have been able to continue serving 
my community at home just as I did overseas.
    Throughout this pandemic, my focus has been protecting my 
wife and four children, ages 8, 10, 12, and 13. Last year, my 
8-year-old was hospitalized due to a viral infection that is a 
relative of the coronavirus. Even in normal times, I took 
precautions to ensure that I did not increase his exposure to 
respiratory diseases. His condition puts him at an elevated 
risk for COVID-19, and I am terrified that providing for my 
family puts him at a greater risk. My biggest fear is that I 
will either pass it along to him or be forced to quarantine 
from my family.
    Before the pandemic hit, the first thing I did when I got 
home from work was hug my family. Now the first thing I do is 
throw all my clothes in the wash, shower, take my own 
temperature. I am constantly looking for signs of infection in 
myself. I am the primary income earner for my household, and I 
have to keep working so I provide for my family. But I often 
worry about the increased risk my work is posing to our lives.
    At the same time, I feel a sense of duty to my community to 
keep our transit system running. Each night on the bus, I see 
nurses going to hospitals, grocery store clerks going home to 
their families, as well as other essential workers. They need 
my bus to help fight the effects of COVID-19 and keep other 
families fed during the crisis. None of us can work from home, 
as our Government has asked others to do. We are all at risk on 
the front lines of this pandemic, but we continue to work to 
keep our country safe.
    Frontline workers have asked very little during this 
extraordinary time, only that we be given the protection we 
need to keep ourselves safe. Those protections have never fully 
arrived. At the beginning of the crisis, I had to buy my own 
personal protective equipment, including masks, gloves, 
sanitizer, and disinfectant. This has become the most important 
part of my uniform and should have been available to every 
transit worker from day one of the pandemic.
    Transit agencies should require all passengers to wear 
masks. SEPTA made masks mandatory last week, but too few 
agencies are following suit. In my experience, fewer than half 
of my passengers currently wear a mask, despite CDC guidance 
that shows this simple step is the most effective action we can 
take to limit transmission of the virus.
    Social distancing has never been enforced on our transit 
systems. For much of the crisis, the most effective way of 
keeping drivers and passengers at least 6 feet apart was to 
require passengers to board through the rear door and block off 
seats near the driver. In Philadelphia, this required shutting 
down the farebox and making transit free.
    For budgetary reasons, SEPTA recently ended this practice 
and now again requires passengers to board through the front 
door, immediately next to the driver. I am relatively lucky, as 
all of the buses SEPTA is currently using have a shield to keep 
drivers safe. However, these shields were designed to prevent 
assaults, not stop a virus. These partitions are better than 
nothing, but they are not enough to create a safe working 
environment.
    Social distancing has also been made more difficult because 
of other actions taken by the city and SEPTA in response to the 
pandemic. Increased service has created long lines at bus 
stops. Drivers have no realistic way of keeping people from 
boarding a bus that may already be at capacity, especially on 
nightshifts, like I have had to work during the pandemic.
    There has been a large increase in homeless people on our 
buses. Buses are not equipped to provide housing or care for 
people; they are not meant to be shelters. In these 
circumstances, I have frequently had to defuse altercations 
between passengers. Every time this happens, my chance of 
exposure increased.
    This problem has also increased the need for cleaning and 
disinfecting buses more frequently. Buses need to be cleaned 
multiple times a day. We know the virus can live on surfaces. 
Failing to clean a bus is almost certain to spread the disease. 
This cleaning is not happening at the level required to prevent 
infection, and many buses go days without being disinfected to 
CDC guidelines.
    These ongoing problems have resulted in high infection 
rates for public transportation workers. Five TWU members in 
Philadelphia have died from the virus, and there have been 160 
confirmed positive cases. SEPTA is not unique. Nationwide, 122 
of my colleagues in the TWU have died from the virus. 
Altogether, nearly 10 percent of TWU members have died, tested 
positive, or been quarantined due to COVID-19.
    On behalf of all transit workers, I thank the committee for 
highlighting these issues and for the actions you have already 
taken to help address them.
    We need mandatory requirements from the Federal Transit 
Administration on health and safety during the current crisis. 
These requirements must include PPE for workers, masks for 
passengers, social distancing measures, and cleaning standards. 
While these measures are just one piece of the puzzle, they are 
absolutely essential if we want our public transportation 
system to come out of this pandemic as safe, accessible, and 
reliable in the future.
    Thank you, and I look forward to answering any questions.
    [Mr. Shaw's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Thomas Shaw, Transit Operator, Southeastern 
  Pennsylvania Transportation Authority, testifying on behalf of the 
                   Transport Workers Union of America
    Chairman DeFazio, Ranking Member Graves, and distinguished members 
of the House Committee on Transportation and Infrastructure, thank you 
very much for holding this important hearing and for offering the 
Transport Workers Union of America (TWU) the opportunity to present 
testimony on the impacts of COVID-19 on transportation workers. This is 
an issue with which our union is, unfortunately, far too familiar.
    The coronavirus has decimated our economy, our transportation 
systems, and our transit agencies. Many Americans have died and many 
more have become ill. Our members, like other critical frontline 
workers, including health care providers and first responders, have 
suffered disproportionately from the ongoing coronavirus pandemic. 
Despite the very real threat this virus has posed to our daily lives, 
TWU members and other transportation workers have continued to provide 
essential services across the country. As a result, the virus has taken 
a catastrophic toll on our ranks.
    As a bus operator for the Southeastern Pennsylvania Transportation 
Authority (SEPTA) and proud member of TWU Local 234, I have witnessed 
firsthand the fallout from this disease. The TWU represents more than 
150,000 members in the transit, aviation, rail, services, utilities, 
and universities sectors. More than 95% of my colleagues in the TWU are 
frontline transportation workers who have been deemed essential workers 
during this crisis. These workers include transit operators, station 
agents, mechanics, maintenance workers, Amtrak onboard service 
providers, airline flight attendants, fleet service workers, ramp 
agents, and others.
    I greatly appreciate the opportunity to present this testimony 
about both my personal experience and the shared experiences of all 
transportation workers during the COVID-19 crisis. The following pages 
detail our concerns about the response to the virus, as well as our 
recommendations for enhancing the health and safety of workers as we 
continue to operate transportation systems during these uncertain 
times.
         COVID-19's Impact on Frontline Transportation Workers
    The devastation wrought by the COVID-19 pandemic around the globe 
has been staggering. Almost 110,000 Americans have died and almost two 
million have been sickened by the virus. Our economy has lost tens of 
millions of jobs.
    The transportation sector has been amongst the most effected 
industries in our country and public transit workers have suffered 
perhaps the greatest impact. More than 122 TWU members have died from 
COVID-19--a virus they almost certainly contracted while continuing to 
work in public as essential employees. Nearly 10% of our members have 
tested positive or been quarantined from the virus. These numbers 
cannot account for the additional emotional and mental toll the virus 
has taken on our members as they live in fear of potentially bringing 
this virus home to their families, losing co-workers and friends, and 
potentially serving as a vector for the virus to others.
    Yet, even in this harrowing environment, workers have not wavered 
in their commitment to keeping our public transportation systems 
running. Despite great risk to themselves and their families, these 
workers have shown up, day in and day out, providing the critical 
services on which so many rely. It is not the formal government 
designation that they are ``essential'' that spurs these workers to 
stay on the job. They go to work because they know that, without public 
transportation, many of their fellow workers, especially fellow blue-
collar workers, would not be able to do their jobs. Without transit 
workers, we would not have health care providers in our hospitals and 
clinics, grocery clerks in our supermarkets, or pharmacists in our 
drugstores.
                     A Slow and Inadequate Response
    The shattering impact of COVID-19 on transit and other 
transportation workers has exposed systemic failures in our response to 
infectious diseases. Transit agencies, state transportation departments 
and private employers struggled to mount their individual responses as 
federal guidance continually evolved and, at times, did a complete 
``about-face.'' At the beginning of the crisis, confusion and 
conflicting directions left workers and riders unprotected as our 
systems continued to operate without adequate supplies of personal 
protective equipment, cleaning and disinfecting procedures, or social 
distancing enforcement.
Personal protective equipment
    During the first weeks of the pandemic, many transit workers were 
not provided even the most basic personal protective equipment (PPE), 
namely masks and gloves. Some agencies, including in New York City,\1\ 
prohibited workers from donning masks, even if they had procured their 
own, attributing their decision to early CDC guidance that advocated 
the use of masks only by individuals who were ill or who had symptoms 
of the virus.
---------------------------------------------------------------------------
    \1\ https://ti.org/pdfs/March6MTAMemo.pdf
---------------------------------------------------------------------------
    The lack of PPE stemmed from both a lack of supply and, where masks 
and gloves were available, a lack of initiative at all levels of 
government to deliver supplies to frontline workers. Most transit 
agencies lacked their own stock of PPE and other government stockpiles 
proved inadequately supplied for the crisis. In some cases, including 
in Miami-Dade County, agencies had PPE and refused to distribute it to 
frontline transit workers. Supplies were also often rationed. At 
Hudson-Bergen Light Rail in New Jersey, which is operated by a private 
contractor, operators were provided just one mask per week. Forty 
workers at one bus depot in Miami were given 60 masks and instructed to 
``make them last'' because no further shipments were expected. Many 
transit workers across the country purchased their own PPE to protect 
themselves. In order to safeguard our members, the TWU took matters 
into our own hands, securing hundreds of thousands of masks and gloves 
and distributing them to members around the country.
    The supply of PPE, particularly face masks, is no longer an issue 
at most transit agencies. While the TWU is glad to see that the 
Department of Transportation (DOT) recently announced that it would 
distribute millions of masks to transportation workers around the 
country, this action came months after these masks were first needed 
and long after agencies had established their own supply lines. We are 
hopeful that these masks will become part of a supply over the next 
several months--potentially seeding future stockpiles at local transit 
agencies.
    Even as workers began wearing masks, many agencies were slow to 
require passengers to do so and there remain few, if any, mechanisms in 
place to enforce these policies. In Philadelphia, SEPTA implemented a 
policy requiring all riders to wear masks on buses and trains. However, 
the agency reversed its policy after an incident of attempted 
enforcement was captured on video, garnering widespread, negative 
attention for SEPTA. Last week, the agency finally changed their 
recommendation to a requirement as part of its transition back to 
front-door boarding. In my personal experience, however, compliance 
with this rule is very lax. Fewer than half of the passengers on my bus 
wear a facial covering of any kind.
Social distancing
    Due to the highly contagious nature of COVID-19, maintaining a 
``social distance'' of at least six feet is virtually universally 
recommended. However, implementing social distancing policies within 
transit and other transportation systems is challenging.
    For many workers, interaction with the public is a core job 
responsibility during normal times. Most transit buses do not have 
shields or enclosures of any kind to separate drivers from passengers 
who generally board at the front of the bus directly adjacent to the 
driver. Subway conductors literally stick their necks out of their 
windows to survey the platform and ensure that it is safe for their 
trains to depart stations. Station agents interact with hundreds of 
passengers a day, helping them with ticket purchases and directions.
    Buses and trains, as well as bus stops and subway platforms, are 
often crowded--especially on high-demand routes--making it impossible 
for passengers to maintain more than the minimal distance from one 
another. Throughout the heights of the pandemic, my bus has been 
regularly filled to capacity.
    When the pandemic hit, transit agencies did adjust, instituting 
rear door-only boarding--which typically entailed foregoing fare 
collection--and installing barriers of one sort or another to keep 
passengers from occupying the front area of the bus near the operators. 
They decreased the number of passengers allowed on board, allowed 
operators to skip stops when capacity was reached, and made a portion 
of seats unavailable to riders. These commonsense changes often allowed 
operators to maintain the CDC-suggested six-foot distance from riders.
    At the same time, however, many agencies also cut capacity 
throughout their transit systems. Without effective enforcement systems 
for capacity limits, agencies in Philadelphia, Miami, New York, and 
elsewhere saw load factors on some routes actually increase during the 
pandemic--forcing passengers and workers into closer contact with each 
other than in normal times. The decisions to cut capacity were 
generally based on budget necessities, but the end result has been a 
higher risk of transmission in our transit systems.
Cleaning and disinfection
    Keeping transit vehicles, stations, bus shelters, maintenance 
facilities, dispatch areas and employee break rooms sanitized is time-
consuming and labor-intensive. This process is challenging in the best 
of times and even more so during a public health crisis in which the 
contagion is easily spread via the air and surfaces.
    Many transit agencies found it challenging to increase their 
cleaning and disinfection efforts, failing even to provide adequate 
supplies of disinfectant spray or wipes to workers. In Miami-Dade 
County, for example, bus operators received just one disinfectant wipe 
per shift. Again, the TWU stepped up, distributing thousands of bottles 
of hand sanitizer and packs of disinfectant wipes to workers on the 
front lines.
    More intensive and expansive sanitation efforts have required 
significant increases in manpower and supplies and have burdened agency 
budgets. The influx of CARES Act funding has helped in this regard, but 
the effort and the costs are ongoing and likely will continue as the 
``new normal.'' Some agencies have gone to extraordinary lengths to 
clean and disinfect stations and vehicles. For example, the MTA in New 
York has shut down and emptied the subway system for several hours each 
night (the first time in the system's 116-year history) to conduct a 
thorough sanitizing process. However, not all employers have been 
willing or able to take such measures.
                   Improving Conditions and Benefits
Health and safety
    Months into this pandemic, transit agencies are doing a better job 
of protecting workers. However, improvements have not come without a 
fight. In some cities, including New York and Philadelphia, TWU transit 
locals had to threaten actions and service disruptions to get their 
agencies to respond to their demands for PPE, enhanced cleaning and 
disinfecting protocols, and more effective social distancing policies.
    In Miami-Dade County, the TWU local representing transit workers 
has sued the Department of Transportation and Public Works and its 
Director for failing to provide adequate PPE and other protections on 
the job. In Ann Arbor, bus operators refused to leave the depot one 
morning in April after a supervisor warned them that, contrary to 
agency policy, they could not prohibit passengers from boarding buses 
without masks.
    While these actions have been taken by workers to protect their own 
health, it has also made these systems safer for the general public. 
All of the measures that protect workers from infection have been aimed 
at halting transmission of the disease--ultimately the goal our entire 
country has been working towards over the past several months. Keeping 
transit workers healthy by requiring masks, enforcing social 
distancing, and maintaining clean/disinfected buses and trains has also 
greatly reduced the risk to the travelling public.
Benefits
    In addition to health and safety protections, workers also have 
fought for more flexible and expanded sick leave so that they may 
receive paid time off while they recover from the virus, self-
quarantine after a known or suspected exposure, or take time off to 
prevent exposure if they have a condition that makes them particularly 
vulnerable to COVID-19.
    To support the families of those who have perished from 
coronavirus, workers are demanding line of duty death benefits. In New 
York, the MTA has agreed to award this benefit to the survivors of 
transit workers who have succumbed to COVID-19. SEPTA workers also are 
calling for these enhanced benefits. The TWU has endorsed H.R. 6955, 
introduced by Representatives Jackie Speier, Joe Neguse, and Max Rose 
which would guarantee a federal benefit for essential workers who die 
from COVID-19 contracted at work.
    The TWU also has joined with many other workers representing 
essential workers to call for hazard pay and benefits for all front 
line workers who continue to put their lives on the line to provide 
essential services during the ongoing public health crisis. We applaud 
Congress for the many proposals that have been introduced to address 
this point, including those in the Heroes Act, the Opportunities for 
Heroes Act (introduced by Representatives Ann Kuster and Brian 
Fitzpatrick), and others.
                     Air and Rail Industry Workers
    While transit workers have been hardest hit among transportation 
workers by COVID-19, those in the airline and rail industries have 
faced similar challenges during the pandemic. Even as the demand for 
air travel has plummeted, the airlines continue to fly because flight 
attendants, such as TWU members at Southwest, JetBlue, and Allegiant 
Airlines, have continued show up for work, serving as our first 
responders in the air despite the risk of infection and illness.
    Similarly, TWU members who provide much of Amtrak's onboard service 
have kept working their routes, allowing safe, comfortable train travel 
to continue, even if on a more limited basis.
    These workers also have had to fight for adequate PPE and enhanced 
cleaning and infection protocols, as well as for mask policies for 
passengers.
                         Policy Recommendations
    Transportation workers understand and take seriously their 
obligation to provide essential services to the public--even in the 
midst of a pandemic. One hundred twenty-two TWU members have literally 
given their lives in the performance of their duties during this 
crisis. But this obligation to public service is not one-sided; it is 
shared with many others, including our employers and the federal 
government.
    Frontline transportation workers need and deserve a safe and 
healthy workplace. This requires protections on the job and benefits to 
assist them and their families when those protections fall short.
    To that end, the TWU encourages the Congress to take the following 
steps to help protect transportation workers and all who use public 
transit, airlines, and railroads.
    Implement national health and safety standards for front line 
transportation workers. At minimum, Congress should make guidance and 
recommendations from the Federal Transit Administration (FTA),\2\ the 
Federal Aviation Administration (FAA),\3\ the Federal Railroad 
Administration (FRA),\4\ and the Centers for Disease Control and 
Prevention (CDC) \5\ mandatory. The most direct way of accomplishing 
this would be for the Occupational Safety and Health Administration 
(OSHA) to issue an emergency temporary standard to protect workers 
during this pandemic as Congress has proposed in the COVID-19 Every 
Worker Protection Act (H.R. 6559). The Transportation and 
Infrastructure Committee could also direct the DOT to make their 
guidance mandatory as emergency measures under the Department's 
existing authority. Both of these options have been included in the 
recently-passed Heroes Act. Under either scenario, the requirements of 
transportation industry employers, e.g. transit agencies and airlines, 
would include:
---------------------------------------------------------------------------
    \2\ U.S. DOT/FTA SA 20-1 Safety Advisory, Recommended Actions to 
Reduce the Risk of Coronavirus Disease 2019 (COVID-19) Among Transit 
Employees and Passengers, April 14, 2020; https://www.transit.dot.gov/
sites/fta.dot.gov/files/2020-04/FTA-Safety-Advisory-20-01-COVID-
19_0.pdf
    \3\ U.S. DOT/FAA Safety Alert For Operators, SAFO 20009, 5/11/2020; 
https://www.faa.gov/other_visit/aviation_industry/airline_operators/
airline_safety/safo/all_safos/media/2020/SAFO20009.pdf
    \4\ U.S. DOT/FRA Safety Advisory 2020-01; https://
www.federalregister.gov/documents/2020/04/10/2020-07559/safety-
advisory-2020-01-safety-precautions-related-to-coronavirus-disease-
2019-covid-19
    \5\ Centers for Disease Control, Interim Guidance for Mass Transit 
Administrators; https://www.cdc.gov/coronavirus/2019-ncov/community/
guidance-mass-transit-administrators.html
---------------------------------------------------------------------------
    <bullet>  Creating and carrying out policies and procedures 
regarding the use of face coverings and other PPE for workers, as well 
as face coverings for passengers, to reduce the risk of spreading 
COVID-19.
    <bullet>  Establishing and implementing policies and procedures to 
conduct routine cleaning and disinfection of surfaces frequently 
touched by workers and passengers to reduce the risk of COVID-19 
transmission. These include kiosks, handrails, ticket machines, 
turnstiles, stop request indicators, and fare boxes, as well as 
aircraft galleys, safety demonstration equipment, ticket counters, 
cabin lighting, and temperature controls.
    <bullet>  Developing and implementing social distancing measures to 
create and maintain physical separation greater than six feet among 
employees and between employees and passengers. Social distancing can 
be accomplished by:
      <bullet>  Requiring rear-door boarding on transit vehicles, while 
allowing exceptions for persons with disabilities
      <bullet>  Installing physical partitions on transit vehicles and 
at staffed kiosks to the extent practicable
      <bullet>  Reducing maximum occupancy of buses and individual 
subway and train cars and increasing service on crowded routes, as 
appropriate
      <bullet>  Providing signs, ground markings and other visual 
guides at transit stops and stations and on vehicles to indicate where 
passengers should not sit or stand
      <bullet>  Allowing flight attendants to vary passenger boarding 
positions
      <bullet>  Permitting flight attendants, when assigned to a double 
jump seat for critical phases of flight, to occupy a designated 
alternate passenger seat in the cabin
    <bullet>  Establishing and executing policies and procedures that 
promote healthy hygiene practices among workers and communicate the 
importance of such practices to passengers.
    <bullet>  Developing and communicating to employees a plan for when 
a worker becomes ill, including:
      <bullet>  Encouraging workers who are sick to stay home and away 
from others
      <bullet>  Ensuring that workers with symptoms \6\ of COVID-19 at 
work discontinue work as soon as possible and return home
---------------------------------------------------------------------------
    \6\ https://www.cdc.gov/coronavirus/2019-ncov/symptoms-testing/
symptoms.html?CDC_AA_refVal=https%3A%2F%2Fwww.cdc.gov%2Fcoronavirus%2F20
19-ncov%2Fabout%2Fsymptoms.html
---------------------------------------------------------------------------
      <bullet>  Informing those who have had close contact \7\ with a 
person diagnosed with COVID-19 to stay home and self-monitor for 
symptoms, and to follow CDC guidance \8\ if symptoms develop
---------------------------------------------------------------------------
    \7\ https://www.cdc.gov/coronavirus/2019-ncov/php/public-health-
recommendations.html
    \8\ https://www.cdc.gov/coronavirus/2019-ncov/if-you-are-sick/
steps-when-sick.html
---------------------------------------------------------------------------
      <bullet>  Advising sick workers not to return to work until they 
have met CDC's criteria to discontinue home isolation \9\
---------------------------------------------------------------------------
    \9\ Ibid
---------------------------------------------------------------------------
      <bullet>  Ensuring that workers are never forced to choose 
between a paycheck and potentially spreading the virus by providing 
paid sick leave for all workers

    Institute policies appropriately thanking essential workers for 
hazardous work. In return for the risks taken and sacrifices made by 
transportation and other essential workers, employers should be 
required to pay a premium over and above regular compensation. We 
support the provision for hazard pay contained in the Heroes Act and 
other legislation being considered by the House.
    Establish a line of duty death benefit policy for workers who 
perish from COVID-19. Thousands of frontline workers, including many 
transportation workers, have died from COVID-19. This is a disease they 
contracted as a direct result of their government asking them to go to 
work while instructing everyone else to stay home. Nothing can make up 
for this tragic loss of life. However, the families of those who have 
died are now faced with significant financial burdens. These families 
need and deserve adequate death benefits. The TWU fully supports the 
approach taken by Representatives Speier, Neguse, and Rose in H.R. 6955 
to address this issue.
                               Conclusion
    I greatly appreciate the opportunity to provide this testimony 
about the impacts of COVID-19 on transportation workers to the House 
Committee on Transportation and Infrastructure on behalf of the TWU. 
Our union looks forward to working with the Committee to advance 
policies that will protect all frontline workers--transportation and 
otherwise--as we continue to confront the coronavirus pandemic.

    Mr. DeFazio. Thank you, Thomas.
    I now turn to the ranking member of the Subcommittee on 
Aviation, Garret Graves, to introduce our next witness.
    Garret?
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Mr. Chairman, I am pleased to introduce Mr. Randy Guillot, 
who is chairman of the American Trucking Associations and the 
past chairman of the Louisiana Motor Transport Association, the 
important affiliate in the State of Louisiana.
    Mr. Guillot has over 30 years of experience. His 
grandfather, Mr. Pitre, established Southeastern Motor Freight. 
In 1985, he established, together with some others, Triple G 
Express. They both do intermodal transportation services, 
largely out of the Port of New Orleans.
    Randy has done everything from working on the dock in 
safety to driving and working as an executive within the 
trucking industry. He has a fantastic perspective, oversees 
over 100 employees, and is very much focused on the worker.
    But, as you know, the American Trucking Associations really 
is the voice of that freight moving across the country. I'm 
very pleased that he is here to join us today, and looking 
forward to his testimony.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thanks, Garret.
    Mr. Guillot, please proceed with your testimony.
    Mr. Guillot. Thank you, Congressman Graves.
    Thank you, Chairman DeFazio, Ranking Member Graves, and 
members of the committee. My name is Randy Guillot, and I am 
president of Triple G Express and Southeastern Motor Freight, 
motor carriers based in Jefferson, Louisiana. It is my honor to 
speak with you today as chairman of the American Trucking 
Associations.
    For 87 years, ATA remains the largest national trade 
organization representing the trucking industry. With 
affiliates in all 50 States, our membership encompasses more 
than 34,000 motor carriers and suppliers, representing every 
segment of the industry.
    The COVID-19 pandemic thrust America's trucking industry to 
the forefront of our national consciousness. As most activity 
across the country ground to a halt, America's 3.5 million 
professional truck drivers kept moving. These heroes continue 
serving on the front lines to ensure everyone has the goods 
they need to get through these challenging times.
    Truckers are the difference between a fully stocked grocery 
store and one lined with empty shelves. They are why doctors 
and nurses have PPE to protect themselves. They are how test 
kits get to hotspots for local officials to use to fight the 
virus' spread.
    The health of our Nation, of our entire economy, rests on 
the strength of these heroes and our industry. When we lack the 
capital, resources, or clearance to do our job, the impact is 
felt immediately far and wide, not only by us but by the people 
we serve, our customers--grocery stores, pharmacies, hospitals, 
first responders, farmers, manufacturers, business owners, and 
the consumer, the American people, just to name a few.
    That is why we have worked with policymakers at all levels 
to ensure these critical supply lines are not disrupted. And 
that begins with protecting the safety, health, and well-being 
of our most critical asset: our workforce, our drivers.
    That means ensuring State officials keep public rest areas 
open. Truckers, like any human beings, have basic needs. They 
need places to rest, places to eat, and places to use the 
bathroom. Otherwise, truckers can't do their job safely and 
efficiently.
    It also means expanding PPE access across the industry. 
While large fleets might have resources to acquire PPE at 
scale, our association has stepped up to help provide for small 
and midsize carriers. To date, we have obtained and distributed 
more than 150,000 face coverings to our members at cost and 
partnered with the Department of Transportation to distribute 
more than 1.5 million more to frontline truckers across the 
country.
    We have also stationed more than 1,100 gallons of hand 
sanitizers along major freight corridors, where drivers can 
replenish their personal supplies at no cost.
    Finally, I would be remiss if I did not note Chairman 
DeFazio's introduction of a comprehensive infrastructure bill 
last week. Let me be clear: The single most important action 
this Congress can take right now to support our workforce and 
to provide for their safety is to invest in our infrastructure.
    Roads and bridges are not Democratic or Republican. We all 
drive on them. For the 7.7 million Americans in the trucking 
industry, doing our jobs day and night, moving our economy, we 
ask members of this committee to do theirs and pass a 
bipartisan infrastructure bill this year that meets the urgent 
needs of our economy, our industry, and the motoring public.
    Thank you for working with us to ensure America's trucking 
industry has the support it needs to serve our country through 
these tough times and into a better tomorrow. I look forward to 
answering your questions.
    Thank you.
    [Mr. Guillot's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Randy Guillot, President, Triple G Express, Inc. 
 and Southeastern Motor Freight, Inc., and Chairman, American Trucking 
            Associations (ATA), testifying on behalf of ATA
    Chairman DeFazio, Ranking Member Graves, and members of the 
distinguished Committee, thank you for providing the American Trucking 
Associations (ATA) with the opportunity to testify before you today. My 
name is Randy Guillot, and I currently serve as the 75th Chairman of 
the ATA. And, on behalf of the approximately 7.7 million men and women 
employed by trucking in the United States, I am grateful for the 
opportunity to share how the trucking industry has responded to the 
COVID-19 pandemic, and how we are positioned to help lead our nation's 
economic recovery.
    As you know, ATA is an 87-year-old federation and the largest 
national trade organization representing the trucking industry, with 
affiliates in all 50 states. ATA's membership encompasses over 34,000 
motor carriers and suppliers directly and through affiliated 
organizations. Our association represents every sector of the industry, 
from Less-than-Truckload to Truckload, agriculture and livestock to 
auto haulers, and from the large motor carriers to the owner-operator 
and mom-and-pop one truck operations. In fact, 80 percent of our 
membership is comprised of small-sized carriers, whereas only 2 percent 
of our membership would be considered large-sized carriers.
    Outside of my service as Chairman of the ATA, I am the President of 
Triple G Express, Inc. and Southeastern Motor Freight, Inc., with more 
than 33 years of experience working in the trucking industry. These two 
family-owned-and-operated companies, which date back to 1945 and 1985 
respectively, haul mostly intermodal containers primarily servicing the 
Port of New Orleans, but also operate short-haul dry-vans. Throughout 
my career, I have worked in all aspects of the business, ranging from 
sales and driving to dock work and safety.
    Before detailing the content of my testimony, I would like to use 
this opportunity to thank and recognize our nation's transportation 
workers. Transportation workers, including America's truck drivers, 
help to maintain the services and functions Americans depend on daily 
to operate resiliently during the COVID-19 pandemic response. Their 
selflessness during these trying times is nothing short of heroic.
    Since the onset of the COVID-19 pandemic, most economic, social, 
and cultural activity in our country has ground to a halt. But one 
group hasn't stopped: truckers. America's 3.5 million truck drivers--
and the countless men and women who support them, such as technicians, 
dispatchers, and truck stop operators--have kept our country running 
despite the enormous challenges caused by the pandemic.
    Truckers have been the difference between a fully-stocked grocery 
store and one lined with empty shelves. They're why doctors and nurses 
have PPE to protect themselves while treating the sick. They're why 
test kits arrive at hot-spots for use by local officials to mitigate 
the virus' spread. Perhaps the President of the United States said it 
best when he recently proclaimed from the South Lawn of the White 
House: ``Thank God for Truckers.''
    Our industry is proud to do its part to help fellow Americans get 
through this crisis. What we need--is for government officials at all 
levels to permit them to do so without unnecessary delay or 
interruption. As the ``essential critical infrastructure worker'' 
designation suggests, it's essential that trucks keep rolling through 
whatever prudent and necessary measures are taken to protect public 
health.
    It's also true that the trucking industry is struggling to cope 
with serious economic challenges precipitated by the pandemic and 
public health response efforts. Some trucking companies are busy, like 
those primarily hauling essential groceries, home delivery, e-commerce 
and medical supplies. However, many industry sectors have slowed or 
shuttered for the duration of the pandemic, which means that companies 
hauling fuel for cars and airlines, food supplies for restaurants, 
steel and cars for the auto manufacturers, and grain and commodities 
for agricultural exports have fewer loads to transport.
    Safely reopening our economy based on sound science and data will 
be the ultimate resolution to our economic challenges, and we support 
the efforts of public officials to get our nation back to work, 
balancing safety with the economic and social needs of modern life. And 
when the economy begins to turn back on, the first step will be 
repositioning and delivering supplies that fuel commerce and 
communities, which means the trucking industry will play a critical 
role as we turn toward recovery. Trucking holds the keys to restarting 
America's economic engine, and as an industry, we are prepared to meet 
that challenge. But, know that we will meet that challenge while doing 
everything we can to ensure the safety, health and well-being of our 
drivers and other industry workers.
    For the purpose of this hearing, I will focus my testimony on the 
impact of COVID-19 on the trucking industry and its workers, and the 
steps that this Committee and Congress should consider to ensure that 
the trucking industry is well positioned to lead the way from response 
to recovery. Because that's what truckers do--despite the numerous 
obstacles in our path and the risks posed by the public health crisis--
we keep rolling.
    ATA looks forward to continued, diligent work with this Committee. 
We believe that together we can achieve the legislative and regulatory 
framework that will best facilitate uninterrupted COVID-19 response and 
relief efforts, as well as future recovery measures. Ensuring that the 
essential critical infrastructure workforces have the resources and 
flexibility to continue to safely supply the nation with necessary 
goods and supplies throughout this health crisis and into the recovery 
phase will help define our country's resiliency and ability to overcome 
the pandemic.
   1.  Impacts of COVID-19 on the Trucking Industry and its Workers:
The Economic, Supply Chain, and Workforce Impacts of COVID-19 on the 
        Trucking Industry:
    The impact of COVID-19 on the trucking industry has been 
substantial as freight demand has declined significantly since the 
outbreak of the pandemic. After an initial surge for groceries and 
other consumer staples to big-box retailers, freight levels have 
generally fallen since. For example, the spot market, which is where 
overflow freight goes when shippers have more loads than their contract 
carriers can handle, fell 54% in April on a year-over-year basis.\1\ 
ATA recently reported that its for-hire truck tonnage index, which is 
dominated by contract freight, not spot market, fell 12.2% in April 
from March. This was the largest month-to-month decline since April 
1994.\2\ In a recent COVID-19 survey conducted by ATA, 85% of nearly 
500 fleets said that truck freight levels were somewhat or much lower 
than would be expected during this time of year. In fact, 62% said 
freight was ``much'' lower.
---------------------------------------------------------------------------
    \1\ DAT.com
    \2\ https://www.trucking.org/news-insights/ata-truck-tonnage-index-
plunged-122-april
---------------------------------------------------------------------------
    This big drop in freight has many implications for trucking, which 
is a high-cash flow, low-profit industry. One of the major supply chain 
impacts we see is how less freight throws carriers' networks off 
balance. For example, in normal times, if a carrier has a customer with 
freight from Indianapolis to Savannah, GA, the carrier will find a 
customer(s) with freight from or near Savannah back to Indiana. But 
under these current circumstances, the carrier might still have freight 
to Savannah--but no return freight for the backhaul. Thus, the carrier 
is forced to drive long, ``deadhead'' miles or take a load in the spot 
market for well below sustainable rates. Either way, this situation 
puts added financial pressures on fleets.
    In ATA's COVID-19 survey, 32% of responding fleets, which equates 
to roughly 200 carriers, said they were forced to lay off or furlough 
drivers due to the current coronavirus economic situation. Our survey 
data shows that this group released a total of 6,364 drivers. 
Additionally, data from the Department of Labor showed that payrolls 
for the for-hire trucking industry fell by 88,000 in April. ATA's 
Economics Department estimates that 65,000 of those were truck drivers.
    Outside of these challenges to freight networks, the transportation 
portion of supply chains seem to be faring relatively well. In the ATA-
conducted COVID-19 survey, only 18% of the nearly 600 responding fleets 
indicated that they had at least one driver infected with the virus. 
Truck drivers, due to their line of work, are accustomed to social 
distancing during normal times. While we continue to cautiously assess, 
at this point we do not foresee any supply-chain breakdowns because of 
illness among trucking companies.
    Moving forward, we expect the trucking industry will continue to 
deliver freight as it has been under COVID-19, and that supply chains 
will hold strong, thanks to the fortitude of the trucking workforce. 
However, should the steep economic downturn continue its slide into 
June and July--when funds from the Paycheck Protection Program (PPP) 
run out for many smaller fleets--we could see an increasing number of 
motor carriers forced to close down. This would noticeably impact 
supply chains as the economy labors to restart. It could create a 
situation where, at least temporarily, the number of loads outnumbers 
the number of drivers and equipment available to haul them.
The Impact of COVID-19 on Worker Health and Safety
    Our position on safety has never wavered: Safety is of paramount 
importance. Since the onset of the COVID-19 pandemic, ATA's member 
companies have remained committed to this principle, and as our nation 
begins to enter the recovery phase, safety will continue to guide our 
decision-making.
    Unfortunately, the COVID-19 public health crisis precipitated a 
series of safety concerns outside of our control that had a direct 
impact on the health and wellbeing of our essential critical 
infrastructure workers. Specifically, the closure of state-run 
facilities, such as rest areas and service plazas, inhibited drivers' 
ability to find an adequate place to rest as they delivered goods 
across the nation in support of COVID-19 response efforts. For example, 
in Pennsylvania, both rest areas and service plazas closed across the 
entire state, just days into the pandemic. Truck drivers were suddenly 
left with few options when searching for a place to park and rest, use 
restroom facilities, or find something to eat--all while delivering 
critical medical supplies, food, and protective equipment that keep our 
communities safe and fed. Truck parking is dangerously scarce on a 
normal day, and the closing of these state-run facilities at a time of 
heightened urgency for freight deliveries was a devastating blow to the 
industry. Shortly after the sudden closure of these facilities, ATA 
educated Pennsylvania policymakers on the serious impacts of their 
decision--namely the safety and wellbeing of truck drivers. Ultimately, 
officials in Pennsylvania agreed to reopen a limited number of rest 
areas and service centers across the state.
    Another unanticipated safety concern was the availability of 
protective equipment. Like other critical infrastructure workers, ATA's 
member companies have struggled to obtain non-medical grade personal 
protective equipment (PPE), so that their drivers can reduce their 
exposure to COVID-19 while ensuring the supply chain remains intact. 
Several states have required ``face coverings'' when in public, and 
truck drivers are not exempt from these mandates. In light of these 
prudent requirements, ATA was able to obtain over 150,000 face 
coverings and distributed those masks to various trucking companies and 
trucking associations throughout the country.
    Additionally, as truck drivers hauled crucial loads from state to 
state, the ability for drivers to refill their personal hand sanitizer 
bottles was critical. Through a partnership with Protective Insurance 
and a custom distillery, Hotel Tango of Indianapolis, 1,100 gallons of 
hand sanitizer was distributed to many different truck stops and truck 
companies throughout the country. The hand sanitizer was transported 
via ATA member companies to these various locations. ATA is currently 
in the process of procuring additional hand sanitizer to be distributed 
throughout the country. By distributing these supplies to several 
public facilities, all truck drivers have access to these supplies.
    As the focus shifts from crisis to recovery, we must not lose sight 
of the health and safety needs of our drivers. Just as face coverings 
and hand sanitizer must remain readily available for our essential 
critical infrastructure workers, the ability to be tested for COVID-19 
must be prioritized for our frontline workers who keep our nation 
running. In April, ATA joined the National Safety Council (NSC) and 
several other organizations in supporting the prioritization of the 
healthcare sector for COVID-19 testing supplies. As testing becomes 
more available and abundant, we urge the federal government to provide 
COVID-19 testing resources to U.S. employers who are engaged in 
essential business services that maintain critical infrastructure 
viability.
    Further, ATA joined the Coalition for Workplace Safety (CWS) and 57 
other organizations in providing feedback to the U.S. House 
Subcommittee on Workforce Protections. Specifically, we advised against 
requiring the Occupational Safety and Health Administration (OSHA) to 
issue an Emergency Temporary Standard (ETS) in response to the COVID-19 
pandemic. An ETS would be far less agile at adapting the nation's 
evolving understanding of COVID-19 and the societal response to the 
crisis. Instead, we urged OSHA to consider a more nimble and effective 
solution: continue issuing industry-specific guidance based on the 
latest information from the Centers for Disease Control and Prevention 
(CDC). Guidance that is industry-specific is far more effective for our 
member companies to implement, and is significantly more sensible than 
a one-size-fits-all standard that is impracticable for a diverse 
industry like trucking. We must ensure that any guidance, whether from 
OSHA, CDC, FEMA, or any other organization, accounts for the 
intricacies of trucking.
Collaboration with the Department of Transportation (DOT)
    Since the onset of COVID-19, ATA collaborated closely with the U.S. 
DOT/ Federal Motor Carrier Safety Administration (FMCSA) to ensure 
drivers providing direct relief in response to COVID-19 were afforded 
the appropriate regulatory relief. The prompt response by U.S. DOT/
FMCSA in issuing an emergency declaration that waived Hours of Service 
(HOS) and other regulations ensured that grocery store shelves remained 
stocked during the panic-buying that ensued during the early days of 
the COVID-19 crisis. The collaboration between U.S. DOT/FMCSA and the 
trucking industry has been unprecedented, with numerous stakeholder 
conference calls, guidance documents, and countless correspondence when 
specific situations arose.
    ATA appreciates and supports the steps agencies have taken by 
issuing emergency waivers and declarations. ATA urges caution, however, 
that any waivers or exemptions are limited in scope and duration, and 
only apply to those operations providing direct emergency support. As 
many of these waivers expire in the coming weeks, we encourage federal 
agencies to continue industry outreach to ensure that drivers--
throughout the country--are able to comply with existing regulations, 
such as renewing a commercial driver's license, hazardous materials 
endorsement, or medical certificate. As the country takes steps to 
reopen, our motor carrier members are concerned that, in some 
locations, the ability to comply with regulatory requirements may be 
hindered due to inconsistent state and local restrictions. Continued 
outreach between U.S. DOT/FMCSA and our industry will ensure a smooth 
transition.
    Just as U.S. DOT/FMCSA has acted swiftly to provide regulatory 
relief during the COVID-19 pandemic, we also applaud their efforts in 
expeditiously publishing an HOS final rule that will provide targeted 
flexibility for our industry. As the trucking industry adjusted to the 
December 2017 implementation of Electronic Logging Devices (ELDs), 
concerns were raised by varying segments of the industry regarding the 
need for greater flexibility in commercial motor vehicle operators' 
HOS. While HOS regulations are designed to provide the framework for 
the safe and efficient movement of goods, ELD implementation made clear 
the need to provide drivers an improved ability to adjust to changing 
road and weather conditions, congestion and sensitive truck loads.
    As such, ATA applauds FMCSA's recent publication of an HOS Final 
Rule, which, in various ways, will give drivers the flexibility 
necessary to safely and efficiently manage operations. This final rule 
includes flexibilities to the existing HOS regulations that have been 
in place for several years, including, expansion of the short-haul 
exemption, changes to the adverse driving conditions exception, changes 
to the 30-minute rest break requirement, and greater flexibility for 
how a driver splits their off-duty time in a sleeper berth. ATA filed 
public comments regarding each of these provisions, which can be 
located on the public docket.\3\ ATA thanks DOT and FMCSA for their 
thoughtful and thorough rulemaking effort, which included significant 
stakeholder engagement, to produce a final rule based on science, data 
and safety. ATA looks forward to the September effective date for this 
final rule.
---------------------------------------------------------------------------
    \3\ https://www.regulations.gov/document?D=FMCSA-2018-0248-8025.
---------------------------------------------------------------------------
    With regard to the additional waivers issued by FMCSA related to 
Commercial Learners Permits and Third Party Testing, we encourage the 
Agency to consider pursuing permanency of these waivers, which could 
assist in easing the current delays associated with the testing of 
drivers who wish to obtain their Commercial Driver's License (CDL). 
These delays existed prior to COVID-19 and have only been exacerbated 
by this pandemic. ATA anticipates that the existing backlog of testing 
appointments will steadily increase in the future and encourages FMCSA 
to harmonize state licensing procedures, including, for example, state 
of domicile requirements and Third-Party Testing. FMCSA has mandated 
that an individual's state of domicile must accept the results of a CDL 
skills test that was administered out-of-state; however, the rule does 
not require the state of domicile to also accept the results of an out-
of-state knowledge test. As a result, driver candidates who obtain 
training out-of-state are required to travel back to their state of 
domicile to obtain their credentials, creating an unnecessary burden. 
It has become all the more important to allow trainees to test, train, 
and receive their relevant credentials--be it a CLP or a CDL--without 
having to travel back and forth to their state of domicile.
   2.  Trucking Industry Priorities for COVID-19 Relief and Response 
                                Efforts:
Limited Liability Protection Through COVID-19 Relief and Recovery 
        Efforts:
    Motor carriers and commercial drivers are crucial to ensuring that 
the nation remains supplied with essential goods--from food to medical 
supplies--during the public health crisis. Given the unprecedented 
nature of this crisis, motor carriers and commercial drivers are, in 
the course of that essential work, exposing themselves to enhanced 
risks that are not yet fully understood. While the safety of our 
drivers, our customers, and those we share the highway with is always 
paramount for the trucking industry, the fact remains that the risks 
associated with keeping the nation supplied during the crisis cannot be 
completely mitigated. In order to ensure motor carriers are not 
punished for stepping up in the face of the national emergency, and are 
not dis-incentivized from doing so, Congress should impose reasonable 
limitations on the liability of motor carriers for these enhanced, 
crisis-related risks that they cannot fully mitigate. Such protections 
should be temporary and tailored to the scope of the pandemic response 
and recovery, and preserve recourse for those harmed by truly bad 
actors who engage in willful misconduct.
    Specifically, Congress should provide motor carriers with 
protections like those it conferred on certain health care 
professionals in the CARES Act, where it ensured that they would not be 
held liable for good-faith efforts to provide care during the crisis. 
Similarly, Congress should provide that motor carriers will not be held 
liable if--despite reasonable safety precautions consistent with 
federal guidelines, and absent willful misconduct or gross negligence--
they are alleged to have exposed customers or employees to the 
coronavirus in the course of serving the nation's supply needs during 
the crisis.
    In addition, as we recognize the central role the trucking industry 
is playing in seeing the nation through this crisis, I want to make 
this Committee aware of a longer-term problem that has threatened the 
industry's ongoing ability to cost-effectively move the vast majority 
of the nation's freight. Motor carriers in recent years have become 
favored targets of the plaintiffs' bar and third-party litigation 
financing companies, who treat highway accident litigation as a 
potential jackpot rather than a means of assessing fault and fairly 
compensating victims. That trend, in turn, has led to skyrocketing 
insurance rates that risk putting many carriers out of business, and by 
raising the cost of shipping takes money out of the pockets of American 
consumers only to line those of the unscrupulous trial lawyers who seek 
to profiteer of the trucking industry's efforts to keep the supply 
chain running.
Enact Legislation Protecting Essential Critical Infrastructure 
        Employees:
    The transportation systems sector is one of the 16 critical 
infrastructure sectors whose assets, systems, and networks are 
considered so vital that their incapacitation would have a debilitating 
effect on security, economic stability, public health, and safety.\4\ 
Accordingly, functioning and stable critical infrastructure is 
imperative as our nation responds to the COVID-19 public health 
emergency. The Cybersecurity and Infrastructure Security Agency (CISA) 
identified trucking in its list of essential critical infrastructure 
workers \5\ because our industry helps to maintain the services and 
functions Americans depend on daily to operate resiliently during the 
COVID-19 pandemic response.
---------------------------------------------------------------------------
    \4\ Cybersecurity and Infrastructure Security Agency, ``Critical 
Infrastructure Sectors,'' https://www.cisa.gov/critical-infrastructure-
sectors, 24 March 2020.
    \5\ Cybersecurity and Infrastructure Security Agency, ``Advisory 
Memorandum on Identification of Essential Critical Infrastructure 
Workers During COVID-19 Response,'' https://www.cisa.gov/sites/default/
files/publications/Version_3.1_CISA_Guidance_on_Essential_Critical_
Infrastructure_Workers.pdf, 19 May 2020.
---------------------------------------------------------------------------
    The trucking industry is proud to serve in this role, and will 
continue to deliver essential goods and supplies to communities so that 
our nation can confront and defeat this pandemic. We respectfully urge 
this Committee to consider a measure like S.3728, the Critical 
Infrastructure Employee Protection Act, to ensure that the trucking 
industry, and other essential critical infrastructure workers in the 
transportation systems sector, have the resources they need to maintain 
their essential operations. This thoughtful and timely legislation 
would require the Secretary of Transportation to support the efforts of 
State and local governments to provide essential critical 
infrastructure workers with prioritized access to testing and non-
medical grade equipment. Ultimately, this type of investment in our 
frontline heroes is an investment in our nation's long-term well-being 
because essential critical infrastructure workers are leading our 
nation's response and recovery efforts on the ground. Keeping our 
frontline transportation workers healthy is how we ensure that grocery 
stores remain stocked, medical supplies remain available in urban and 
rural communities, and how we maintain critical infrastructure 
viability.
Provide Detention and Demurrage Fee Relief & Chassis Choice for the 
        Intermodal Trucking Community:
    Despite the economic slowdown caused by the public health crisis, 
intermodal motor carriers continue to bring products and materials to 
and from ports around the country. These efforts help deliver critical 
supplies to frontline health care workers, as well as the myriad 
materials and products needed to drive nearly every aspect of the 
country's economic supply chain.
    Unfortunately, the current coronavirus outbreak has created a 
situation where access to shipping containers is critical, but is 
slowed down by ocean carriers traveling from ports throughout the 
world. Motor carriers have been assessed demurrage and detention fees 
unfairly by ocean carriers and marine terminals in the past, and with 
the current health crisis affecting operations at ports around the 
nation, ATA requests detention and demurrage fees be waived.
    Under current practice, a fee is typically charged if a motor 
carrier is responsible for a delay of intermodal containers being 
picked up or delivered. If the motor carrier is the cause of such a 
delay, this penalty might make sense, since the global supply chain 
depends on the movement and repositioning of these containers. In many 
cases, delays result from other factors--such as port or ocean line 
delays, and the trucking companies are charged for inefficiencies they 
have no control over. While these practices are unfair in normal times, 
they are debilitating during this pandemic, which has caused historic 
disruptions in ocean shipping and port operations. Temporarily 
prohibitions on these charges against motor carriers will protect a 
vital American supply chain link and assist the recovery from our 
economic challenges.
    Such a waiver or prohibition will help reduce confusion and 
disputes between intermodal carriers and the ocean lines, and expedite 
freight movement at ports and container terminals, thereby allowing 
critical products and materials to move more quickly during this time 
of national need.
    Recently, the Federal Maritime Commission (FMC) finalized an 
interpretive rule on Detention and Demurrage. It will take effect after 
it is published in the Federal Reserve, which we hope will be soon. 
According to a recent statement from the FMC, ``under the new 
interpretive rule, the commission will consider the extent to which 
detention and demurrage charges and policies serve their primary 
purpose of incentivizing the movement of cargo and promoting freight 
fluidity.''
    The detrimental impacts of COVID-19 makes the FMC interpretive rule 
on detention and demurrage very timely, because one of the main 
functions of the rule is to determine if certain detention and 
demurrage fees are reasonable or support freight fluidity. If neither 
of these goals are achieved, then no fee should apply. It should also 
bring clarification as to how the ocean carriers and marine terminals 
provide notice to truckers when their cargo is available for retrieval, 
clearly defined demurrage and detention policies, and dispute 
resolution. This increased clarity will help resolve disputes when they 
arise. Moreover, through the reasonableness standard laid out in the 
interpretive rule, the FMC will be able to better evaluate these 
disputes when they arise.
    Therefore, we encourage the Committee to oversee the implementation 
of the FMC's interpretive rule, to help ensure that motor carriers are 
not being improperly charged detention and demurrage fees, particularly 
as a result of impacts from the pandemic. Additionally, should this 
interpretive rule be delayed in implementation, we encourage the 
Committee to provide intermodal motor carriers with detention and 
demurrage fee relief in future response and recovery legislation.
    Another intermodal issues I'd like to raise with the Committee is 
chassis availability or chassis choice, which has become a much bigger 
problem at many of our nation's ports and terminals. If intermodal 
motor carriers are unable to get the chassis they need to move 
containers to and from ports, or if the process for obtaining a chassis 
is inefficient, then freight fluidity will be affected. For over 10 
years, although the ocean carriers have sold their chassis, they still 
control chassis rules at intermodal facilities to deny trucking 
companies' choice when leasing this essential equipment. Foreign-owned 
ship lines require U.S. motor carriers to only lease chassis from the 
steamship lines designated chassis providers at a daily rate that is 
more than double the cost of providing a chassis, which increases costs 
for the motor carriers. At the same time, steamship lines have 
negotiated with their designated chassis provider for a daily chassis 
price when the steamship line pays the bill that is half the cost of 
providing a chassis. This rebate practice must stop.
    The increased cost on the motor carrier is punitive and will lead 
to increased costs for the consumer. The lack of chassis choice 
prevents the motor carriers from making decisions on the quality of the 
equipment. It is important that chassis choice is available at ports 
and terminals throughout the country.
  3.  Trucking Industry Priorities for COVID-19 Recovery Legislation:
Create Jobs and Stimulate the Economy While Improving our Nation's 
        Infrastructure:
    The COVID-19 pandemic has significantly reduced travel, driving 
down fuel use and with it, fuel tax collection. In addition, truck and 
trailer purchases have dropped considerably, reducing the revenue 
collected through the federal excise tax on equipment.\6\ For the week 
of May 16-22, personal travel was down a seasonally adjusted 30% 
compared with normal travel, while long-haul truck travel declined 5% 
and local trucking fleet travel was down 6%.\7\ These declines have 
resulted in similar reductions in fuel consumption, with gasoline 
purchases down by approximately 30% in May compared with the same 
period in 2019.\8\ While the likely effects on transportation budgets 
are unclear, ATA estimates that federal and state user fee revenue 
could be depleted by at least $32 billion over the next year. This does 
not include losses to states that rely on retail sales tax revenue for 
their transportation budgets. This loss of revenue will force 
cancellation of critical transportation projects, putting more than 
400,000 people out of work. Furthermore, it will accelerate the 
insolvency of the federal Highway Trust Fund (HTF), which was 
previously projected by the Congressional Budget Office to begin to go 
into the red by FY2021.
---------------------------------------------------------------------------
    \6\ Gilroy, Roger, April Class 8 Orders Reach 25-Year Low, 
Transport Topics, May 5, 2020.
     Gilroy, Roger, US Trailer Orders Tumble to All-Time Low in April, 
Transport Topics, May 25, 2020.
    \7\ INRIX U.S. National Traffic Volume Synopsis Issue #10 (May 16-
May 22, 2020)
    \8\ Weekly US Product Supplied of Finished Motor Gasoline [https://
www.eia.gov/dnav/pet/hist/LeafHandler.ashx?n=pet&s=wgfupus2&f=w]
---------------------------------------------------------------------------
    ATA supports a short-term infusion of revenue that will allow 
states to avoid furloughs and to maintain capital investment schedules, 
saving thousands of jobs. We also urge Congress to avoid delays in 
reauthorization of the FAST Act, and ensure that the surface 
transportation program is provided with sufficient long-term revenue to 
address critical infrastructure deficiencies.
    Even before the current crisis, a severe lack of investment has 
caused the road system to rapidly deteriorate, costing the average 
motorist nearly $1,600 a year in higher maintenance and congestion 
expenses.\9\ Highway congestion also adds nearly $75 billion to the 
cost of freight transportation each year.\10\ In 2016, truck drivers 
sat in traffic for nearly 1.2 billion hours, equivalent to more than 
425,000 drivers sitting idle for a year.\11\ This caused the trucking 
industry to consume an additional 6.87 billion gallons of fuel in 2016, 
representing approximately 13% of the industry's fuel consumption, and 
resulting in 67.3 million metric tons of excess carbon dioxide (CO2) 
emissions.\12\
---------------------------------------------------------------------------
    \9\ Bumpy Road Ahead: America's Roughest Rides and Strategies to 
make our Roads Smoother, The Road Information Program, Oct. 2018; 2015 
Urban Mobility Scorecard. Texas Transportation Institute, Aug. 2015.
    \10\ Cost of Congestion to the Trucking Industry: 2018 Update. 
American Transportation Research Institute, Oct. 2018.
    \11\ Ibid.
    \12\ Fixing the 12% Case Study: Atlanta, GA. American 
Transportation Research Institute, Feb. 2019.
---------------------------------------------------------------------------
    The current situation represents the greatest opportunity in 
decades to make great strides toward addressing these challenges. With 
traffic down (allowing for more lane closures), unemployment at 
historic highs, and interest rates and fuel prices at historic lows, 
now is the perfect time to accelerate transportation projects, not 
starve them of revenue.
    It is challenging to spot silver linings amid a global pandemic, 
but if there is something working Americans can be grateful for during 
a lockdown, it's a reprieve from the wretched traffic that's plagued 
daily commutes for years. But what happens when life returns to a new 
normal? America's sagging roads and cracking bridges will still be 
there, causing the bottlenecks and accidents that are the signature of 
everyday gridlock. Whatever the future holds, it is clear we can no 
longer rely on yesterday's roads to get us there. What if there was a 
smart way forward that finds common ground? What if we could jumpstart 
our economy, putting hundreds of thousands of Americans back to work in 
good-paying, private sector jobs--without adding another dime to the 
deficit? What if we could capitalize on this rare moment in the global 
oil market--paying dividends to working Americans for decades to come? 
There is. And we can. All that's needed now is the political courage to 
get there.
    President Trump and Speaker Pelosi have made rebuilding roads and 
bridges a top priority. Leader McConnell has insisted that any 
infrastructure package be fully paid for. Truckers agree with all 
three. Where pundits see conflict, we see alignment--and the way 
forward. In one package, infrastructure offers a singular solution to 
the tangled web of policy challenges woven by COVID-19. It would 
generate powerful economic stimulus in the near term, providing 
hundreds of thousands of good-paying, private sector jobs. It would lay 
a strong foundation for long-term economic growth, strengthening our 
supply chain and securing America's preeminent position in the global 
economy. Most importantly, it can be done responsibly--and fully paid 
for--without adding a dime to the federal deficit.
    While the COVID-19 crisis will pass, one of its lasting legacies 
has already been written. The U.S. has added $3 trillion onto our 
nation's credit card bill in a matter of weeks. These actions were 
necessary to prevent a catastrophic economic collapse, but their steep 
cost will reverberate for many years to come. America's total national 
debt now tops $25 trillion--another crisis decades in the making. It is 
a heavy price dropped on our kids and grandkids, which they'll pay 
throughout their lives in the form of higher taxes and fewer economic 
opportunities.
    Moreover, an infrastructure bill without a dedicated funding stream 
has no teeth. Without budget certainty over a multi-year window, 
transportation officials cannot move projects from the planning phase 
to the construction phase. Ground cannot be broken, jobs are frozen and 
any progress is bogged down by Congress' annual appropriations cycle. 
In order to create value, infrastructure has to be funded.
    President Reagan twice oversaw increases in the federal fuel tax 
during his Presidency, and for good reason. It is the most 
conservative, efficient and viable funding mechanism readily available 
for infrastructure improvement. That is because the fuel tax is 
collected at the wholesale level--at what is known as a ``terminal 
rack''--well before it reaches the retail pump. There are roughly 1,300 
racks across the country, but collectively they're operated by only 
about 300 entities.\13\ The result is a tried-and-true system that 
minimizes overhead costs and maximizes efficiency--value--for road 
users. Ninety-nine cents of every dollar collected flows straight into 
the Highway Trust Fund.\14\ Compare that to alternatives like tolling, 
where as much as 35 cents of every dollar is squandered on 
administrative and collection costs.\15\
---------------------------------------------------------------------------
    \13\ https://www.irs.gov/pub/irs-utl/tcn_db.pdf
    \14\ A Framework for Infrastructure Funding, American 
Transportation Research Institute, Nov. 2017.
    \15\ Ibid.
---------------------------------------------------------------------------
    Yet Congress has not adjusted the fuel tax since 1993. As COVID-19 
roils oil markets, the present moment offers an enormous investment 
opportunity to recoup the economic losses inflicted on our country. As 
of May 26, the national average price for a gallon of gas is $1.96, 
compared to nearly $3.00 one year ago.\16\ Increasing the federal fuel 
tax by only a nickel each year, over four years, would generate $340 
billion in new revenue over the next decade. A five-cent increase in 
the fuel tax would cost the average motorist merely an extra 50 cents 
at the pump each week. Even if a 20-cent increase took effect 
immediately, motorists today would still be paying 80 cents less on 
each gallon of gas than they were paying a year ago. More importantly, 
a well-maintained and responsibly funded surface transportation funding 
program would create significant savings for motorists by steadily 
reducing the $1,600 and 54 hours they are currently losing every year 
as roads and bridges fall deeper into disrepair and no longer meet the 
needs of 21st century America.
---------------------------------------------------------------------------
    \16\ Gasbuddy.com
---------------------------------------------------------------------------
    When it comes to funding the roads and bridges that Americans use 
every day, the trucking industry more than carries its weight--and 
we're proud of that fact. While trucks account for only four percent of 
vehicles on our nation's roads, they pay nearly half of all Highway 
Trust Fund user fees. And truckers are willing to pay more to get this 
job done. But we're not alone. America's farmers, manufacturers, 
building trades, steel workers, business and labor leaders all stand in 
unison behind this national goal. Together we can rebuild America--
faster, better and stronger than ever before. Investing in our nation's 
failing infrastructure will ensure that we are better equipped to 
respond to this and future national emergencies. Additionally, 
investing in infrastructure will provide a direct stimulus into our 
nation's weakened economy.
    We urge Congress to provide an immediate infusion of additional 
money to states for surface transportation. We believe that 
approximately $32 billion will be necessary to offset losses from 
federal and state user fee reductions over the next year. The money 
should initially come from the General Fund, to be distributed through 
existing federal-aid programs, and replenished over four years by an 
immediate 5 cent increase in the federal fuel tax. With additional five 
cent increases in each of the following three years, sufficient revenue 
can be generated to ensure long-term funding stability for the Highway 
Trust Fund.
    Enactment of a robust long-term surface transportation 
reauthorization bill will ensure the solvency of the HTF and give 
states the certainty they require to make the major investments 
necessary to address maintenance and congestion needs. Among other 
funding priorities, ATA recommends direct funding for top freight 
bottlenecks that will ensure that trucks can deliver goods more swiftly 
in response to future emergencies. We also recommend the inclusion of 
H.R.6104, the Truck Parking Safety Improvement Act, which makes $755 
million available to states for increased truck parking capacity. 
Finally, ATA supports federal grants of up to $2 million per state for 
the purpose of creating or upgrading automated permitting systems. 
While these expenses are eligible under FMCSA's High Priority 
Innovative Technology Deployment (ITD) Program, this program is over 
subscribed. While the lack of adequate automated permitting systems in 
more than half the states creates inefficiencies during normal times, 
the COVID-19 experience has exposed even more harmful effects during 
times of crisis.
Incentives to Promote Investments in Cleaner, Safer & More Fuel-
        Efficient Truck & Equipment:
    COVID-19 is placing severe economic strain on trucking fleets and 
truck and trailer manufacturers due to cash flow uncertainties. As a 
result, investments in cleaner, more fuel-efficient, and safer trucks 
and equipment have steeply declined.
    New Class 8 heavy-truck orders in April 2020 were the lowest since 
1995.\17\ The spread of COVID-19 led all four major heavy-duty truck 
makers to suspend normal production schedules beginning as early as 
March.\18\ Production in 2020 will likely be a 50-60 percent decline in 
sales below the near-record build rate of 345,000 trucks in 2019.\19\ 
The global Class 8 downturn in 2020 will be worst felt in the U.S. as 
it often exhibits deeper cyclical troughs.\20\ Fleets are delaying 
ordering trucks until the economic uncertainty over the COVID-19 crisis 
abates and a significant number of orders scheduled for near-term 
deliveries have been cancelled due to financial uncertainty and/or lack 
of freight to haul.
---------------------------------------------------------------------------
    \17\ Gilroy, Roger, ``April Class 8 Orders Reach 25-Year Low'', 
Transport Topics, May 5, 2020.
    \18\ Hitch, John, ``Pandemic's Impact on Current Truck 
Production'', Fleet Owner, April 7, 2020.
    \19\ ``COVID-19 Will Further Slow Demand for Heavy Trucks'', S&P 
Global Ratings, May 5, 2020.
    \20\ Id.
---------------------------------------------------------------------------
    Fleets have also curtailed ordering new trailers due to COVID-19. 
U.S. trailer orders in April hit an all-time low after heavy 
cancellations and the industry's rapid reaction to the unprecedented 
business conditions generated by the economic shutdown.\21\ While often 
overlooked, new trailers typically provide significant environmental 
and energy savings benefits as exemplified under the U.S. EPA SmartWay 
program which helps companies advance freight transportation 
efficiency.\22\
---------------------------------------------------------------------------
    \21\ Gilroy, Roger, ``US Trailer Orders Tumble to All-Time Low in 
April'', Transport Topics, May 25, 2020.
    \22\ See: https://www.epa.gov/smartway.
---------------------------------------------------------------------------
    As the economy looks to recover from COVID-19, fleets must be 
incentivized to place orders for new, cleaner, safer, and more fuel-
efficient equipment. Providing such incentives will result in a direct 
economic stimulus, certainty for jobs in truck and equipment 
manufacturing, and improvements to highway safety and fuel efficiency. 
As Congress considers COVID recovery legislation, relief is sought on 
these three fronts:
    (1)  Temporary suspension of non-fuel use taxes for the trucking 
industry;
    (2)  Establishment of an immediate freight truck stimulus package; 
and
    (3)  Short-term financial incentives to kick-start the purchase of 
new North American-manufactured trailers.
            A Temporary Suspension of Non-Fuel Use Taxes:
    Non-fuel federal use taxes cost the trucking industry more than $6 
billion annually.\23\ These taxes include the 12 percent federal excise 
tax (FET) assessed on new truck and trailer purchases, an antiquated 
tax on trucks and equipment adopted in 1917 as a World War I revenue 
source, which remains the highest excise tax imposed by the federal 
government on any product or service. The FET imposes an average 
additional $18,000 price tag on a new Class-8 truck (assuming an 
average purchase price of $150,000) and close to a $4,000 up-charge on 
a new 53-foot box trailer (assuming an average purchase price of 
$33,000). These excessive tax charges limit the amount of actual 
physical equipment fleets can afford to purchase. The 97 percent of the 
nation's trucking companies that are small businesses are especially 
impacted by these high taxes given that they already operate on razor-
thin profit margins.\24\ While the permanent elimination of the FET is 
clearly justified, a temporary suspension of this tax through the end 
of CY2021 would greatly incentivize carriers to purchase new trucks and 
trailers, save manufacturing jobs, and put cleaner, safer, more fuel-
efficient equipment on the road.
---------------------------------------------------------------------------
    \23\ See: https://www.fhwa.dot.gov/policyinformation/statistics/
2018/fe210.cfm.
    \24\ American Trucking Trends 2019, American Trucking Associations, 
July 2019.
---------------------------------------------------------------------------
    A second non-fuel federal use tax involves the FET assessed on 
tires that only applies to the trucking industry. It was also imposed 
to assist in paying for the war effort during World War I. While tires 
account for two percent of fleet operating expenses, the annual tax 
burden on the industry is approximately $500 million.\25\ A temporary 
tax holiday through CY2021 for truck tire purchases would save the 
industry approximately $800 million and go far in the economic recovery 
efforts of the trucking sector.
---------------------------------------------------------------------------
    \25\ See: https://www.fhwa.dot.gov/policyinformation/statistics/
2018/fe210.cfm.
---------------------------------------------------------------------------
    The final non-fuel federal use tax is the Heavy Vehicle Use Tax 
(HVUT), assessed annually on heavy vehicles at a rate of up to $550. 
Though drivers are still on the road delivering vital supplies and 
food, they remain subject to a tax burden that places enormous stress 
on their businesses at the very time when there are agonizing decisions 
made every day related to equipment and workforce. This tax is 
especially burdensome because fleets must pay it in a single lump sum, 
straining company cash flows. Suspending the HVUT through CY2021 would 
save the trucking industry nearly $2 billion.
            Establishment of a Freight Truck Stimulus Package:
    To help rebuild and stabilize the trucking sector, creating a 
freight truck stimulus package under the highly-successful Diesel 
Emissions Reduction Act (DERA) would throw a lifeline to many trucking 
fleets seeking to purchase cleaner equipment. DERA has become one of 
the most cost-effective federal clean air programs for reducing 
emissions and saving fuel. EPA's most recent estimates indicated that 
every $1 in federal assistance is met with $3 in non-federal matching 
funds, including significant investments from the private sector. 
Furthermore, every federal dollar generates between $5 to $21 in health 
and economic benefits.
    Using DERA to stimulate the economy is not without precedent. EPA 
received $300 million through the American Recovery and Reinvestment 
Act (Recovery Act) for clean diesel projects in 2009. These funds 
expanded the program's ability to establish large-scale projects that 
could deliver additional reductions through investments in cleaner and 
more fuel-efficient technologies. This program was also credited with 
sustaining and creating over 3,000 jobs. Many DERA-related jobs advance 
green employment opportunities through the development, manufacturing, 
and installation of clean diesel technologies.
    While DERA has made tremendous progress in improving air quality 
nationwide, annual dollars are stretched thin due to competition for 
funding between school buses, ports, airports, rail, construction 
equipment, and trucking. Given that approximately 57 percent of the 
heavy-duty truck fleet is not equipped with technology meeting the most 
current emissions standards adopted for model year 2010, and given the 
expected downturn in new truck purchases into the foreseeable future, 
developing and funding an on-road freight truck component under the 
DERA program would be a win-win proposition to jump-start new truck 
purchases and reduce emissions. ATA therefore supports an additional 
$250 million in annual DERA funding be appropriated and specifically 
set aside for new on-road freight vehicle purchases to accelerate fleet 
turnover rates and to help renew truck manufacturing jobs.
            New Trailer Purchase Incentives:
    A single 53-foot standard box-type trailer can set a trucking 
company back $33,000 on average. It is not uncommon for fleets to have 
trailer to tractor ratios of 3:1, meaning they require three trailers 
per power unit due to the frequent repositioning of empty, partially 
loaded, and fully-loaded units. Other trailers designed for specialty 
hauling operations--such as tank trucks, flatbeds, refrigerated units, 
and automobile haulers--can sometimes cost upwards of $100,000.
    Given the economic recovery needed for the pummeled trailer 
manufacturing industry, ATA proposes a temporary $5,000 federal voucher 
program for the purchase of new North American-manufactured trailers 
that achieve either a U.S. EPA SmartWay, U.S. EPA Phase 2 Heavy-Truck 
Greenhouse Gas Rule, or comparable state fuel-efficiency designation 
through the end of CY2021. Today's new generation trailers are both 
more fuel-efficient and provide significant associated emission 
reductions. In fact, emission reductions and associated fuel savings 
benefits from a new 53-foot trailer can achieve as much as a 10 percent 
improvement.
    In order to inject new life into what used to be a $12+ billion 
U.S. industry, the establishment of a short-term federal voucher 
program is critical. Not only will such a program instantly help U.S.-
based trailer manufacturers and trucking companies rebound financially, 
but incentivizing new trailer purchases will help continue the 
historical progress the trucking industry has made over the last 35 
years to advance the nation's energy and clean air goals.
Support Workforce Development Initiatives and Invest in Retraining the 
        Unemployed:
    The trucking industry's successful mobilization in response to the 
COVID-19 emergency demonstrates how critical workforce development is 
to the economy and our emergency response supply chain. Prior to the 
COVID-19 emergency, the most recent statistics showed 7.4 million 
people working in various occupations in the trucking industry, 
accounting for 1 in 18 jobs in the U.S. ``Truck driver'' has been 
reported to be the top job in 29 states.\26\
---------------------------------------------------------------------------
    \26\ https://www.marketwatch.com/story/keep-on-truckin-in-a-
majority-of-states-its-the-most-popular-job-2015-02-09.
---------------------------------------------------------------------------
    These are good middle-class careers that do not require the debt 
that often comes with getting a college degree. The Bureau of Labor 
Statistics reported a mean salary of $46,850 for truck drivers in a May 
2019 report.\27\ An industry survey shows the average truck driver 
makes over $53,000 per year, plus benefits like health insurance, a 
retirement plan (e.g., 401(k)), and paid time off.\28\ A private fleet 
driver similarly saw pay rise to more than $86,000 from $73,000 or a 
gain of nearly 18% from 2014.\29\ In addition to rising pay, many 
fleets were offering generous signing bonuses and other expanded 
benefit packages to attract and keep drivers as recently as February of 
2020.
---------------------------------------------------------------------------
    \27\ Occupational Employment and Wages, May 2019, 53-3032 Heavy and 
Tractor-Trailer Truck Drivers, available at https://www.bls.gov/oes/
2019/may/oes533032.htm
    \28\ ATA Driver Compensation Study (2017); American Trucking 
Associations. https://www.atabusinesssolutions.com/ATA-Store/
ProductDetails/productid/3852684.
    \29\ Id.
---------------------------------------------------------------------------
    The most recent jobs report, however, showed overall 14.7% 
unemployment, and labor participation dropping to 60.2%--the lowest 
since 1973. While portions of the trucking industry have somewhat 
weathered the economic storm, according to the BLS May 2020 Report, 
88,300 jobs were lost in the for-hire trucking industry in April, or 
about 6%. That puts overall employment in the for-hire trucking 
industry at the lowest level since November 2014. Part of the reason 
for that, as this Committee well knows, is that we depend on our 
customers to sustain our business--and, when they hurt so do we.
    Prior to the current emergency, there was already a significant 
need for more truck drivers. In July 2018, half of the nation's twelve 
Federal Reserve Districts specifically reported trucking capacity and 
truck driver shortage issues.\30\ The industry faced a shortage of more 
than 60,000 qualified drivers as of 2020, and will need to hire 1.1 
million new drivers over the next decade, taking into account 
retirement and the industry's aging workforce (7 years older than that 
of your typical U.S. worker). Any further workforce attrition could 
cripple the industry's ability to effectively and swiftly deliver goods 
and supplies in a national emergency. Furthermore, there is a major 
backlog in Commercial Drivers License issuance in many states due to 
closures of many schools and testing facilities. As a major source of 
national employment, however, we expect to be a leader in returning 
Americans to work and have several proposals designed to maximize 
opportunity for all Americans in this critical industry as the economy 
recovers.
---------------------------------------------------------------------------
    \30\ The Federal Reserve Board, The Beige Book: Summary of 
Commentary on Current Economic Conditions by Federal Reserve District, 
July 18, 2018, https://www.federalreserve.gov/monetarypolicy/files/
BeigeBook_20180718.pdf.
---------------------------------------------------------------------------
    1.  H.R.1374/S.569, the DRIVE Safe Act: This bipartisan 
legislation, which is currently cosponsored by over one fourth of the 
House and one third of the Senate, allows young Americans to become 
truck drivers--a good paying job in an industry that badly needs them. 
Though 49 states currently allow individuals to obtain a commercial 
driver's license at 18, they remain prohibited from driving in 
interstate commerce until they are 21. The bill establishes an 
apprenticeship program to train qualified 18-20 year old CDL holders to 
safely operate in interstate commerce.
    2.  H.R.5145/S.2858, the Promoting Women in Trucking Workforce Act: 
Through the establishment of a Women of Trucking Advisory Board, we 
expect to be able to place greater focus on the recruitment, training, 
and mentorship of women. This will lead to greater industry diversity, 
while providing another tool to stem the driver shortage.
    3.  H.R.5118/S.3303, the Promoting Service in Transportation Act: 
This legislation will raise awareness of great career opportunities in 
the transportation sector. Through enhancing the use of broadcast, 
digital and print media in public service campaigns, we can ensure that 
the workforce is available and equipped to respond to emergencies.
    4.  Workforce Investment and Opportunities Act (WIOA) Reforms: 
Training opportunities will play a critical role in helping the 
unemployed or underemployed return to work, and Congress should pursue 
improvements to WIOA, which is up for reauthorization this year, in 
both the short- and long-terms.
      a.  Improved Payment Efficiency Will Speed Up Training: Truck 
driver training schools currently train between 13,000-14,000 Americans 
each year under WIOA. With many workforce boards temporarily closing 
due to the COVID-19 pandemic coupled with various accounting 
requirements, outstanding reimbursements were not timely processed, 
which delayed entire classes of new drivers. Congress should consider 
changes to ensure training reimbursements continue in the event of a 
temporarily closed workforce board.
      b.  Expand WIOA Funding and Ensure Vital Industries Have Access: 
In order to ensure opportunities for those who may not be able to 
return to their prior jobs, ATA believes a one-time infusion of WIOA 
funds with certain parameters is in order, and that truck driving 
should be considered a nationally ``in-demand'' occupation. While some 
states and local workforce boards include truck driving as an in-demand 
occupation with access to WIOA funding, many do not. A directive that 
funds should be prioritized for workforce training for defined critical 
industries, including trucking, would remedy this disparity. 
Additionally, during the recovery period, Congress should streamline 
the intake process at state and local workforce boards to ensure people 
are being trained swiftly for open jobs.
    5.  Ensure Focusing on Safety Does Not Impact Independent 
Contractor Relationships: Safety is always paramount for the trucking 
industry, and many motor carriers rely on independent owner-operators 
for their businesses and work with them to ensure they are operating 
safely. Congress should ensure that efforts on the part of a motor 
carrier to assist an independent owner-operator in maintaining health 
and safety during the crisis cannot be used as evidence of an employer-
employee relationship and resulting liability of the carrier.

    These suggestions will help ensure the trucking industry has access 
to a workforce that is able to support the critical needs of the 
country as we cover from this crisis.
Provide for the Use of Electronic Shipping Papers:
    Both the U.S. Centers for Disease Control and Prevention (CDC) and 
the Occupational Safety and Health Administration (OSHA) recommend that 
individuals practice social distancing to slow the spread of COVID-19. 
Further, it is recommended that drivers, inspectors, shippers, and the 
entirety of the hazardous materials (hazmat) supply chain avoid 
touching documents whenever possible to reduce the likelihood of virus 
transmission. Unfortunately, truck drivers hauling hazmat do not have 
the option to apply this best practice due to certain federal shipping 
paper requirements.\31\ Specifically, the rigid procedures related to 
the preparation and retention of shipping papers inadvertently prevent 
truck drivers from taking precautionary measures intended to mitigate 
the spread of the virus. Transitioning to electronic shipping papers 
would enable truck drivers, their customers, law enforcement personnel, 
and first responders to avoid the risks associated with passing hazmat 
documents back and forth.
---------------------------------------------------------------------------
    \31\ 49 CFR Sec.  172.201-Sec.  172.205
---------------------------------------------------------------------------
    We recommend that Congress amend these federal shipping paper 
requirements to provide truck drivers hauling hazmat with the option to 
utilize electronic shipping papers. Such an amendment is long overdue, 
and is especially timely given the current public health emergency. 
Highway carriers should have the option to utilize electronic shipping 
papers if they are able to comply with comparable electronic shipping 
paper regulations governing hazmat transportation by air and rail.
    Transitioning to electronic hazmat shipping papers is not simply 
about leveraging technology for technology's sake. Shippers and 
carriers, as well as law enforcement officers and first responders, 
stand to benefit from the efficiencies yielded by electronic shipping 
documentation.
    The current Hazardous Materials Regulations place great emphasis on 
physical documentation requirements, which, in some cases, can 
inadvertently endanger law enforcement personnel and first responders--
the very individuals these regulations are intended to safeguard. For 
example, in emergency events involving hazmat highway carriers, first 
responders need to access shipping papers in order to determine the 
exact quantities and types of hazardous materials on board. If shipping 
papers are physically located inside the truck, first responders must 
put themselves in extreme danger to retrieve them. If first responders 
and law enforcement do not have access to the vital information 
contained in shipping papers, they will not have enough information to 
make informed judgments about how to respond properly and safely.
    With an electronic shipping documentation system in place, first 
responders could access the information remotely, circumvent the risk 
of entering the vehicle, and respond more rapidly. This concept has 
already been tested and approved in the air and rail domains, and the 
trucking industry is hopeful for the opportunity to embrace the safety 
benefits of electronic shipping papers as well. From a safety 
standpoint, the rationale for providing highway carriers with the 
option to transition to electronic shipping papers is clear. 
Furthermore, electronic shipping papers could also be incorporated into 
the communication systems that many companies already have in place for 
increased efficiency and enhanced sharing of hazard information with 
need-to-know parties. Leveraging technology to improve critical 
communication between drivers, first responders, and law enforcement 
during an emergency is a goal that we can all support.
    In addition to the safety benefits, using electronic shipping 
papers is a sensible way for shippers and carriers to reduce their 
impact on the environment. Electronic hazmat documents are not only a 
more environmentally-friendly alternative to printed shipping papers, 
they can also save shippers and carriers the cost of printing and 
maintaining this paperwork.
    For those reasons, we urge the Committee to take the appropriate 
legislative steps to ensure that the safe, secure, and efficient 
delivery of hazardous materials does not jeopardize the health and 
safety of truck drivers, first responders, law enforcement personnel, 
shippers, and consignees.
                               Conclusion
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you again for providing me with the opportunity to 
testify before you today. As you have ascertained from my testimony, 
the impacts of the COVID-19 pandemic on the trucking industry and its 
workers have been significant. And, yet, our industry and our drivers 
have been at the forefront of COVID-19 relief and response efforts, 
ensuring that food, medical supplies, and household goods are swiftly 
delivered throughout the country. Trucking is prepared to lead our 
nation's economic recovery, delivering the goods that will fuel 
commerce, the supplies that will empower businesses, and the 
necessities that will nourish our communities. And, we will do so with 
an unwavering commitment to the safety, health and well-being of our 
drivers and other industry workers.
    The leadership and action of this Committee, Congress, and the 
Administration over the next several months will shape the country's 
continued response to, and recovery from, the pandemic. Investing in 
our nation's crumbling infrastructure will both create jobs and provide 
a direct economic stimulus, while improving our crumbling roads and 
bridges. Providing limited and narrow liability protections to motor 
carriers and other industries who have acted in good faith on the front 
lines of the pandemic will ensure our response and recovery efforts are 
not assaulted by boundless liability. And, creating a roadmap and 
framework for our workforce of tomorrow, when the trucking industry 
will need to hire over one million new drivers just to keep pace with 
growing demand, will spur an employment resurgence as we emerge from 
this health crisis.
    ATA applauds the attention this Committee is giving to the impact 
of the COVID-19 pandemic on transportation industries and their 
workers. The trucking industry stands ready to work hand-in-glove with 
you on continued and future COVID-19-related efforts. Under your 
leadership and guidance, we believe that the important and necessary 
steps can and will be taken to help see the trucking industry, and the 
nation, through these tough times and into a better tomorrow.

    Mr. DeFazio. Thanks, Randy.
    That concludes our witnesses, and now we will proceed to 
questions. The staff has provided a list. It looks like we have 
extraordinary attendance today. Thanks to everybody. And we 
will try and move along quickly. And, as I said, it will be 
done in the usual order.
    And, first, I will claim my time.
    And first to Ms. Carr, if you could unmute. I would just 
like to discuss what you talked about in terms of observance at 
the gate recently of people not following the guidelines. And 
were they admitted to the plane while still not following the 
guidelines?
    Ms. Carr. So, Chairman, they would take their masks on and 
off. Again, there was a lot of crowding around the gate area. 
People were very eager to get onboard the aircraft, as they 
generally are, and despite the guidance from our gate agents 
asking them to space out, to keep the 6 feet, people were, 
again, too eager to get on the plane.
    As I was coming off, again, there was crowding. My coworker 
and I, who were both trying to exit the area, we were pressed 
up against people just trying to get out.
    Mr. DeFazio. Uh-huh.
    Have you heard from any of your coworkers about people 
refusing to wear masks on the plane?
    Ms. Carr. I have seen instances on social media through my 
coworkers where they have discussed the fact that passengers 
don't like to wear the mask, might take it off for a longer 
period than just to eat or drink. It is definitely an issue 
that we need to address.
    Mr. DeFazio. Do you think if we said seatbelts and not 
smoking are just a voluntary airline rule that we would be 
getting the levels of compliance we are getting today, because 
it is a mandate and will be enforced by the Federal Government?
    Ms. Carr. Because we have that security of the Federal 
Government giving us that backing to do our jobs and enforce no 
smoking on planes and enforce seatbelts, by enforcing masks, 
people, I believe, would have to listen to that. I believe 
there would be less pushback and less mistakes about what is 
acceptable at this point when you are traveling on an airplane.
    Mr. DeFazio. OK. Thank you.
    To Mr. Willis, Larry, if you could unmute. On the issue of 
OSHA, you mentioned OSHA and the lack [inaudible]. Do you want 
to just expand on that a little bit? What would [inaudible] 
factors?
    Mr. Willis. You were sort of breaking up there, but I think 
you were asking about the OSHA Emergency Temporary Standard.
    I think from a transportation worker perspective, both the 
OSHA temporary standard and the modal-specific requirements are 
going to [inaudible] work hand-in-hand. As I think you know, 
Mr. Chairman, OSHA's jurisdiction on the transportation side 
can be a little hit and miss. We do know that on the 
transportation side there are, sort of, uniquenesses about 
these industries that I think require the modal agencies to 
really step in here.
    You raised a question about empowering the flight 
attendants to enforce the mask rule. I think that has to 
happen, be an FAA directive, giving them the authority, again, 
in conjunction with the broader approach that OSHA offers.
    And, finally, as we talk about masks in the context of 
aviation, I think [inaudible] in addition to the aircraft, we 
need to make sure that passengers coming into the screening 
area are wearing masks [inaudible] at a national level so that 
they are protected from this virus as well.
    Mr. DeFazio. OK. Thanks.
    And then, finally, a quick question to Mr. Shaw, if you 
could unmute.
    I think you said that a lot of your assistance for PPE came 
through the union and not through the employers. Is that 
correct?
    Mr. Shaw. Yes, Chairman Graves.
    Mr. DeFazio. OK. That was an answer. They said ``Graves,'' 
but OK.
    All right. Thanks.
    With that, I am going to move on to Ranking Member Graves 
for his questions.
    Sam?
    Mr. Graves of Missouri. Thanks, Mr. Chairman.
    My question, I only have one right now, and it is for Mr. 
Guillot, if you could unmute.
    You mentioned that the shutdown of certain businesses and, 
obviously, certain regions has caused changes to the supply 
chain and it has thrown off the balance of freight systems. And 
I am just curious how your members are addressing that. And 
does this threaten the long-term viability of their supply 
chains?
    Mr. Guillot. Well, as it was mentioned earlier in the 
discussion, certain segments of our industry are busy still 
with consumer-type goods, but many segments of our industry 
that are servicing fuel deliveries, for servicing the oil 
fields right now, for servicing car manufacturers and other 
types of factories that are shut down because of the pandemic 
or just getting back up and going now--it certainly has 
disrupted the entire supply chain.
    So we are looking forward for the economy to get back going 
again, and that we can try and bridge the gap on the 
deficiencies now with the supply chain versus what we were 
experiencing before.
    So will there be long-term effects? I think the longer the 
slowdown is, the worse it is going to be in recovery. But I 
think, if it is short in timeline, that we will be back and the 
supply chain will be back to normal.
    You know, our workers have been up to the task. We have 
been at the front lines, delivering, and we will continue doing 
that as an industry.
    Thank you.
    Mr. Graves of Missouri. Do you have an estimate on how long 
it might take to get back to normal?
    Mr. Guillot. Our economists for ATA have projected towards 
the end of 2021 might give us some sort of normalcy again.
    We are experiencing a tremendous slowdown in the second 
quarter this year. Some estimates are as high as 35 percent. 
And while we are looking for an increase in the economy in the 
third and fourth quarter at measurable lengths, it is still 
going to take that long to get back to normal, if, in fact, the 
projections are correct.
    Mr. Graves of Missouri. Thank you.
    Mr. Guillot. Thank you.
    Mr. Graves of Missouri. I yield back, Mr. Chairman.
    Mr. DeFazio. Thanks, Sam.
    We would now move to Eleanor Holmes Norton.
    Eleanor? Unmute.
    Ms. Norton. Yeah. I hope you can hear me and see me.
    Mr. Chairman, I do want to thank you for this hearing. I 
think it has been really important to hear from these leaders 
on the front lines who are experiencing the most exposure and 
who can help us the most.
    Indeed, I have a question really for all of them.
    My own district, the Nation's Capital, and the surrounding 
region was the last to open. It was a real hotspot. And now it 
is inching toward reopening right now.
    For those of you on the front line who are now seeing the 
virus resurge in some parts of the country, would it be your 
advice to cease reopening so quickly? Or do you believe the 
kind of reopening at various levels and, I must say, in various 
jurisdictions, do you believe that reopening should continue, 
in light of what exposure you think your own workers may have 
as a result?
    I would like to hear from all of you on that, because all 
of you are exposed.
    Mr. DeFazio. If you could all briefly address that.
    Mr. Willis. Sure. This is Larry Willis.
    I would just say that, obviously, local jurisdictions 
[inaudible] work with public health officials to make those 
determinations.
    From a transportation worker perspective, we can talk about 
this more during the hearing, but as more and more density 
occurs on our transportation network as we start to reopen, 
whether it is on transit, passenger rail, obviously the 
airlines side, I think that social distancing, the PPE 
question, how you test in the right way really is crucial today 
but is going to take on even added importance. Because the 
nature of transportation, workers in many cases are going to be 
next to their fellow workers, next to passengers. As you have 
more people using the system, we need to constantly rethink 
what we are doing to protect both workers and passengers.
    Ms. Norton. Do any of the rest of you--Mr. Byrd, in light 
of your own workers, Ms. Carr, in light of your own workers, I 
would appreciate your advice.
    Mr. Byrd. OK. I could answer. Thank you, Congresswoman 
Norton. I am a DC resident myself, and thank you for your 
service.
    Yeah, we are very concerned about the rate at which the 
States are reopening. We think that the policies that are being 
implemented in the States, in terms of the pace at which States 
are reopening, is kind of outpacing the science.
    The experts are telling us that we are still in a pandemic, 
you know? And given the activities, the protests and the 
reopening, we have seen increases in certain States that have 
reopened. So there are indications that this may be a bit 
premature, and we need to do this very slowly, very carefully 
and incrementally.
    Ms. Norton. Thank you very much.
    Ms. Carr, Mr. Shaw, Mr. Guillot, do any of you have any 
views on that that could be helpful to the committee?
    Mr. DeFazio. Quickly.
    Ms. Carr. Congresswoman, thank you for your question.
    Yes, I do believe that, as we are opening up, we need 
strong, enforceable guidance as to how we open up--masks, et 
cetera. And then, certainly for travel, we need social 
distancing and respect of fellow passengers.
    Mr. Guillot. Congresswoman Norton, this is Randy Guillot.
    Our industry is very eager to get the economy back to a 
normal circumstance while recognizing the importance of health 
for our entire workforce and the public.
    So we are extremely concerned. We make sure that we are 
following CDC guidelines, as well as OSHA guidelines, and, in 
particular, looking forward to following the guidelines of 
local jurisdictions, since they are different from one to the 
next, as our drivers are traversing those each and every day.
    Thank you for your question.
    Ms. Norton. Thank you very much.
    I think my time has expired.
    Mr. DeFazio. It has expired. Thanks, Eleanor.
    We would now move on to Representative Crawford.
    Mr. Crawford. Hey, thank you, Mr. Chairman.
    A question for Mr. Guillot. I hope I said your name 
properly. I wanted to get some insight from you about the 
trucking industry. Unlike other industries that have been able 
to work remotely through the crisis, that is not the case for 
truckers.
    And you helped lead through our COVID-response efforts. 
Truckers continue to work around the clock, delivering goods to 
grocery stores, medicine to hospitals, PPE to first responders, 
and things of that nature. And just as they led the response, 
truckers will also lead the way on recovery. You are the 
driving engines of our economy.
    As we pivot from COVID response to recovery, what are the 
policies that you and the trucking industry believe should be 
considered by this committee and Congress?
    Mr. Guillot. Congressman Crawford, thank you for your 
question.
    You know, we are definitely concerned and want to make sure 
that we are following the guidelines by CDC and OSHA. We are 
also concerned with receiving limited liability protection from 
excessive litigation.
    We are not trying to protect bad actors in our industry. We 
certainly want to be good stewards of health for our entire 
workforce. But we are extremely concerned with frivolous 
lawsuits that may come out of this health event and make it 
into a legal event instead. So that is concerning to us.
    Thank you.
    Mr. Crawford. Thanks.
    Anything else that you think we should be looking at beyond 
that, from a policy perspective?
    Mr. Guillot. Well, I will say this, as in my original 
statement: Infrastructure is number one for our industry. We 
feel it is critical for this committee here to lead the way on 
a bipartisan bill that can pass this year and to fully fund a 
robust infrastructure package going forward.
    Mr. Crawford. Thank you. I appreciate your insights.
    Mr. Chairman, I yield back.
    Mr. DeFazio. Thanks, Rick.
    We would move on now to Representative Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    And let me thank all of our tremendous witnesses today.
    And as I am sitting here listening to their concerns during 
this very serious pandemic, it reminds me, frankly, that I have 
the largest Teamsters local in the Nation in my district, at 
Local 745, and that is the crux of our economy. And, of course, 
American Airlines is also based here, where we have lots of 
traffic. Transportation, frankly, is the crux of the economy in 
Dallas, Texas, and surrounding areas.
    And I know that there is so much vulnerability. I am trying 
to see what we can do now to support more safety for all of 
these frontline workers. Because I consider transportation to 
be frontline. I would like to see if there is anything that we 
might be able to do, knowing how long it takes us to get 
through the legislative cycle of things, but there might be 
some recommendations or support that we can offer for some of 
the measures that we have in place now.
    If they can comment a little bit on what that might be.
    Mr. DeFazio. Anyone? Please unmute.
    Mr. Guillot. Congresswoman, the trucking industry 
appreciates the relationship that we have with the Department 
of Transportation and FMCSA. They have been very responsive 
through this pandemic in assisting us through short-term 
initiatives, such as hours-in-service relief. So we would like 
to continue working with those agencies for the benefit of our 
workers and the benefit of our industry.
    Thank you.
    Ms. Johnson of Texas. Thank you.
    Mr. Willis?
    Mr. Willis. Well, look, I would just say that employers, as 
I said in my opening statement, they have been really hit and 
miss. They have gotten better over time, but there are still a 
lot of places in the broad transportation side. Mr. Shaw talked 
about things for transit. Definitely more of a problem on the 
private-sector providers than the public.
    Again, this is where I think you need mandates from the 
Federal Government, you need enforceable standards, because 
without that I think you are going to see more of a hit-and-
miss approach to this.
    And as I said earlier, as we start to reopen different 
parts of our country, we are going to see more people using 
public transit, we are going to see more people on airplanes. 
As the ability to social distance is going to get harder and 
harder, we need to think of new strategies to make sure that we 
are adequately protecting our workers.
    And, again, I think it really starts with strong Federal 
mandates from DOT, from the modal agencies, in conjunction with 
an OSHA Emergency Temporary Standard.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Byrd?
    Mr. Byrd. Yeah. Thank you, Congresswoman Johnson.
    We understand that the legislative process can be quite 
time-consuming. We certainly advocate for a strong Federal 
regulation or a standard, but, in the interim, if the Congress 
could give the Occupational Safety and Health Administration 
the authority to enforce the CDC guidelines and the other best 
practices immediately, we think that would go a long way in 
actually compelling employers to implement the social 
distancing and the use of personal protective equipment and 
other measures that have been recommended through CDC.
    Ms. Johnson of Texas. Well, thank you very much.
    I have very little more time, but Ms. Carr?
    Mr. DeFazio. Quickly.
    Ms. Carr. Thank you, Congresswoman.
    I do believe that we need a Federal mandate for safety 
standards. Our passengers need to feel confident returning to 
air travel, which will in turn help our economy.
    Mr. DeFazio. Great.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    Mr. DeFazio. Thank you all for observing the time.
    We would now go to Representative Gibbs.
    Bob?
    Mr. Gibbs. Thank you, Mr. Chairman.
    Thank you to all the witnesses for being here today.
    On the previous question from the Member from Washington, 
DC, about the rate of opening up, I think it is important to 
remember, there is more testing going on. And the severity of 
the cases--we get more people that maybe test positive, but we 
are seeing out here in Ohio, in the middle of the country, the 
hospitalization rates and the death rate is trending down, 
which is a good thing, obviously. And I think that is what is 
really important.
    But I think we are going to see more people----
    [Audio malfunction.]
    Mr. Gibbs [continuing]. Good to hear the flexibility that 
we passed almost unanimously out of the House and Senate last 
week, and the President signed it, was actually needed to be 
done.
    Mr. Byrd, the recent finalized revisions of the Federal 
Motor Carrier Safety Administration's hours-of-service rules 
change the overall driving time for commercial motor vehicle 
operators. How has that impacted your members, with the 
changes?
    Mr. Byrd. Thank you for the question, Congressman Gibbs. We 
are going to have a significant number of our members affected. 
I think you are referring to the changes to the short-haul 
provision and rest-break provisions. We have a fair number of 
members who are going to be affected by this.
    We were not supportive of those changes, because we are 
very concerned that, by extending the workday for these 
workers, as they are performing very physically demanding work, 
that we think there are going to be a significant increase in 
the number of occupational injuries. So we are very concerned 
about that.
    But it hasn't gone into effect yet. It is something that we 
will be closely monitoring.
    Mr. Gibbs. OK. Well, thank you.
    Mr. Chairman, I yield back, and just close with saying that 
I think we need to build up the economy as fast as we can but 
do it with common sense. And we are seeing some good things 
happen right here in the middle of the country. So I yield 
back. Thank you, Mr. Chairman.
    Mr. DeFazio. Thanks, Bob.
    We now turn to Representative Larsen.
    Mr. Larsen. Thank you, Mr. Chair. Coming to you live from 
Washington, DC.
    My first question is for Ms. Carr. If you could unmute.
    Ms. Carr, new technology is being developed and deployed to 
improve cleaning and sanitation across transportation modes, 
but I wanted to focus specifically on the cabin, the airplane 
cabin. How do you think the use of some of these new 
technologies are impacting the workforce health and safety?
    Ms. Carr. Thank you for your question, Congressman. I am 
actually not well versed on that, but I will have a member of 
my union get back to you.
    Mr. Larsen. All right. That is excellent. Thank you very 
much.
    Then I will ask the same question of Mr. Byrd about any new 
technologies being used to ensure a clean workplace, a clean 
workforce, as well as for your drivers in the Teamsters Union, 
anything new being done in terms of health and safety.
    Mr. Byrd. There are no new technologies, that I am aware 
of, and I do directly deal with the occupational health and 
safety related issues with our labor union. I am completely 
unaware of any new technologies being employed. When it comes 
to cleaning and disinfection, we are relying on using products 
from the EPA's approval list of cleaning and disinfecting 
supplies. That is about the extent of it, that I am aware of.
    Mr. Larsen. Thanks.
    I am going to go back to Ms. Carr. Since 2015, I and some 
others have called for a national aviation preparedness plan to 
ensure that all levels of Government, airlines, airports, and 
other aviation stakeholders are better prepared for future 
public health crises. And from your experience with the COVID-
19 pandemic, what priorities would you include in such a plan 
for a national aviation preparedness plan to prepare for public 
health crises like COVID-19?
    Ms. Carr. So, Chairman, I have to say when the spread 
began, I was surprised that there was not a more wide-sweeping 
plan in place from our Government. And I think moving forward 
that is something that we need to have. Obviously, that would 
change slightly based on what the crisis is, but as an example, 
the fact that early on we were not wearing masks, we weren't 
wearing gloves, passengers were exposed, we were exposed. These 
are all issues, as well as testing from the get-go, having 
different stop points to ensure that a passenger who may be 
infected is not getting all the way to the plane, they are 
stopped before that. They are all steps that we need in place. 
Cleaning provision, all of that should be outlined so that when 
a crisis like this occurs, we can immediately move into a plan 
of action.
    Mr. Larsen. Perhaps one of the lessons that we can learn 
from this. Thank you.
    Mr. Shaw, in my district, the Island Transit, Community 
Transit, and the Whatcom Transportation Authority and other 
local transit agencies have implemented rear-door boarding, 
installed protective shields, and you have discussed some of 
those, suspended fare collection.
    From your experience at SEPTA, are these measures 
effective? And do you think any of these practices or any 
others should be implemented permanently?
    Mr. Shaw. We did have rear-door operations and they were 
effective, and we were able to block off or lift up the front 
seats to keep the social distancing. But as I testified, the 
budgetary issues where they went back to the front door. The 
biggest thing would be sanitizing, cleaning, more guidelines, 
stricter guidelines to keep the buses clean and guidelines to 
be able to enforce wearing masks. People just don't wear them, 
and there is no way as drivers that we can enforce them without 
causing confrontation and putting ourselves at greater risk.
    Mr. Larsen. Thank you.
    And then, finally, Mr. Guillot, did any of your members, 
when the pandemic first hit and you had States closing 
activities, have problems with truck stops, the ability to stop 
at truck stops? You mentioned rest areas. What was your 
experience with private truck stops?
    Mr. Guillot. Truck stops as well. In many cases, especially 
the restaurant and the ability to use restrooms within the 
truck stops, initially. We worked together as an industry, and 
I think that that problem became less significant as the days 
and weeks went along since the beginning of the COVID-19 
pandemic. So, initially, yes; I think it is much better now.
    Mr. Larsen. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Great.
    Representative Webster. Unmute. Rep. Webster, did you 
leave?
    OK. Representative Massie.
    Mr. Massie. Thank you, Mr. Chairman. Can you hear me?
    Mr. DeFazio. Yes.
    Mr. Massie. Ms. Carr, you mentioned some national standards 
for aviation for the passengers and also for the flight 
attendants. What standards would you like to see if we did come 
up with some Federal guidelines or standards for air flights?
    Ms. Carr. I think one of the most important ones right now 
is going to be wearing masks in the common areas of the airport 
and then wearing masks onboard the aircraft, both for 
crewmembers who are working and for passengers who are 
traveling with us, as well as social distancing. The CDC has 
come out and said that wearing a mask is one of the best ways 
to prevent contracting and spreading this virus. So having 
those steps in place I think is vital.
    Mr. Massie. And when you are provided a mask by your 
employer, do you get an N95 mask or a lesser mask, or what 
types of masks are flight attendants provided?
    Ms. Carr. So there is going to be a variety. Naturally, the 
N95 has been said to be the best mask available; however, not 
only are the airlines trying to get this but so are our 
frontline health officials and everyone else in the country, so 
I have seen a variety of masks made available.
    Mr. Massie. Would you prefer to have the N95 available for 
flight attendants?
    Ms. Carr. I would absolutely like to see the best masks 
available to our frontline workers, including flight 
attendants.
    Mr. Massie. OK. Same question there for you, Mr. Shaw. What 
kind of standards would you like to see in transit?
    Mr. Shaw. The standards that I would like to see is the 
sanitizing of the buses. I don't believe that my employer is 
taking it seriously. I will do multiple trips multiple times a 
day, and my bus will not be cleaned. Standards from the Federal 
Government for sanitizing the buses. Probably that would 
definitely help. And, again, masks--making the passengers wear 
the masks. They are not wearing the masks. They are coming on, 
and all I can do is ask them to do it and they just look at me 
and pass by. So some type of standard and ways to enforce that 
would definitely make this job a lot safer.
    Mr. Massie. If they don't have a mask, are you able to 
provide them with one?
    Mr. Shaw. No, I don't have anything to give them. And I am 
just told to ask them to wear it and allow them to ride.
    Mr. Massie. OK. And what kind of mask are you provided with 
by your employer?
    Mr. Shaw. We have been provided with disposable masks, neck 
gaiters, a cloth mask, and masks that other operators make from 
home. We have not been given any N95 masks at all.
    Mr. Massie. OK. It is my opinion, and I guess this is also 
supported by scientific studies, that if you want to try and 
protect the wearer of contracting the virus, that you would 
need something like an N95. And if that is the circumstance, 
then I would think that the flight attendants and the operators 
of transit should at least be provided that level of a mask. 
Whether that is a Federal policy or not, I don't know whether 
we should come in with a one size fits all, but we should 
definitely apply some science to the standards, whether they 
are State or employer or Federal.
    Switching gears, Mr. Guillot, can you tell me if there are 
still any issues with truckers being able to get access to 
appropriate restrooms and restaurants? Are there any States in 
particular where you are having difficulty still?
    Mr. Guillot. I am not aware of any at the present time 
right now. There may still be some limited access, if you will, 
but nothing in the critical stage like it was at the initial 
onset of the pandemic.
    Mr. Massie. So there has been some talk that there might be 
another flare-up of the virus as we open back up or as we get 
into the cooler months. Do you have any recommendations for 
States, since this is sort of a State-by-State basis and ad 
hoc? Do you have any recommendations for the Governors, if they 
do implement more stringent restrictions, what to avoid in 
order to keep from making truckers' lives more difficult than 
they already are?
    Mr. Guillot. As we have worked with the jurisdictions at 
the very onset, I would recommend to keep our workers in mind, 
because we are critical for keeping the economy going, we are 
critical for delivering the essential goods, not only to our 
healthcare workers, but to the rest of the entire economy, to 
the American people, the grocery stores. You know, the biggest 
conversation at the beginning was there is no toilet paper left 
on the grocery store shelves. So, you know, as we say, we're 
moving America, just to be able to keep those basic necessities 
for a truck driver available, please keep that in mind.
    Mr. Massie. OK. Thank you very much. And stay safe, you 
all.
    I yield back, Mr. Chairman.
    Mr. DeFazio. Thanks, Thomas.
    Representative Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. Thank you to all 
for being such incredible workers during this very harsh time.
    How is the transportation industry keeping workstations 
clean during shift changes? And have you tried--or are they 
considering the fumigation, such as the airlines--some of the 
airlines have instituted, to all of you?
    Hello?
    Mr. Byrd. Thank you for the question, Congresswoman. This 
is Lamont Byrd. We have not see any fumigation approaches to 
providing cleaning and disinfection. In fact, I have read some 
studies and not too long ago that actually questioned the 
efficacy of taking that approach to cleaning and disinfection. 
But we have not seen that being employed to this point in the 
facilities where we have members.
    Mrs. Napolitano. Well, that is interesting. Then how would 
the airlines be using it and not know that?
    Ms. Carr, Secretary Mnuchin and the Treasury have not been 
willing to enforce the CARES Act. Would you care to talk on 
that?
    Ms. Carr. Without the CARES Act, Congresswoman, right now I 
would not have a job and I would very well not have my medical 
insurance. This act was historical. Payroll protection for 
workers is absolutely vital during this time.
    Mrs. Napolitano. Yes, but they are unwilling to enforce it.
    Ms. Carr. We absolutely need to see enforcement across the 
board. And I can have my union get back to you on how they 
would like to see that accomplished.
    Mrs. Napolitano. Thank you very much.
    The partition. One of you mentioned the partitions are not 
enough. But L.A. had started a long time ago to put partitions 
in. Do you think that would be helpful? Maybe even asking the 
bus manufacturers to create something. Would you comment on 
that?
    Mr. Shaw. Thank you, Congresswoman. We do have partitions, 
but they are short. They don't extend out past the farebox. 
They are there to stop somebody from spitting or spilling a 
liquid on you. Newer petitions need to be longer and enclose us 
more to protect us from people being able to come around it.
    Mrs. Napolitano. Would you be able to provide some 
information or recommendations on that?
    Mr. Shaw. Yes, I can definitely have my union reach out.
    Mrs. Napolitano. On the buses that the routes get crowded, 
has the bus company considered putting extra buses on the same 
routes to deal with the extra influx of passengers?
    Mr. Shaw. My company has done that, but it still hasn't 
been enough because of the limitations on the people. We have 
experienced, as operators, where the people at its intersection 
would stand in front of the bus and not allow it to move and 
destroy the bus. There has been no protection for the drivers 
to prevent these things from happening and not enough service 
to provide it.
    That is, again, one of the biggest things that we talked 
about, was there is not enough service for the people, and it 
is causing unsafe conditions for the operators.
    Mrs. Napolitano. There is no standard, in other words. And 
even though they recommend, nobody wants to do it, because it 
costs money. Is that right?
    Mr. Shaw. That is correct.
    Mrs. Napolitano. I think these guidelines should be 
extended, because if we are entering a period where another 
pandemic, stronger one, may happen, we will not be protected. 
What would you recommend that we do in order to be ready, or at 
least prepare?
    Mr. DeFazio. Brief answers.
    Mrs. Napolitano. I have got 1 minute.
    Mr. Willis. You know, one thing on the transit side that 
hasn't been discussed here is--now, someone asked about the air 
on aircraft cabins. Buses can think about this too. I know 
there has been some discussion with employers to have better 
filtration systems on the buses that are connected to the air-
conditioning system. And, again, as I think we near the summer 
months, being aggressive about that can be a good, you know, 
added way to clean air, in addition to the disinfecting and 
cleaning that we have already talked about.
    Mrs. Napolitano. Also, the air circulation in the airplanes 
is important, isn't it?
    Mr. Willis. Yeah. And I believe you or someone else raised 
that--I think it was Mr. Larsen raised that issue previously. 
You know, air cabin quality was an issue even before COVID, and 
really major significant problems and things that the FAA and 
Congress need to do better to make sure that we do have clean 
air onboard the aircraft cabin. COVID-19 just reinforced, you 
know, how contained that environment is and, I think, really 
makes it that much more important to deal with those issues on 
the aircraft cabin.
    Mrs. Napolitano. Thank you.
    Mr. Chairman, I yield back.
    Mr. DeFazio. Thanks, Grace.
    I have asked the FAA to solicit a study of circulation in 
the interior of an aircraft. We do not know how these 
microdroplets, particularly someone not wearing a mask who 
coughs or sneezes, or even someone just talking, how they 
behave in the aircraft. My understanding is Airbus and Boeing 
are both doing proprietary studies, which we won't see. Airbus 
is experimenting with reversing the airflow. I am very 
concerned. The FAA at this point is totally unwilling and would 
like to remain ignorant of that issue.
    With that, I will turn to Representative Perry.
    Mr. Perry. Hey, thanks, Mr. Chairman.
    I am coming to you from the committee hearing room in 
Washington, DC. My first question will be for Mr. Guillot and 
then Mr. Willis.
    So, Mr. Guillot, in your testimony, you pointed out that 
Governor Wolf's efforts to combat the pandemic in Pennsylvania 
include the closure of our service plazas and rest areas for 10 
days. And as you pointed out, the policy has threatened not 
only the safety and well-being of the drivers who are 
delivering critical medical supplies, food, and protective 
equipment, but moreover, the policy threatened to disrupt the 
flow of goods through Pennsylvania into the deteriorating 
public health situation in New York City, which at the time was 
the epicenter of U.S. COVID-19. Luckily, in this instance, the 
Governor reversed course and repealed the flawed and reckless 
policy. Nonetheless, the expanse demonstrates the danger posed 
by the unintended consequences of mass lockdown policies.
    Do you know, did the 10-day shutdown of the rest facilities 
in Pennsylvania disrupt shipment of vital goods? And what other 
operational challenges, if any, due to the response to the 
virus, those policies, did any of your drivers or companies 
face?
    Mr. Guillot. Yes. The answer to your question, I do not 
know of a specific shipment that may have been altered. I do 
know it disrupted the general flow of commerce through the 
State of Pennsylvania. We had drivers who were extremely 
concerned about traversing through there knowing that there 
were no facilities to stop and use the restroom, facilities to 
eat, facilities to rest. So it was extremely concerning. We 
were glad that our national association, American Trucking 
Associations, along with its Pennsylvania affiliate, worked 
with the State of Pennsylvania to get those facilities back 
open again.
    Mr. Perry. I sure appreciate it. Thank you.
    Mr. Willis, in your testimony, you claim that there is a 
drastic drop in farebox revenue that threatens the ability of 
the transit agencies to continue to provide service at all. And 
that is--I am just quoting from your testimony. And then you go 
on to say: We know that billions more will be needed in the 
coming months to keep these agencies afloat as they continue to 
operate without recovering farebox revenue.
    Now, to me, this testimony is misleading, at best. If the 
service of any transit agency were contingent on the farebox 
revenue, that agency would no longer exist. As you know, on 
average, Federal, State, and local subsidies pay for three-
quarters of their operating expenses. So just to reiterate, 75 
percent come from Federal, State, and local subsidy. Moreover, 
the $25 billion in CARES Act emergency funding for the public 
transit system exceeds the annual farebox revenue of all 
transit agencies by nearly $10 billion. So that is a lot of 
money in excess of what the usual intake at the farebox is. The 
claim that this will not cover the lost farebox revenue and 
more is just, to me, quite honestly, it is just a flat out lie.
    To be clear, the demands for tens of billions in additional 
emergency relief is a transparent attempt to get the Federal 
Government to bail out the transit sector from a crisis 
oftentimes of its own making. For example, coronavirus did not 
cause the $106 billion state-of-good-repair backlog and the 
declines in service that resulted in an 8-percent drop in 
ridership from 2014 to 2019; rather, they are the result of 
decades of financial irresponsibility and mismanagement.
    More concerning to me is it is unlikely that ridership will 
recover to this level due to a combination of public transit's 
central role in the spread of COVID-19 through New York City, 
as demonstrated in an April 2020 MIT study; also included the 
expanded telework options for large sectors of the economy, the 
migration of both people and business centers away from densely 
populated areas, and CDC guidance to avoid public 
transportation, if possible.
    What steps do you anticipate the industry will take to 
overcome these existential threats? And how can the American 
people be convinced that public transit is safe?
    Mr. Willis. Well, I would say, that is a lot to respond to.
    First of all, just on the Federal supportive subsidies 
point, every single mode of transportation that we are talking 
about here receives Federal support of some way, shape, or 
form. I mean, we absolutely support that across the board. We 
understand that segments of our transportation sector will have 
need, whether it is at the State level, local level, and 
obviously at the Federal level. Transit, being a public 
service, it is going to obviously require more than airlines or 
other entities.
    I do think public transit is going to play a central role 
here. These are transit workers. These are agencies that have 
gotten essential workers to their jobs, that have gone to work 
every day in very unsafe conditions. As you heard earlier from 
my brother at the TWU union, very high fatalities in this 
sector of our economy.
    So, yes, we need to make transit safer than it is today. 
The measures that we are talking about--making sure that we 
have mandatory rules in place on PPE use, on cleaning and 
disinfecting, on social distancing--those are the things that 
we should be focused on here.
    And, yes, because of lost revenue at the farebox, because 
of less local action, because of lower gas taxes, again, at the 
local level, that is where you are seeing the suffering of 
revenue that is going to need Federal support here, just like 
other sectors of our transportation system, including aviation, 
that is desperately needed.
    So we are all in this together, quite frankly. Transit is 
going to be a key part of this recovery and a need to support 
that we have been calling for.
    Mr. Perry. All right. Thank you for your answers.
    I yield back.
    Mr. DeFazio. With that, we turn to Representative Lipinski.
    Dan, unmute. You there? Dan?
    Mr. Lipinski. Yes, I am here. Thank you.
    I wanted to go back to Larry, Mr. Willis, on--and maybe we 
also could have some comments from Mr. Shaw--on some of the 
things that had just been said about the amount of money that 
was received by transit agencies in the CARES Act actually 
exceeds the annual farebox receipt and that there isn't more 
help that is actually going to be needed for transit to 
continue on.
    I know that in the Chicago area, working with the CTA and 
Metra, I know how much they have not taken in, compared to what 
they usually do, and that the funding that they received in the 
CARES Act is not enough to make up for that loss.
    So I just wanted to give an opportunity to Mr. Willis and 
Mr. Shaw, if they want, to respond to that.
    Mr. Willis. I will start.
    You know, you are right. I mean, obviously, you have 
transit agencies that are all across the country--MTA in New 
York; Metra, CTA in your backyard--that are just seeing rapid 
fall-off. I forget the percentage, but I think on commuter 
rail, it is still 90-plus percent; buses obviously have more 
traffic.
    But, again, when you think about public transit, it is not 
just fareboxes you have to think about; it is the local tax 
collection that they have.
    And, by the way, this is a highway problem as well. We know 
that highway construction projects are being threatened with 
being closed down, being suspended, having capacity of State 
departments of transportation curtailed with layoffs there 
because local gas taxes aren't keeping up with those projects.
    So it is not just a transit problem; it is a highway 
program problem as well. And as we think about investing in 
infrastructure as an economic stimulus down the road, if we 
don't maintain our capacity on the construction side, the State 
DOT side, using infrastructure investment to grow and restart 
our economy, it will be that much more difficult. And I would 
put transit in that exact same bucket.
    So, we have to support these critical modes of 
transportation to be able to get to work.
    Mr. Lipinski. I appreciate that.
    Mr. Shaw, do you want to add anything to that before I come 
back to Mr. Willis for an Amtrak question?
    Mr. Shaw. I would just say that the money that was given to 
SEPTA, I don't know how they use it or if they are using it. I 
would say that more money would be to work on the filtration 
design that would protect the passengers, as well as the 
operators, and more engineer designs on partitions. Again, I 
don't know what SEPTA is using their money for.
    Mr. Lipinski. OK.
    Going back to Mr. Willis, you mentioned in your testimony 
Amtrak's recent announcement about their buyout for 20 percent 
of their workforce, which also concerns me after they received 
$1 billion in Federal funding.
    What labor protection with respect to Amtrak should 
Congress consider in a future COVID-19 package to ensure Amtrak 
is appropriately treating its workers?
    Mr. Willis. Well, I think there are a couple of things.
    One is, I do think Congress has to make sure that the 
Amtrak that we have today is the Amtrak, quite frankly, that we 
get back after passengers come back and have been back for a 
little bit.
    You know, it is a national network; it is designed like 
that. It is supported as a national network by Congress. And, 
you know, allowing this to be an excuse, quite frankly, to roll 
back on long-distance routes, roll back on certain corridors, 
curtail onboard service, we think would be a mistake. We think 
that making sure that Amtrak is committed to its system and its 
network is critical.
    And, yes, I think that, just like we did in the CARES Act 
legislation on the aviation side, making sure that this money 
is used and goes to payroll and, you know, make sure that their 
workers are able to stay on the job--as I said in my opening, I 
think the layoff plan that is being proposed is misguided. And 
I think pairing funding with an obligation to make sure that 
money flows to workers and that furloughs are not done is 
important.
    Mr. Lipinski. Thank you.
    My time is up, and I yield back.
    Mr. DeFazio. Thanks, Dan.
    With that, I would move on to Representative Davis.
    Mr. Davis. Hey, Mr. Chair. Thank you very much.
    I appreciate the responses, but Mr. Larsen kind of asked 
one of my questions already to Ms. Carr, about the 
psychological impact--or, actually, no. That was the one about, 
you know, how do we make sure that Congress responds to your 
industries now, in case there is another pandemic. Ms. Carr 
answered that in respect to the airlines.
    Do any of the other witnesses want to talk about what can 
we do more that hasn't already been addressed in the questions 
you have had, and anything you might want to add?
    Anyone?
    Larry?
    Mr. Willis. Well, thanks, Mr. Davis. And thank you for the 
question.
    Look, just like in aviation, we have got to have better 
plans in place to deal with these type of diseases. It has 
really devastated our transportation network. As I said, it 
took way too long for both employers and, I think, the 
Government, to really get in place and start to require those 
protections for both passengers and employees.
    And I think local plans, specific to these transportation 
providers, are absolutely essential to making sure that we are 
better prepared the next time around here, similar to what Mr. 
Larsen talked about on the aviation side.
    So it is a good question, and I think it is an important 
point. Thank you.
    Mr. Davis. Well, thanks.
    Obviously, the psychological issues that Mr. Perry brought 
up about, how do we return, how do we get people comfortable to 
actually get onto our modes of transit and transportation 
systems, I am concerned as to how we move forward. And I know 
that has been a lot of the discussion already.
    It is very interesting because we have had the same 
discussion with our medical facilities here in Illinois, where 
we have had people now scared to go get treated for diseases 
that we know how to actually treat because they have been told 
they can't go into a clinic, where, before, they weren't even 
able to get access to that clinic.
    Are any of your systems--and I know Mr. Perry brought this 
up to one individual, to one witness--but is there anything you 
are doing to help work with the companies to make sure there is 
a marketing plan place to remind people that it is safe to use 
modes of transportation again?
    And I will open it up to you, Larry, and anyone else who 
wants to answer the question.
    Mr. Willis. Yeah. I mean, I know that the transit industry 
is definitely focused on that. As part of their reopening 
committee that includes membership, TWU, there is a lot of 
discussion about how to effectively communicate that these 
sectors are safe and to accept passengers the right way.
    I think part of it is for the agencies to be--well, two 
things: to be transparent about it, to be able to demonstrate 
to passengers that they are taking real steps to protect them. 
Again, especially important as you get more and more density on 
the system.
    And, quite frankly, I think you need to do what some 
agencies are doing, though not all, which is enlist their 
frontline workforce to show sort of a common front on these 
issues, both through the unions and the individual workers.
    So I think that is going to be absolutely critical. I think 
the agencies that are having these early conversations are 
enlisting their workers, are getting their advice, and then 
being able to actually implement it and show passengers that we 
are all on the same page here and that these buses and subways 
and commuter rail systems are safe to return.
    Because, look, many people have to use transit, but there 
are a lot that don't have to. They can use their cars. They may 
not want to go to the office altogether. But we need to show 
them that public transit is still a viable and central way to 
get to work.
    Mr. Davis. Well, absolutely. I was on the phone with one of 
my local transit districts yesterday, and it is all about 
ridership, or, in this case, the lack thereof, and the safe 
comfort factor.
    Real quick, I have a few seconds left, if one more person 
wants to respond to the psychological issues of getting people 
back, please unmute yourself and go ahead and speak. 
    Mr. Byrd. Thank you. This is Lamont Byrd. Thank you for the 
question, Congressman Davis.
    One of the things we have done on the trucking side, 
especially the residential delivery of packages, is that we 
have actually worked with our companies to provide information 
to clients to let them know that we have drop-and-go instead of 
requiring a signature, we have disinfection protocols that we 
are following, and we have our members wear masks and other 
protective equipment, gloves, as they are making their 
deliveries to minimize contact with the residents as we are 
delivering packages.
    Mr. Davis. Great.
    Mr. Byrd. We have done that in conjunction with our 
employers.
    Mr. Davis. That is great. I am out of time, but can you 
make sure that there are some standards in place to make sure 
my wife doesn't order as many drop-and-go packages?
    I yield back, Mr. Chair.
    Mr. DeFazio. Thanks, Rodney. Amusing as always. I hope your 
wife tuned in to that.
    Mr. Davis. She is not here, or I wouldn't have said it.
    Mr. DeFazio. Oh, all right.
    We will now move to Representative Garamendi.
    John?
    Mr. Garamendi. Thank you, Peter. Thank you for the hearing. 
And as virtual as it is, it is going very well, so--once we all 
learn how to do it.
    I have basically three questions. The first is--I don't 
need to have you all plow this field again, but the first 
question is, should employers be required by law to provide the 
necessary personal protection equipment during a national 
health emergency?
    And let's just start, run down through the list in the 
order you guys presented. It can be a yes or a no.
    Mr. Willis. Yes, absolutely.
    Mr. Garamendi. Mr. Byrd?
    Mr. Byrd. Yes, yes. I responded yes. Absolutely we need to 
do that.
    Mr. Garamendi. Ms. Carr?
    Ms. Carr. Yes, absolutely.
    Mr. Garamendi. Mr. Guillot?
    Mr. Guillot. I would say yes, provided that--whatever is 
required by the CDC or OSHA and those requirements.
    Mr. Garamendi. Very good.
    The second has to do with the passengers themselves. All of 
you have, one way or another, talked about this. During a 
national public health emergency, should there be a Federal 
requirement that passengers on public transportation be 
required to obey certain standards, wearing masks or distancing 
and the rest?
    Let's run through the list again.
    Mr. Willis. Yeah. I would say yes, and I would extend that 
to the airline side, both the airport and, obviously, in the 
aircraft itself.
    Mr. Garamendi. Mr. Byrd?
    Mr. Byrd. Yes, we would agree with that, that it should be 
necessary.
    Mr. Garamendi. Ms. Carr?
    Ms. Carr. Yes, sir, we agree with that as well.
    Mr. Garamendi. OK.
    The next is, well, rather a comment about how we might make 
airline travel more safe. But before I go there, it is clear, 
at least in my mind, that when we write the next piece of 
legislation, if that is the Heroes legislation, that these 
mandates must be in it. People are simply not going to be 
returning--and Mr. Davis just discussed the psychological 
issues--until they have a high level of confidence that they 
will be safe on public transit.
    The next one deals with those of us that fly. And I suspect 
that is every member of this committee, staff, and certainly 
Ms. Carr and others that are providing the services on the 
aircraft.
    Mr. Blumenthal, Senator Blumenthal, introduced nearly a 
year ago what we called the Cabin Air Safety Act. We were 
thinking principally about various contaminants, fuel and so 
forth, that are brought into the cabin air. We are now 
seriously thinking about viruses.
    I understand the 787, the most modern of the Boeing jets, 
has an air filtration system sufficient to remove viruses. 
Should we require that all airlines immediately proceed with 
the best in the market, or in the technology, for cabin air 
safety? Should that be a requirement?
    And, again, this goes back to Mr. Davis' question about the 
psychological question for the airlines.
    Ms. Carr, let's start with you.
    Ms. Carr. Yes, sir, I do believe that we need to improve 
the air quality onboard aircraft, whether that is through HEPA 
filters or a more advanced air filtration technology. And it is 
something that, once it is corrected, needs to be monitored 
frequently and improvements need to be made.
    Mr. Garamendi. Let's run down through the list.
    Mr. Willis?
    Mr. Willis. Yeah, as we discussed earlier, I think that is 
absolutely correct. I think, for many years now, TTD, AFA, 
other unions that represent both pilots and flight attendants 
have well-understood that we need to do better on our aircraft 
cabin quality, and I think this crisis just reinforces that. 
And I know Chairman DeFazio has been doing a lot of work and 
leadership on this issue as well.
    So there are definitely steps that I think both Congress 
and the FAA need to pursue here to make sure that the air we 
are breathing on these aircraft cabins is as clean as possible.
    Mr. Garamendi. If the other two witnesses would like to 
comment on it, they are welcome to do so.
    Mr. Byrd. Yes, just to say that we would agree with the 
statements of the previous two witnesses. Thank you.
    Mr. Garamendi. All right. Good.
    Mr. Guillot. This is Randy Guillot with the American 
Trucking Associations. I will defer to the airline industry for 
answers as opposed to the trucking industry giving answers for 
them. Thank you.
    Mr. Garamendi. OK. And when you personally fly back to 
Louisiana, you may want to consider this bill, as do all of us, 
I am sure.
    Mr. Guillot. Yes, sir. I will actually be in a plane 
tomorrow going from New Orleans to Tennessee. Thank you.
    Mr. Garamendi. Exactly.
    One final comment. This bill has been inactive for some 
time. Peter, I know that you spoke to this a moment ago. 
Appreciate your support on the Cabin Air Safety Act. Let's see 
if we can get it in a piece of legislation.
    Mr. DeFazio. Yep. Thanks, John.
    Mr. Garamendi. I yield back.
    Mr. DeFazio. Yeah. This is of particular--COVID loves low 
humidity, and all of the earlier generations of planes have 
very, very low humidity. Because 87s are carbon fiber, they 
have a slightly higher humidity, therefore slightly less 
compatible for COVID.
    But I am, as I said earlier, very concerned that we have 
conducted no studies. Generally, modern jets have HEPA filters, 
if they are properly maintained. But the question is, how does 
the air flow? How do the droplets begin? We don't know. And FAA 
doesn't want to know. And the airlines don't want to know 
either, because I have asked them to back the studies. No one 
wants to know, except everybody who flies.
    Mr. Garamendi. Peter, that brings us to what we do, and 
that is, we pass laws, and we say, let's get on with it.
    Mr. DeFazio. Got it. Thank you.
    With that, we go to Representative Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    And thank you to all the witnesses for joining us today and 
for your work to keep America running during this unbelievable 
crisis.
    I wanted to touch for a moment on a couple of different 
issues, but before I do so, I want to note that the 
transportation industry is in a unique position as a result of 
COVID-19. Simultaneously facing immediate public health threat 
posed by the virus, as well as the pandemic's dire economic 
impacts, transportation workers continue to put their personal 
safety on the line every day to maintain services on America's 
roads, rails, airways, and seaways, all while the industry as a 
whole faces devastating declines on demand and usership.
    Lawmakers have a responsibility to maintain positive and be 
responsive to both of these concerns as we discuss a pathway to 
recovery. Although I am very pleased that the CARES Act 
provided over $40 million to maintain airport and transit 
services in my district in central New York, much more must be 
done to ensure safety and job security for transportation 
workers as our communities begin the process of safely 
reopening.
    Today's discussion has been critical to these efforts, and 
I look forward to working with my colleagues on both sides of 
the aisle to address these challenges facing America's 
transportation industry in the months ahead.
    My first question is for Mr. Shaw. Mr. Shaw, my district, I 
have heard firsthand from transit workers, many of them, about 
the importance of rear-boarding procedures and other social 
distancing policies to keep drivers and passengers safe amid 
the pandemic. In addition to practical safety measures you 
outlined in your testimony, what do you think can be done to 
promote public awareness of safety and health considerations on 
transit systems?
    Mr. Shaw. Thank you for the question, Congressman. I 
believe for us to show the public that what safety measures are 
actually being done, if they are actually cleaning the buses at 
transit lubes, I believe that in itself. Better filtration 
systems. If the public sees this, not just hears about it, that 
it will bring the public back to the buses, to transit all 
together.
    Mr. Katko. Is there anything else?
    Mr. Shaw. No, Congressman.
    Mr. Katko. OK, thanks. I have got a question for the panel 
as a whole. Another aspect of the transportation industry that 
I would like to bring to everyone's attention is America's 
motorcoach carriers. Despite playing a critical role in our 
Nation's transportation system and facing massive service 
disruptions and layoffs, Congress has yet to provide 
substantive assistance to motorcoach carriers in response to 
COVID-19. And given the role that these carriers play in 
facilitating passenger travel, often in conjunction with air 
and rail services, can anyone speak to the importance of 
supporting motorcoach carriers and ensuring continuity of 
services for passengers throughout the system?
    Mr. Willis. Let me start with that. And it is a great 
issue, and thank you for your leadership on the issue, 
Congressman. I know it is appreciated. We represent unions that 
have Greyhound drivers, that have core bus operators, TWU 
there, be front and center there. We have members that drive 
commuter buses as well. These have virtually shut down and the 
economic impact there has been tremendous.
    So, again, just like the support that we are talking about 
for other segments of our transportation system, I do think 
Congress needs to think carefully and needs to provide specific 
financial support here. So an important segment of our 
transportation system, quite frankly, doesn't get weighed 
enough. So thank you again for your leadership here.
    Mr. Katko. Anyone else want to weigh in on that before the 
next question?
    Ms. Carr, I wanted to talk about your testimony for a 
moment. In your testimony, you discuss significant challenges 
of maintaining social distancing and other public health 
measures in the context of air travel. And maintaining safe air 
travel under the pandemic is a major concern for the committee, 
but one that I have also heard about in my work in the Homeland 
Security Committee, and giving individuals the psychological 
comfort that they are going to be safe when flying is really 
important. And it is a very difficult task, admittedly.
    Has the FAA and TSA coordinated with airports and airlines 
to address these safety challenges in the coming months? What 
efforts do you think should be prioritized the highest to 
ensure the safety of passengers and workers?
    Ms. Carr. So the FAA can and should enact safety standards 
that are sweeping for all of the airlines. Having a unified 
plan that everyone is on board with is going to ensure our 
passengers know exactly what is going to happen when they come 
to the airport, regardless of which carrier they are flying. It 
means that they know whether they are going to receive a health 
check. It means they know that they need to wear masks as soon 
as they enter the airport area. They understand all these 
protocols, and then everything that is going to happen to them 
once they arrive onboard the aircraft, it allows us to do our 
jobs and focus on the bigger picture of safety, of the small 
individual incidents that can potentially disrupt travel.
    And then again for us, the ability to gain tests if needed 
for COVID-19. The ability to continue to wear masks, to have 
all the safety standards and PPE that we need onboard the 
aircraft. This should be universal. Safety is not a 
competition.
    Mr. Katko. OK. So you mentioned the masks and a couple of 
other things. I think you mentioned in your testimony 
previously increasing the filtration systems on the airlines. 
Is there anything else that you would suggest that they 
prioritize?
    Ms. Carr. I certainly know that my union could answer some 
additional questions on their bigger picture for that. And I 
hope that they would work with labor to ensure that those are 
met.
    Mr. Katko. Yeah. Make sure you get those to us and we will 
be happy to pursue those for you. But I think your overall 
point of having uniformity and enforcing that uniformity is 
really important. So thank you very much.
    And I yield back, Mr. Chairman.
    Mr. DeFazio. [Audio malfunction] Now on to Representative 
Carson.
    Mr. Carson. Thank you, Chairman.
    Many transit systems have reduced service in response to 
determining ridership and lost revenue. From your observations, 
how has reduced frequency impacted crowding on buses, trains, 
and in stations?
    Mr. DeFazio. Unmute someone who is going to answer it.
    Mr. Willis. Yeah. There is no question that reduced service 
has resulted in higher density on these buses. You know, I 
think earlier on, there was sort of an understandable move to 
that. But again, as we see jurisdictions slowly open up, I do 
think the agencies need to reevaluate that and try to figure 
out what the right mix is. Obviously, you have got a lot of 
fixed costs in the transit system. You want to preserve your 
capital, I understand that, but having these crowded buses with 
no social distancing, especially if you don't have masks and 
sort of those other procedures in place, is really going to be 
an issue, and I think it is going to discourage people from 
feeling comfortable on public transit.
    So I think being very conscious of that has to be a 
priority of the agency than if you sort of restart sections of 
our economy.
    Mr. DeFazio. Anyone else want to answer?
    Andre?
    Mr. Carson. Thank you, Chairman.
    Mr. Guillot, in your written testimony, you estimate that 
65,000 truck drivers have lost their job since the pandemic 
started. Can we expect these jobs to return quickly as freight 
and others begin to return to normal? And what do you think the 
new normal will look like in trucking?
    Mr. Guillot. Yes, I do believe that truck driving jobs will 
come back in short order. We have expected about a 35-percent 
downturn in the economy in the second quarter, and we are also 
expecting a little over 6-, 6.5-percent increase in the third 
quarter, and an over 9-percent increase in the fourth quarter 
of 2020, with returning back to normal levels somewhere towards 
the end of 2021. So as those levels of economy comes back, we 
expect our industry to grow back to levels that we might have 
seen towards the beginning of this pandemic, in that timeframe.
    Mr. Carson. Thank you. I appreciate it. Thank you, 
Chairman. I yield back.
    Mr. DeFazio. Thanks, Andre.
    Next would be Representative Garret Graves.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    The first question I have is for Ms. Carr. Ms. Carr, I am 
curious, if you abide by all of the CDC or other guidance that 
is issued for safety protocols, do you think that you should be 
held liable if anything happens or if anyone comes down with 
the coronavirus as a result of their flight?
    Ms. Carr. Do I believe that I personally should be held 
accountable, sir? I just want a clarification on the question.
    Mr. Graves of Louisiana. Yes, yes. Personally. I am sorry.
    Ms. Carr. I do not believe I should personally be held 
liable. No, sir.
    Mr. Graves of Louisiana. Mr. Shaw, could you answer that 
same question, please?
    Mr. Shaw. I do not believe we should be held personally 
liable.
    Mr. Graves of Louisiana. So it seems reasonable that if 
folks are following the appropriate guidance coming from CDC or 
others, that there shouldn't be liability for complying with 
the best rules or the best information we have at the time. We 
certainly can't have the benefit of hindsight if other or more 
accurate information comes up.
    In that regard, Mr. Guillot, your testimony addresses the 
issue of limited liability protections. As you know, this is 
unprecedented, this crisis. Trucking companies in the course of 
their essential worker exposing themselves to risks that are 
not fully understood. Can you describe the importance of that 
liability protection or limited liability protection in a 
future recovery package and what that would mean for your 
workers and people in Louisiana?
    Mr. Guillot. Sure. Thank you for the question. It is 
critical. Especially here in Louisiana where we operate, the 
litigation environment is significant. And without those 
limited protections, our best efforts may still be litigated.
    This whole health crisis should not be turned around into a 
litigation event. We are all working together to be the safest 
and healthiest for all of our employees and all the motoring 
public.
    And, you know, we have never asked for bad actors to be 
protected. All we are asking for is the ones that are acting in 
good faith in the industry, frontline workers, to have some 
limited liability in relation to the COVID-19 pandemic.
    Mr. Graves of Louisiana. Thank you.
    Changing gears a little bit, Mr. Willis, as you may recall, 
the third bill that we did, the CARES Act, in response to 
coronavirus, it does provide an air carrier loan program 
specifically for air carriers.
    Most air carriers have not applied for loans under that 
program. Would you support opening up eligibility for those 
loans to other aviation- and aerospace-related businesses?
    Mr. Willis. Well, the loan program does not only apply to 
air carriers but it is some contractors as well. You know, that 
relief was designated for the airlines. I think providing 
assistance to manufacturers and other important segments of our 
economy should definitely be open for discussion, but, quite 
frankly, I think we should create a different program or use, 
sort of, other aspects of the bill to get them cash.
    Let me speak to the liability question since you raised it 
earlier. You know, look, at the end of the day, it is employers 
who are responsible for providing a workplace that is free from 
hazards. And to the degree that they are not able to do that, 
they need to be held accountable, quite frankly. That has long 
been the case. I don't think anything about the COVID-19 
situation, sort of, changes that.
    But I think the liability discussion can get at some way 
for making sure that employers do the right thing to protect 
both their passengers and their employees. And I think, as part 
of that, the mandatory rules that we are talking about----
    Mr. Graves of Louisiana. And, Mr. Willis, I appreciate 
that. And I think my question was specifically asking about the 
employees and if the employees should be held responsible if 
the protocols that that company or business has in place are 
consistent with CDC guidance.
    Last question, because I know I just have a few seconds 
left.
    Ms. Carr, if Congress retroactively prohibits work-hour 
reductions, how many more airline employees do you think would 
be laid off by October 31?
    Ms. Carr. I apologize, I would not want to speculate as to 
how wide-sweeping these layoffs could be should air travel not 
improve and we do not receive additional support from the CARES 
Act.
    Mr. DeFazio. OK. Thank you.
    Mr. Graves of Louisiana. I yield back.
    Mr. DeFazio. We would now turn to Representative Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I will direct my comments first to Ms. Carr, and then I 
would like for Mr. Willis to weigh in.
    It is very important that we get air traffic back up and 
people feel comfortable flying and feel safe. And I noticed 
that you mentioned that you need more clear guidance from 
Federal agencies. No place like Las Vegas would agree with you 
more.
    You went on to mention that the AFA has been pushing for an 
expanded Government role in screening. Now, we know that the 
airlines are taking the position that this should be a function 
of the TSA, but they are our frontline workers too, and they 
have not been immune from the COVID. Six TSA officers have lost 
their lives, and about 640 have contracted the virus.
    And yet, unlike other Federal workers, they lack adequate 
health and safety benefits. In fact, this administration took 
away health benefits from part-time workers. They are the 
lowest paid, and they have one of the highest turnover, and now 
we are asking them to put their health on the line.
    I have introduced some legislation with Mr. Correa to give 
them health benefits, and there is some other legislation by 
Mr. Payne and Mrs. Demings to give additional protections.
    So I want to ask you, Ms. Carr, a couple of things. One, do 
you think it should be TSA that performs this additional 
oversight? If it is, do you think they should be covered with 
benefits like other unions are?
    And, third, what alternatives might there be to TSA doing 
it? The airlines take the responsibility? The airports take the 
responsibility? Local officials take the responsibility, 
working with the CDC?
    Could you address those questions? And then Mr. Willis.
    Ms. Carr. Congresswoman, anyone who is working in aviation 
at this point should be properly trained in how to address the 
situation, as well as have the protection of PPEs.
    I can't speculate as to who should be responsible, but this 
is a conversation that we could be having if we were able to 
develop a unified plan from our Government in partnership with 
the airlines and the workers' unions.
    Regardless, whomever is assigned to handle testing and 
monitoring, they should be afforded the proper care, the tools 
to maintain this standard of care going forward, and all the 
protective equipment necessary. Those are all things that we 
need to do to ensure that whomever is responsible for this role 
moving forward is able to accomplish that task in a safe 
manner.
    Ms. Titus. Mr. Willis, TSA doesn't think this is their 
task. They think they are there to provide other kind of 
security. But it seems to be pushed on them more and more. 
Could you address that and their lack of benefits?
    Mr. Willis. Well, right now, we don't even require 
passengers approaching a screening station to have masks on. So 
I think, at a minimum, we have to deal with that issue right 
now.
    To the degree that you are going to ask frontline TSOs, 
who, quite frankly, are already overworked in many of these 
locations, to now, whether it is to take temperatures or to 
even do some type of rapid testing, I think there has to be a 
lot of thought given to who is that that does that. I am not 
sure that the frontline TSOs are the right people for that.
    I think there are protocols that you have to think about. 
What happens when someone refuses to get a test? What happens 
if they push back or what have you? What if someone tests 
positive, what if they have a higher temperature, what do you 
do with that passenger? So thinking about all those issues on 
the front end I think is really important.
    If we are thinking about TSOs, I think making sure that 
they have the same labor rights under Title V. I know the House 
has already passed a bill to that degree, but that just brings 
home again how important this workforce is and the things that 
we need to do better to protect them.
    Ms. Titus. Thank you. I completely agree with you and think 
we need to be working in that direction and putting a plan 
together now, with all the people at the table, to see just who 
is going to be responsible, how that is going to work, what you 
do with the people who have tested positive, and how you work 
with the airlines and the airports in this, not just let the 
airlines say, ``We don't want the responsibility. Give it to 
TSOs.''
    Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. Thanks, Dina.
    We would now move to Representative Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman.
    And, first, I want to lend my voice to thanking all of our 
transportation workers, who have performed so admirably during 
this very, very unprecedented time.
    Mr. Guillot, a few questions for you. I noted that in your 
written testimony you mentioned the shortage of drivers was 
exacerbated by the pandemic. And, of course, we all are 
familiar with the fact that that has been a huge challenge for 
the trucking industry for some time. But for the general 
public, given the shortage was exacerbated during the pandemic, 
that may seem slightly counterintuitive.
    And I thought I might give you an opportunity to talk a 
little bit about that and measures that you identify in your 
written testimony to try to alleviate that problem moving 
forward.
    Mr. Guillot. Thank you for your question, Congressman.
    Knowing that coming into the pandemic we were approximately 
60,000 truck drivers short in our industry and projections are 
over the next decade we will need an additional million truck 
drivers just to keep up with what we want to do each and every 
day to support the U.S. economy, we are very concerned with the 
introduction of new drivers in the workforce.
    Our workforce right now averages at least 6 to 7 years 
older than other industries' average age in the workforce. So 
it is concerning to us. We are going to have a lot of drivers 
who are retiring, getting out of the business, and we need that 
pipeline still to come in with new drivers.
    So we look forward to continue working with FMCSA to 
promote this in workforce development, through Congress, and to 
get more truck drivers into the industry going forward.
    It is a good-paying job. We average $56,000 as a truck 
driver, plus benefits. This is a good-paying job, and we look 
forward to getting the word out and getting more people into 
the industry.
    Mr. Rouzer. You know, as we look forward--and let's make 
the assumption that life gets back to normal relatively soon, 
let's say in a year or so. And let's say 3 years from now we 
have another pandemic hit, my question is, what have we learned 
from this experience that we would apply to the practice field, 
so to speak, or the playing field, the next time, God forbid, 
another pandemic hits?
    I am curious what you might identify as things that are 
lessons learned that you would employ at a future time, in a 
future pandemic, if we were to have one.
    Mr. Guillot. You know, I think we have already discussed to 
keep the roadways open and keep facilities open for our truck 
drivers.
    I think we fully recognize the importance of our industry 
in getting goods to the final user, whether it be hospitals, 
whether it be grocery stores, or everything else in between. We 
now realize just how critical the trucking industry is to the 
overall economy and the health of our Nation.
    So, going forward, if another pandemic, God forbid, would 
happen again, we want to learn from the lessons here, saying 
that we still need facilities, we still need to enable our 
truck drivers to get from point A to point B with critical 
goods.
    Mr. Rouzer. I noted in your testimony you mentioned one 
problem folks generally had was delivering a load to one 
location but then you are driving back with an empty truck 
because there was no freight available.
    Were there any innovative solutions that you all were able 
to come up with to address those type of logistical issues?
    Mr. Guillot. Well, I certainly think the cooperation with 
the FMCSA and the suspension on critical goods moved with the 
hours of service helped our industry meet the immediate needs 
of the U.S. economy and what we were shipping at the time, 
whether it be health supplies or groceries or anything else. So 
that, to me, is the most important and critical part of what we 
have learned initially to keep the supply chain going.
    Yes, we have had issues and, yes, we are continuing having 
issues where we might be loaded one way and empty the next. But 
the hours of service and the ability for us to flex those--and 
mind you, we did not gain any additional hours for driving. No 
additional drive time was added in that relief of hours of 
service. It was only to accommodate the rest time and so forth.
    So we feel it was critical for the agency to do what they 
did, and we very much appreciate them working with us on that 
topic.
    Mr. Rouzer. Thank you.
    Mr. Chairman, I yield back.
    Mr. DeFazio. Thank you.
    Representative Lowenthal?
    Mr. Lowenthal. Thank you, Mr. Chair. I think this has been 
a great hearing.
    And I want to thank all the witnesses.
    And my first comment is more of a comment, and it is to Ms. 
Carr.
    You know, I flew before the pandemic every week and 
returned home every week from southern California to 
Washington, DC, and then back again. And once the pandemic 
began, I really did shelter at home and stay at home and 
followed all of those guidelines, because I am a senior and I 
was real concerned about any kind of preexisting condition I 
might have.
    As I returned to vote for the Heroes Act and remote voting, 
I felt like the airlines themselves did a great job. I thought 
the flight attendants were fine. I thought they really tried to 
protect the passengers. I engaged in wearing a mask, trying to 
keep a distance from others.
    But I had the worst experience in the airport. I just want 
to share. We had one long line to get on. There was no TSA, 
really, PreCheck. And I understand some of the impacts towards 
TSA, but I was convinced--nobody monitored whether people 
stayed 6 feet. There were markers, but nobody did that within 
the airport. And it was frightening.
    And it was even worse going back from Washington to Los 
Angeles. When I got to the airport 1\1/2\ hours ahead of time, 
before 6 a.m., and it was just terrible. There was one long 
line. Everybody was on the line. Half the people were not 
wearing masks at 6 a.m., 6:30 a.m.
    It was a shock. And it was frightening to me. I was 
convinced--not so much being on the airplane--I was convinced 
that I had exposed myself.
    And so I just want to say, it is going to take a long time 
for a person like me and, I would think, others, to regain 
trust, and especially in the airports themselves. That is where 
I had a horrible time, in airports, in two areas that were both 
Washington and Los Angeles, which are very vulnerable because 
they are really high-risk areas.
    So I just wanted to say that, not to ask that. It is going 
to take a lot for me and, I would imagine, for other 
passengers. It was a horrible experience, being in the airport.
    Next question, though, that I have is for Mr. Byrd.
    As I went to Washington, as I worked on voting on the 
Heroes Act, which was designed to both protect frontline 
workers and to honor frontline workers, I was put in a very, 
very difficult position. I wanted to support and I ultimately 
ended up supporting the Heroes Act. But as I got to Washington, 
was there, my local labor, the Western Conference of Teamsters, 
my Local 952 of the Teamsters, strongly opposed in the Heroes 
Act, which was about, you know, the COVID-19, the inclusion of 
sweeping reforms to multiemployer pension plans--and they were 
joined by other labor from the west coast--while, at the same 
time, there was a tremendous amount of labor--and I understood 
where they were coming from too--such as the International 
Brotherhood of Teamsters, the carpenters, who saw the need 
right now for such reform.
    My question is, as we move forward--and there are the 
issues around composite plans, which my Western Conference is 
very concerned that it is going to sweep up and put their 
solvent defined benefit plans at risk--shouldn't we be doing 
these through committee hearings and debate? I just really felt 
put upon that it was put into the Heroes Act at the last 
moment.
    I want to ask your opinion on that.
    Mr. Byrd. Thank you for that question, Representative 
Lowenthal. I really wish that I could answer that question. I 
am an occupational health and safety expert----
    Mr. Lowenthal. Yes.
    Mr. Byrd [continuing]. And, unfortunately, I have not been 
involved with any of our pension discussions, so I have no real 
position on that. I am sorry.
    Mr. Lowenthal. I am just saying, it was very, very 
difficult for those of us that support--knowing that there 
should be some reforms, knowing that we were hearing from our 
own pension plan not to do it, and to have it put into a bill 
without having hearings on it that was not designed to really 
do pension reform, but was put on it.
    And so I am just sharing with you how difficult it was. And 
I was not alone. There were other people who also wanted to be 
supportive of reform but were put into a position that it was 
quite difficult to respond.
    And I ultimately ended up voting for the bill, against my 
local labor unions, and it was very painful. It was very 
painful and very difficult to do. And I hope in the future that 
we take back that message, that such important reform should be 
debated and discussed fully, not put in a COVID-19 bill.
    I also want to follow up on the question about--this would 
be, I think, to Mr. Willis--about the liability and immunity of 
employers. I understand----
    Mr. DeFazio. Your time has expired.
    Mr. Lowenthal. Thank you. And I yield back.
    Mr. DeFazio. OK. Thank you.
    Representative LaMalfa?
    Mr. LaMalfa. Thank you, Mr. Chairman. Glad to be on with 
you here.
    I was interested in the conversation a little bit earlier 
about the liability for those folks in transportation here. And 
so, as we move through the legislation I hear that is going to 
be happening with justice and police, you know, maybe extend 
the same courtesy for our officers, in that they have a 
qualified immunity and that doesn't get swept away from them as 
they are trained, as those people are trained in the 
transportation sector.
    So, with that, I had a question for Mr. Guillot on the 
issue with the trucking, that, as we know, with things starting 
to open up again--and we have had trucking that has been 
available to us, thankfully, to get all the supplies, the 
groceries and everything we have needed through this crisis. 
But we have heard from truckers that their fleet is aging, that 
they need to replace their vehicles, the repair cost to older 
vehicles is tough, and, you know, they want to update anyway, 
have better running trucks. So it helps with them, it helps 
with the automobile industry in general, with those that 
produce, that we can get more of these trucks, the new trucks, 
on the highway.
    But, as we know, the cost of a new truck has been 
prohibitive for a lot of owners and operators--$150,000 or more 
to buy a new truck, including the taxes. Twenty-two thousand 
dollars of that is in Federal taxes.
    So, Mr. Guillot, if you could speak to that a little, 
please. What kind of impact would that have for our 
transportation infrastructure to do what they need to do, if we 
could suspend the Federal excise taxes on heavy trucks, which 
would be around $20,000 on a new truck?
    Mr. Guillot. Congressman, thank you for your question.
    Yes, we have taken a poll amongst our members, and if we 
were successful in suspending the Federal excise tax, which is 
an extreme burden on the new purchase of a truck, we polled our 
membership, and approximately 60 percent of our membership said 
that they were either somewhat or very much more likely to 
purchase equipment, during the suspension of the FET, to 
purchase new equipment.
    Purchasing new equipment is better for the environment, 
better for safety, better for highways, and better for our 
suppliers. You know, our purchasing during the pandemic is down 
70 percent year over year in purchasing during the onset of the 
COVID-19 event.
    So we would like to get back to purchasing equipment again, 
and certainly the suspension of the FET would be a good way to 
incentivize the trucking industry to buy new and better 
equipment and get our manufacturers back to work again.
    Thank you.
    Mr. LaMalfa. Again, nearly 8 million employed by the 
trucking industry. And we have had lower demand because of the 
shutdown, with all the typical things that truckers would haul. 
You know, if you got it, a truck brought it. If you are not 
getting it, the truck isn't bringing it.
    So do you all have an estimation for the total economic 
damage to truckers just from this pandemic?
    Mr. Guillot. I don't have that statistic in front of me, 
sir. I will be more than happy to get back with you on record 
from our association. I don't have those numbers in front of 
me.
    Mr. LaMalfa. Well, if you were to rate it, like we have the 
thermometers for fire danger in California, where, you know, 
you see along the highway it says low to high, what do you 
think it would be on your economic thermometer?
    Mr. Guillot. It is certainly high on our radar screen, as 
far as the lack of activity since the onset of COVID. Again, 
certain segments of the industry have maintained a fairly 
steady pace--consumer-type goods, although we are seeing some 
downfall in that in current weeks. But other segments of the 
industry have been really hit hard--the automotive sector, the 
fuel-hauling sector. Oil and gas sector has been hit extremely 
hard in the past few weeks.
    Mr. LaMalfa. Yeah. Absolutely.
    Well, it has been hell on truckers in my home State here of 
California, with the farm regulations and such. So it would 
certainly help those that think they can update, what we were 
talking about, again, on the excise tax, if we could suspend 
that or even remove it.
    That excise tax was put in place to help pay for World War 
I, so maybe we have it covered by now, you know?
    Mr. Guillot. So maybe we continue to look at it in a fully 
funded infrastructure bill, and maybe we can take a long-term 
look at that whole FET.
    Mr. LaMalfa. Yes, sir. Thank you.
    And thank you, Mr. Chairman and committee members.
    Mr. DeFazio. Thanks.
    Now we turn to Representative Lynch.
    Mr. Lynch. Hello, Mr. Chairman. Good to be with you. Nice 
job on this hearing. This is very helpful.
    At the top of the call, I know I heard the representative 
from the Teamsters, Mr. Lamont Byrd, mention the Restoring 
Safety in the Skies Act. We have been working with Senator Ed 
Markey and with Senator Blumenthal on dropping a companion 
piece on Thursday.
    So it basically just creates a joint task force made up of 
all of the agencies--DOT and FAA and Customs and Border Patrol, 
TSA--but it also includes a lot of the unions, to come up with 
best practices in light of what we have seen happen during this 
pandemic.
    So we are looking for original cosponsors, and we welcome 
people from both sides of the aisle, obviously.
    My question is really on another matter that hasn't really 
been raised yet, and that is regarding maritime safety. So, in 
my district, I represent the Port of Boston, so I have the 
Seafarers Union and I also have the Masters, Mates & Pilots. 
And they serve in a capacity on these cargo ships that actually 
supply our folks at the Seventh Fleet in Japan, the Fifth Fleet 
in Bahrain. They service our folks in Afghanistan and Iraq.
    And because of the pandemic, many of them have been 
stranded onboard their cargo ships during this pandemic because 
the host country or the country that they are shipping to has 
denied them access--not only denied them access, but denied 
them access to airports or any type of travel. So they are 
trapped on their ships right now.
    And so I wanted to maybe ask Mr. Willis from the AFL-CIO--I 
know they have done great work on this--what are the 
initiatives that we are taking now to sort of free up our 
mariners? I have a ton from my district. We have Mass Maritime, 
who are a big supplier to that industry.
    And I am just wondering what we can do for--I know these 
are not a lot of folks. You know, I used to be counsel for the 
Teamsters, and I know we have 1 million truckers out there, but 
these folks, I think, are being forgotten. And I am just 
wondering if there is anything we can do to relieve their 
plight during this pandemic and maybe take some lessons learned 
to adopt some provisions that might help them in the future.
    But, Mr. Willis, if you could respond to that concern.
    Mr. Willis. Sure. And thank you, Congressman Lynch, for 
your leadership on this issue.
    If ships are sailing the world who have U.S. mariners 
onboard, ocean vessels funded under the Maritime Security 
Program, what is supposed to happen is that these U.S. crews 
are supposed to be rotated out about every 4 months when they 
get to a foreign port, and then we slide them out and, 
obviously, slide new crew in. But because of, sort of, 
overreactions, quite frankly, in some of these foreign 
countries, as you correctly point out, some of these ports are 
not allowing these crews to leave the vessels, or if they are, 
they have to stay in some type of quarantine, aren't able to 
access international airports. It is really--it is a prison, 
you know, on the seas, quite frankly, that really needs to end.
    The maritime unions have come together on this issue. They 
have petitioned the State Department and others to figure out 
ways to get these U.S. mariners home. And I think raising this 
and pushing States and the White House to figure this out 
absolutely has to be a priority.
    Mr. Lynch. That is great.
    Mr. Chairman, just in closing--and I will wrap it up. But I 
want Members to know, we have folks off the coast of China, we 
have them off Sri Lanka, we have them off the coast of Saudi 
Arabia waiting to get into Bahrain. So we have these folks all 
over the world, as well as Southeast Asia waiting to get into 
Japan and some other countries.
    So it would really be helpful to these families and to 
these individual mariners, who are real patriots in my eyes, 
but they are being left out there. And I just hope there is 
something we might be able to do in the future, maybe within 
Congress as well, to get together. I would like the input of 
the Seafarers Union, the Masters, Mates & Pilots on this, and 
the AFL-CIO, you know, Transportation Trades Department 
obviously, if we could get together here and try to come up 
with something good.
    But I really appreciate this hearing. You are doing a great 
job with it, Mr. Chairman. I want to thank the ranking member 
as well. And I yield back. Thank you.
    Mr. DeFazio. Thanks, Steve.
    Rep. Gonzalez-Colon?
    Miss Gonzalez-Colon. Thank you, Mr. Chairman.
    Well, we are here back in DC. And I need to say that what 
Representative Lowenthal was explaining about his experiences 
while traveling is not different from any of us that have been 
traveling in the last 3 months.
    And, actually, one of the main questions I have, in the 
case of Puerto Rico, many of the visitors, of course, came by 
cruise ships or a plane. So what the Government of Puerto Rico 
did in early March was, upon arrival of all passengers, 
allowing them to have voluntary tests being done at the 
airport. Many of them that were with high temperatures, they 
were ordered to have a quarantine. But, again, this is not 
mandatory. This is just voluntarily.
    But how about bringing or requiring--I am not requesting 
this, but this is something that has been said locally on my 
island. I don't know if this is something that the industries 
or the unions are considering, in terms of having a requirement 
for passengers to have a certificate or a result of a test 
before going into a plane, while using all the masks and all 
the PPEs, but requesting or having a mandate to provide a 
certificate of a clear test in terms of COVID-19.
    But, today, we are talking about COVID-19, but maybe in a 
few months it could be SARS, it could be any other situation. 
So we need to learn how to live with these kinds of diseases. 
So how can we protect not just the employees of the airlines 
and the transportation industry but the passengers as well?
    In that sense, my question will be: Will you guys from the 
unions and the industry recommend that will be a requirement 
for travelers, to be tested at their own expense before 
departure, taking temperatures of those passengers before 
boarding a plane?
    Ms. Carr?
    Ms. Carr. Congresswoman, you raise an excellent point in 
that today it is COVID-19 but tomorrow it could be SARS or 
anything else.
    If passengers are sick or exhibiting symptoms, they need to 
stay home. That is the first thing we can do.
    The second thing we can do is ensure that we have all of 
these new regulations in place, we have a committee that comes 
together and creates a Federal mandate so that everyone knows 
when they travel they are going to be health-screened, when 
they travel they are going to have to observe social 
distancing.
    This is going to require us as an industry to come 
together, as a travel group to come together, but it is going 
to require personal responsibility on the part of the 
passengers as well.
    Miss Gonzalez-Colon. And, I mean, of course, we all need to 
agree that the passengers have a great responsibility as well. 
And we all know, as well, that airplanes, for good and bad, you 
know, are like the petri dish, a flying petri dish, and you can 
expose many of the passengers.
    But knowing that some studies from Harvard University and 
many others talk about the incubation period being 3 to 14 days 
and symptoms in 24 to 48 hours--and we can go to the detail of 
scientific information here. But my question will be: Nobody 
will know if a passenger got it or not when they are boarding a 
plane. Same thing in a train, same thing in a ship.
    Now we are in the summer, so we are facing, for those 
living in the Caribbean, hurricane season. And that means that 
all this activity is going to, you know, go again and again.
    Besides taking tests, besides using the protective 
materials, what else, in terms of the airlines, should be done?
    Ms. Carr. Congresswoman, again, I believe this is the 
reason that we need a task force in place, to come up with 
strategies that not only apply for COVID-19 but would apply for 
any pandemic or health crisis moving forward. And it would be 
that task force that would determine all of these steps, 
whether that be testing, wearing masks, social distancing, how 
aircrafts are cleaned.
    All of that would be encompassed by this task force and 
would then be a Federal mandate, giving us what we need to do 
our job and keep everyone safe. It is not up to an airline to 
determine that. This is something our Federal Government needs 
to do.
    Miss Gonzalez-Colon. Thank you.
    And I know my time expired, but I want to say thank you to 
all workers in the transportation industry.
    Mr. DeFazio. Thanks. I have raised that issue. FAA claims 
they have no authority over health on airplanes, which is not 
true. They are trying to duck. They say they have to get it 
from OSHA, and OSHA says they have to get it from CDC, and it 
is not forthcoming.
    With that, we would turn to Representative Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    And thank you to all the individuals that are here 
testifying today.
    My question is directed at Mr. Shaw.
    Mr. Shaw, thank you for your time today and certainly your 
service as an essential worker, being on the front lines of 
this pandemic.
    As you mentioned in your testimony, COVID-19 has been 
horrendous for our country in terms of its impacts. In less 
than 6 months since the first individual or case confirmed, we 
have now had 110,000 people who have died. Extremely tragic.
    I know transportation workers like you and others 
throughout the country and in my district are essential, and 
you guys have been providing extraordinary service in terms of 
transit service to Americans everywhere. And this has come at a 
great health risk to you continuously by being exposed to the 
coronavirus.
    The Heroes Act that Congress passed last month provides 
hazard pay for workers. Why is it so essential in order to 
support people on the front lines?
    And, two, in retrospect, do you think clearer guidelines 
and earlier support from the administration and Department of 
Transportation could have been more helpful to transit agencies 
to better handle and address this crisis?
    Mr. Shaw. Thank you for the question, Congressman.
    Transit is an essential service. It needs the support from 
Federal Government in order to keep service going and our 
economy working. Better support from the Federal Government, 
and oversight, would have forced the companies to have the 
proper equipment to be able to enforce riders' wearing masks.
    We have not received hazard pay in my company. Our union 
has fought for it and has been constantly turned down. But, 
again, without transit, the essential workers aren't getting 
around, nurses aren't getting to the hospitals, police and 
firemen aren't getting to their districts. And better oversight 
or better force from the Federal Government to make the 
agencies enforce these rules would have definitely helped and 
made it a lot safer for us.
    Mr. Carbajal. Thank you, Mr. Shaw.
    My next question is to Mr. Guillot.
    I know your industry has lost, it is my understanding, over 
65,000 jobs. How soon do you feel that we will be able to 
recover those jobs in your industry once we get a little beyond 
the crisis that we have?
    Mr. Guillot. Our projections are going to be towards the 
end of 2021, is the projections that we have right now based on 
the information that we are thinking happening with the 
economy. So about 1\1/2\ years before we get back to where we 
were at before, if everything goes OK.
    Mr. Carbajal. And one question to all of you, if you could 
answer it briefly. If Congress could do one thing for your 
industry, what would that one thing be? If you only had one 
thing to advocate for, what would it be?
    If we could start and go one to the other, to the other.
    Mr. Guillot. I will start since I am already on the 
microphone.
    As I said already in my testimony, a fully funded 
infrastructure bill, bipartisan, would be the best thing 
Congress can do for this economy and best thing that it can do 
for the safety and well-being of our workers in the industry.
    Thank you.
    Mr. Carbajal. Thank you.
    Mr. Willis?
    Mr. Willis. Well, I will cheat and say they should pass the 
Heroes Act amendment to make sure that we are covering other 
segments of transportation on the health and safety side. There 
are a lot of good provisions in there on hazard pay, on PPE 
requirements, on economic relief for transit and construction. 
So a good bill is a good start. And we know that this economy 
and transportation workers are going to need more immediate 
help.
    So thank you.
    Mr. DeFazio. Others quickly.
    Mr. Carbajal. Mr. Byrd?
    Mr. Byrd. I would agree, passing the Heroes Act, and having 
a strong Federal health and safety regulation to deal with 
airborne infectious diseases.
    Mr. Carbajal. Ms. Carr?
    Ms. Carr. The extension of payroll support for workers.
    Mr. Carbajal. And, lastly, Mr. Shaw?
    Mr. Shaw. Hazard pay for all essential workers that are out 
there every day continuing to keep the economy growing.
    Mr. Carbajal. Great.
    Thank you very much, Mr. Chair. I yield back.
    Mr. DeFazio. Thank you.
    Now, Representative Westerman.
    Mr. Westerman. Thank you, Mr. Chairman. And greetings from 
the front lines of Congress here in Washington, DC.
    This is a very fitting topic that we are covering today. We 
have heard about the healthcare workers, the doctors, the 
nurses, the emergency medical services, our firemen and 
policemen who have not been able to work remotely during the 
pandemic, and we have all hailed them as heroes. But we also 
have a lot of other frontline workers. And if nothing more, I 
would hope that they would realize, from this hearing today and 
other actions that we do, that they are appreciated and their 
jobs are extremely critical and we couldn't survive without 
them.
    You know, ironically, 1 day apart last month, Peggy Noonan 
in the Wall Street Journal and Bret Stephens in the New York 
Times both published very similar opinion pieces on this topic 
of frontline workers, and their insights from those opinion 
pieces are very relevant to today's hearing.
    Peggy Noonan proposed that there is a class divide in our 
country that has become more apparent during the pandemic. She 
labeled the two classes as the ``protected'' and the 
``unprotected.'' Noonan wrote that ``the protected make public 
policy; the unprotected live in it.'' And, you know, as Members 
of Congress, we are obviously in that protected class.
    When the New York Times' Stephens furthered this argument, 
as he opined, he exchanged Noonan's labels of ``protected'' and 
``unprotected'' with ``remote'' and ``exposed.'' He cited a 
study that, in America, only one-third of the population has 
the luxury of working remotely, while two-thirds must go to 
their jobs and face the risk of exposure.
    I just want to read briefly from his op-ed. He said, ``For 
the remote, the lockdowns of the past 2 months have been 
stressful. For the exposed, they have been catastrophic. For 
the remote, another few weeks of lockdown is an irritant. For 
the exposed, whose jobs are disappearing by the millions every 
week, it is a terror. For the remote, COVID-19 is the grave new 
risk. For the exposed, it is one of several. For the remote, an 
image on the news of cars forming long lines at food banks is 
disconcerting. For the exposed, that image is or may very soon 
be the rear bumper in front of you.''
    So I think it is very important that we recognize the job 
that these frontline workers in transportation are doing. And 
we saw shortages of things like toilet paper, we saw meat 
shortages. We know that we have essential workers, like in my 
district, that are working in poultry processing plants, that 
are working in food distribution and transportation.
    But, Mr. Guillot and Mr. Byrd, could you take just a minute 
and describe what our country would look like in, say, just a 
couple of weeks if our frontline transportation workers and 
trucking decided not to go to work?
    Mr. Guillot. I would reference my oral presentation 
earlier. Grocery shelves would be empty. Pharmacies might not 
have the medicines that we need. The frontline medical 
physicians might not have the PPE that they need to perform 
their jobs properly. I think that is the easiest, most direct 
way we can say it, sir.
    And thank you for our recognition that we are getting in 
the trucking industry now. Thank you.
    Mr. Byrd. And I would like to echo those comments. And I 
would just add that I talked with a colleague several months 
ago and said, today, we have people fighting over rolls of 
toilet paper. If our supply chain shut down, it would be 
absolute chaos.
    So I think that is what would happen in very short order if 
trucking were to shut down.
    Mr. Westerman. Yeah. We saw just with the shortage of a few 
things in the grocery stores that it was not looking good, but 
can you imagine without that transportation supply chain there 
in place, the interruption that it would be for everyone, not 
just the protected and the unprotected but the remote as well 
as the exposed.
    One issue that I have talked to truckers about early on 
was, they weren't able to get PPE. Has that situation eased 
any? Are they able to get PPE? And they also felt like people 
didn't think they were important, is the impression that I got 
from talking to them.
    Mr. Guillot?
    Mr. Guillot. I think as we have followed the guidelines 
from CDC and OSHA, early on, some of the PPE may not have even 
been recommended. But as it became known how to protect our 
workers better, the initial purchase, the initial buys were 
difficult. I spoke earlier about the particular types of face 
masks that may be more safe or appropriate; the medical field 
has gotten those.
    So, we as an industry, we buckled down, we got face masks 
out to small and midsize carriers. Larger motor carriers that 
might have been able to buy on scale because of their size and 
ability, great.
    And then we also worked with FMCSA and DOT. You know, 
millions of face masks given out to our industry. The hand 
sanitizer, we put out thousands of gallons there free of charge 
to our truck drivers.
    So I think the ingenuity and the resilience of our industry 
came together, companies working together, working with local 
officials to get this type of equipment out. And I think, 
today, supplies--as a matter of fact, I will even use my 
personal experience. Just today, today, I received 1,000 masks 
from FMCSA and DOT for my company. I am already distributing 
them. We already had company-sponsored face masks, but we are 
putting more out to the industry, giving them out to whoever 
might need it in the transportation field.
    Thank you for your question.
    Mr. Westerman. Thank you.
    I yield back.
    Mr. DeFazio. Representative Brown?
    Mr. Brown. Thank you, Mr. Chairman.
    First, I want to thank you, Mr. Chairman, for including so 
many transit worker safety provisions in the base text of the 
INVEST in America Act. These include the National Transit 
Workforce Training Act of 2020 and the Public Transit Safety 
Program Improvement Act, which I was proud to introduce and had 
so many of our colleagues join me in that effort.
    I want to thank all of our panelists today for what they do 
on the front lines as transportation workers. I hope that they, 
too, recognize that the provisions that are in the INVEST Act 
would increase safety and training for transit workers across 
the Nation.
    However, COVID-19 has created new safety challenges for the 
transportation sector. During this pandemic, frontline transit 
workers have had to put their lives at risk in order to keep 
our public transportation systems running for essential workers 
and, now, for more and more Americans across the country as 
States begin their reopening process.
    Alarmingly, this risk to our frontline transportation 
workers is compounded by the lack of adequate masks, gloves, 
and additional PPE that is required for the job and that we 
have heard testimony about today.
    Additional social distancing [inaudible] things must be 
taken [inaudible] like the work that you and your colleagues at 
the Transportation Trades Department have done to ensure that 
frontline workers are protected and have adequate PPE during 
this global pandemic.
    Additionally, your department has been a critical partner 
in working with me on the National Transit Workforce Training 
Act of 2020. This provision in the INVEST in America Act will 
enhance training and educational programs for frontline 
employees of the local government-funded or government-aided 
public transportation systems.
    We began this effort before the COVID-19 pandemic because 
there were challenges facing the frontline workforce in the 
industry. However, ensuring that our frontline workers are 
trained and prepared to operate during the COVID-19 pandemic is 
critical, as highlighted by the testimony we have heard today.
    Mr. Willis, can you speak generally on the value of a 
federally mandated national training center for frontline 
workers and what it means to the workforce? And can you also 
speak more specifically on how having a national training 
center would have helped prepare frontline workers for the 
COVID-19 pandemic?
    Larry?
    Mr. Willis. Thank you, Congressman, for that question and 
for your leadership on this issue. And thank the chairman of 
the committee for, yes, addressing this issue in the 
reauthorization bill that was recently put out.
    Look, we feel that even before COVID that we were facing in 
transit significant training and retention challenges for 
agencies across the country. The average age of a transit 
worker in key occupations is 52, so we know a lot of 
retirements are right around the corner. Put another way, 
within the next 10 years, we know the industry is going to have 
to either retrain or rehire up to 120 percent of its current 
workforce just to keep up with demand.
    And that doesn't even get into technology issues that our 
members need to be trained on when we use battery-electric 
buses and other technology that comes down the pike.
    I think COVID-19 reminds us again about how important joint 
management training could have been, and can still be, quite 
frankly, bringing those entities in the same room together, 
figuring out what the best practices are across locations, 
figuring out how to disseminate information on how this threat 
has been evolving. I think a joint training center could serve 
for that purpose.
    We have talked a lot on this hearing here today about masks 
and about N95 masks specifically, but we know that if you 
aren't trained on how to use those, if you aren't fitted 
correctly, quite frankly, they can do more harm than good 
because they give you a false sense of security. So a training 
center like you propose could be a venue and an opportunity to 
make sure that workers are using the PPE correctly, making sure 
that procedures are being done in the right way.
    So a very important mission, no matter what. Again, I think 
COVID-19 reminds us that good transit training is essential 
here. So thank you.
    Mr. Brown. Thank you.
    Mr. Chairman, I yield back.
    Mr. DeFazio. Thanks, Anthony.
    We would move now to Representative Fitzpatrick.
    Representative Fitzpatrick, unmute.
    Perhaps he had to leave.
    Then we would go to Representative Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    And thank all of you for participating in today's 
discussion. And thank you for all the work that you are doing. 
During these times, it is encouraging to see different 
industries actually working together on behalf of the American 
people.
    Like many States in America, West Virginia has seen 
significant reduction in travel towards the beginning of the 
pandemic. Due to CARES and the reopening of our State, a lot of 
our stakeholders are feeling positive about end-of-year 
outlook. With that being said, protecting our workers as well 
as ensuring that our goods and services are delivered still 
must be a high priority.
    Mr. Guillot, can you discuss how reduction of service will 
affect supply chain in rural areas?
    Mr. Guillot. Just in general, the reduction in supplies, 
goods, and services going into the rural areas would be just as 
affected as it might be in a more populated area. So I don't 
have any information that would say specifically a rural area 
versus one that is more populated, but, overall, the reduction 
in workforce and the reduction in supply chain and the 
continuity that we had going on before affects us all.
    Mrs. Miller. That is correct. And it is good to hear that 
it won't affect rural areas, obviously, since I live in a rural 
area.
    You mentioned protective equipment for drivers. I have had 
several truckers in West Virginia reach out on the topic of 
limited access to protective equipment and testing. Will ATA's 
focus on PPEs and testing continue as we continue to reopen 
across the country?
    Mr. Guillot. Yes, ma'am, it will. We are proud of the track 
record that we have already, getting face masks into our small 
and midsize motor carriers. We are proud of the fact of putting 
hand sanitizer at strategic locations across the country. And 
we will continue doing these types of activities supporting our 
workforce.
    Mrs. Miller. Well, what would be your advice for those 
essential workers that don't have current access to protective 
equipment?
    Mr. Guillot. I would say, work with your employers. I know, 
myself, I am a small motor carrier, and we have gone out and 
sought additional supplies for our workers to make sure that 
they were safe doing their work activity.
    We also have DOT and FMCSA putting out millions of face 
masks. You know, they are out there, available. Certainly they 
can contact our association so we can help get those out to the 
frontline workers, as we have been already.
    So I would strongly recommend for workers to get with their 
employers to get the proper equipment.
    Mrs. Miller. That is good.
    In terms of goals for the future, what step is ATA taking 
to ensure that, if this ever happens again, that we can 
continue to deliver goods and services across the U.S. with 
minimal impact to industry and supply chains?
    Mr. Guillot. I would say----
    Mrs. Miller. In other words, what would you do differently 
or the same?
    Mr. Guillot. I would say two things.
    First and foremost, we worked with Federal agencies as well 
as State and local agencies, Government entities, to make sure 
that we kept the flow of trucks moving--proper restroom 
facilities, proper fueling stations, proper places to eat. So I 
would think that would be number one on our list.
    But certainly our biggest message to this Congress, this 
committee, is to fully fund a bipartisan infrastructure bill. 
The safety of our workers, the efficiency of our workers going 
forward relies on how well we fund infrastructure and get 
something moving on it. It is a long time needed, we all know 
it. We need to find a way, Congress needs to find a way, to get 
this thing done and get it done now.
    Thank you.
    Mrs. Miller. Thank you so much.
    And I yield back my time.
    Mr. DeFazio. OK. Thanks, Carol.
    Representative Espaillat?
    OK.
    Representative Malinowski?
    All right.
    Representative Stanton?
    Mr. Stanton. Mr. Chairman?
    Mr. DeFazio. Yeah.
    Mr. Stanton. Mr. Chairman?
    Mr. DeFazio. You are up.
    Mr. Stanton. Can you hear me?
    Mr. DeFazio. Yep.
    Mr. Stanton. Mr. Chairman?
    Mr. DeFazio. Go ahead. I can hear you.
    Mr. Stanton. Thank you very much.
    Thank you, Mr. Chairman, for holding this hearing. The 
COVID pandemic has impacted every sector of our economy and 
upended the transportation sector unlike anything that we have 
ever seen.
    Since day one of this crisis, our transportation workers 
have been on the front lines. They have kept critical goods and 
freight moving across the country, helped get people in their 
communities to critical services and their jobs, and made sure 
planes continue to operate, and made sure that--and I have--
made sure that infrastructure projects keep advancing across 
America.
    My first set of questions is for Mr. Willis.
    Throughout this crisis, it has been important to mitigate 
against the spread of the virus within the workforce, 
minimizing exposure while workers are performing their duties, 
and ensure sufficient staffing.
    As efforts continue to reopen States and communities across 
the country, are transit agencies taking the steps necessary to 
ensure the health and safety of our frontline workers? And if 
not, what more should be done?
    Mr. Willis. Well, I think some agencies are doing better 
than others, as we have discussed today. Quite frankly, they 
are only doing this because the workers have agitated, their 
unions have agitated, to hold their feet to the fire. And, you 
know, the sort of a hodgepodge approach here really can't be 
sustained.
    You know, we have talked a lot about how important 
frontline transportation workers are. Could not agree more. And 
if we really believe that here, then I think we have to be 
laser-focused on what it is that we need to make them safer. 
And that is real, enforceable standards, many of which were 
included in the Heroes legislation, to make sure that employers 
are complying, you know, from CDC guidelines and that they are 
enforceable and that they are actually occurring.
    You know, getting masks out to frontline workers is great, 
and we are supportive of that, but if there are not real 
Federal mandates to make sure that employers are doing the 
right things here and protecting workers, then we are not doing 
enough.
    So I think your comments on how important this workforce 
is, how important the transit workforce is, are really 
important. And if we believe that, then let's give them the 
Federal mandates that we know are needed here. Because absent 
that, too many of these things are going to fall through the 
crack.
    Mr. Stanton. Thank you for the answer.
    And on the issue of when a worker tests positive for COVID-
19, what steps are now being taken to trace contact with other 
exposed individuals?
    Mr. Willis. Yeah. That is a big issue. Testing absolutely 
has to be a part of any sort of return, opening up the economy. 
We don't think, quite frankly, that CDC is doing enough on 
contact tracing. Thinking about the workplace as a place to 
plug in, to track what happens when a worker does test 
positive. Using the unions on the ground to help with that, I 
think, is essential.
    So that is a big missing piece here. That and testing, they 
go hand-in-hand. That is going to be crucial if we are going 
to, again, open up more segments of our economy and our 
country.
    Mr. Stanton. Thanks for the answer.
    The next question is for Mr. Shaw.
    What assistance has your employer provided employees who 
unfortunately have contracted COVID-19 or those that have been 
exposed to COVID-19?
    Mr. Shaw. Thank you for the question, Congressman.
    The assistance that my employer has provided is basically 
the Federal FMLA, Families First COVID. They have put them out 
of work and given them the 40 hours. That is about it.
    Mr. Stanton. All right. Thank you for that, I guess, 
unfortunate answer, but I appreciate the answer itself.
    Ms. Carr, United, like other major airlines, requires 
passengers to wear masks. How has this policy worked across the 
company's fleet? And are passengers generally adhering to the 
directive?
    Ms. Carr. So, as you said, this is a company policy, 
Congressman, which unfortunately means that we don't have the 
Federal backing to support this on the aircraft. If a passenger 
takes it off, the most that I can do is to ask them to put it 
back on.
    We need Federal guidelines. We need a Federal mandate that 
states you must wear this onboard the aircraft with the 
exception of taking a brief moment to have something to eat or 
drink. We have to do this to ensure that the spread does not 
happen onboard our aircrafts.
    Mr. Stanton. OK. I really appreciate your advice in that 
regard. It is well-taken. And I and the other members of the 
committee are listening.
    Thank you very much. I yield back, Mr. Chairman.
    Ms. Carr. Thank you, Congressman.
    Mr. DeFazio. OK. Thanks, Greg.
    We actually did in the Heroes Act mandate masks, given the 
reluctance of the FAA to act, to force them to act. But, also, 
should a flight attendant order someone to put their mask back 
on and they disobey, that is a criminal offense.
    Unfortunately, I think the airlines are advising their 
flight attendants, first, it might cause a conflict; secondly, 
they don't want to criminally prosecute them, their passengers. 
As opposed to, if we had a Federal mandate, this would all be 
way better.
    With that, we would turn to Representative Fitzpatrick. I 
asked before, and I was told he came back.
    He has not. OK.
    Representative Balderson.
    Mr. Balderson. Mr. Chairman, thank you very much.
    Panel, thank you for being here this afternoon and taking 
time to speak to us. And I want to also thank your companies 
and your organizations for your heroic work that has ensured 
our constituents have been able to travel and access food, 
medicine, PPE, and other necessities throughout this pandemic.
    My first question is for Mr. Randy Guillot.
    Mr. Guillot, on March 13, 2020, the administration, the 
Department of Transportation, and the Federal Motor Carrier 
Safety Administration took immediate action, issuing an 
emergency declaration to waive the hours-of-service regulations 
for motor carriers transporting essential supplies and 
equipment. This declaration ensured that my constituents had 
access to life-saving medicine, personal protection equipment, 
and food available at their local grocery stores.
    In May, the exemptions from hours-of-service rules were 
extended through June 14, 2020.
    Can you touch on the importance of these early actions?
    Mr. Guillot. Yes, sir. Thank you for your question.
    It was extremely important to have FMCSA and DOT work with 
the trucking industry to meet the needs of the shipping public. 
We had critical goods being delivered. Please keep in mind that 
these exemptions were for transportation only of those critical 
goods. And they also did not increase the number of hours 
available for a driver to drive his vehicle; it only increased 
the flexibility of his nondriving time.
    So we very much appreciate the flexibility. It met the 
needs of the industry, and it met the needs of the U.S. 
economy, allowing us to do our job.
    Thank you.
    Mr. Balderson. Thank you.
    My followup to that would be, do you believe the trucking 
industry would benefit if these exemptions were further 
extended?
    Mr. Guillot. I think it was extremely useful then and 
probably will be in the near term for critical goods. So, yes, 
I would think it deserves consideration from the agency to do 
so. Yes.
    Mr. Balderson. Thank you.
    I will stick with you. In your testimony, you note the 
trucking industry faces a shortage of more than 60,000 
qualified drivers, and you will need to hire 1.1 million new 
drivers over the next decade.
    I agree this is a major concern Congress needs to address, 
and I am a proud cosponsor of the DRIVE-Safe Act, which would 
establish an apprenticeship program to train qualified 18- to 
20-year-old CDL holders to safely operate in interstate 
commerce.
    I also understand the pandemic has increased delays for CDL 
testing, and there is a sizable backlog of testing appointments 
right now. Can you further discuss how the coronavirus pandemic 
has impacted the future workforce of the trucking industry?
    Mr. Guillot. Yes. Thank you for cosponsoring that bill. We 
have long since recognized the need in our industry to bring 
younger qualified drivers, additional safety equipment on 
trucks, to help them become the safest drivers possible that 
they can be.
    We have lost, as an industry, in a lot of cases, those 
young folks coming out of high school that may not be going to 
college, that may be going into another type of industry. So we 
very much want to improve upon that and get those young folks 
interested in our truck-driving jobs. It supports a good family 
living. And thank you for that exposure, and thank you for that 
cosponsorship there.
    Mr. Balderson. Thank you.
    As the economy improves, do you expect the trucking 
industry will be able to meet the demand of our economy this 
summer?
    Mr. Guillot. I suspect that we should be able to. 
Obviously, we are affected. Many different segments of our 
industry are laying off drivers. But, yes, I do believe the 
resilience of the trucking industry is there and that we should 
be able to meet the needs and demands of the U.S. economy going 
forward.
    Mr. Balderson. Anything else Congress could do to help to 
get back to normalcy?
    Mr. Guillot. Pass a highway bill. You know, I think I have 
been pretty consistent with that all day long.
    Mr. Balderson. Yes, you have been. OK. You have.
    Mr. Guillot. We need the infrastructure, please.
    Mr. Balderson. Appreciate your concern. I thank you again 
for your time.
    And, Mr. Chairman, I yield back.
    Mr. Guillot. Thank you.
    Mr. DeFazio. I understand that Rep. Malinowski had trouble 
unmuting and he is with us.
    Tom?
    Well, that is the note I got. OK. Maybe he is having 
trouble again.
    Then we would go to Representative Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you so much, Mr. Chairman.
    And I want to start by saying thank you to Ms. Carr, to Mr. 
Shaw, for putting yourselves on the line and continuing to come 
to work. I know that you have a lot of anxiety. And, as we have 
seen, COVID is a very contagious disease, so thank you so much 
for all the work you are doing to support our country moving 
forward.
    You know, we have heard from medical professionals that 
wearing cloth masks or face coverings protects others around 
you more than it protects yourself. And that is why it is so 
important to have a face covering when you are around other 
people.
    For transit workers doing the essential and thankless job 
of providing this critical transportation service not just to 
passengers but other essential workers, cloth face coverings 
are not enough, and it doesn't provide them with enough 
protection. I know that our frontline transportation workers 
have asked for PPE.
    I was surprised to see that, on May 28, the U.S. Department 
of Transportation announced that they would be providing 5 
million cloth face masks for public transit workers.
    This is May 28. This is 2 months, more than 2 months, after 
we all knew that COVID-19 was sweeping our country. At this 
moment, we had already crossed that terrible line of losing 
more than 100,000 lives because of COVID-19. And the Department 
of Transportation announced that it was going to provide cloth 
coverings, not proper PPE equipment.
    We are hearing it today, and I have heard it several times 
from our local transit workers in my district here in Miami-
Dade County. They have asked for proper PPE.
    And I was very fortunate to have worked closely with a 
nonprofit here in my district, where we were able to actually 
provide 2,800 KN95 masks to transit workers in Miami-Dade, 
because they were not getting the equipment. We have about 7 
million riders in Miami-Dade County every month, so you can 
imagine what they are exposing themselves to.
    And so my first question, Mr. Willis. We took action right 
away. In the CARES Act, we passed significant funding for 
transit, for the Department of Transportation to provide 
necessary equipment for their transit workers. And, in the 
House, we just passed the Heroes Act, which includes an 
additional $15 billion for transit agencies to improve worker 
safety, passenger health, and the entire system. The Senate has 
yet to vote on this bill.
    Can you speak to what this additional funding would mean 
for the health and the safety of our transit workers?
    Mr. Willis. Yeah. It is absolutely critical, because not 
only would that money go to health--and we talked about this 
earlier with, you know, farebox revenue that is lost and local 
taxpayer laws--but making sure that agencies are able to 
procure the right PPE for their frontline workers. So it is 
absolutely critical.
    But the mask issue that you raised is a good one. We know 
that transit workers in close contact with passengers every 
day, with coworkers every day, do need the type of respiratory 
protection an N95 mask or something similar would provide. The 
cloth mask, while better than nothing, is unable to provide 
them, we think, the level of protections that are needed.
    Quite honestly, I think this administration could and 
should have done a much better and earlier job of coordinating 
efforts here, of using the Defense Protection Act and other 
tools at its disposal to make sure that we are manufacturing 
the level of respiratory protections that we know are needed 
for transit workers.
    N95s are unfortunately not readily available. They are not 
always being used in the right way, quite frankly. By their 
very nature, they are supposed to be disposable, but people are 
using them over and over again.
    So really just making sure that we are thinking about 
getting masks in the right way, and the right ones, to transit 
workers and other frontline transportation employees is 
critical here. And I think the Heroes Act will definitely help, 
but I think the additional requirements that we have talked 
about here are also necessary.
    So thank you.
    Ms. Mucarsel-Powell. Thank you, Mr. Willis.
    Have you gotten any guidance from the Department of 
Transportation or HHS or any other Federal agency for transit 
agencies, how you best need to protect workers and passengers? 
Have you gotten that guidance?
    Mr. Willis. You know, they have put out a lot of guidance 
here. The problem is that it is not mandatory. Guidance is one 
thing, but we need real rules that are in place that are 
enforceable and that are going to hold employers accountable. 
That is the missing link here.
    And I think that is what Congress did in the Heroes Act, 
and then I think that could be expanded to make sure we are 
covering broader sections of the Nation. But that is what we 
really need here to make sure that employers are doing what 
they need to protect their workers.
    Ms. Mucarsel-Powell. Thank you so much.
    Mr. DeFazio. The time of the gentlelady has expired. Thank 
you.
    Someone is not muted. We are having some ghosts in the air. 
So please check that you are muted.
    We now turn to Representative Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    And thank you to all of our panelists for joining us. We 
very much appreciate it.
    My first question is for Mr. Shaw.
    First of all, thank you, Mr. Shaw, for your service to our 
country, not just abroad but also fighting on the front lines 
of this pandemic right now. And as you know very well, our 
frontline workers, transit workers such as SEPTA, have been 
tragically hit by this pandemic by paying the ultimate price, 
their lives. And yet you continue to show up to work every day, 
day-in and day-out, because you have families to feed and also 
because you want to do your part and keep our country moving.
    So I also want to thank the TWU and the Local 234 in my 
backyard here in Philadelphia for all that the union has done 
to keep workers safe at SEPTA. And I know you have been a part 
of that fight as well. The union asked for and won additional 
worker protections, more PPE, and better cleaning procedures, 
meant to keep us all safe.
    So my question, Mr. Shaw, is, are there any additional 
steps that SEPTA, you think, should be taking in response to 
this pandemic that have not yet been implemented?
    Mr. Shaw. Thank you for your question.
    We did gain some health protections, but a lot of it was, 
in my opinion, lip service. Sanitation of the buses, cleaning 
the buses and the system--not just the buses, but the trains 
and the platforms--is not being done to CDC standards. We have 
moved back to front-door operations and collecting fares. And 
now we have lost the sanitation runs, where there were drivers 
that would opt to take these runs and clean and wipe down. We 
need more sanitation. We need better filtration on the buses 
and the trains.
    So the concessions, they didn't concede. They just 
basically, to my opinion, did lip service. We have lost stuff. 
We have lost safety procedures now that we have gone back to 
collecting fares and gone back to the front doors. We need more 
oversight to force the Authority to sanitize these buses, 
trains, and platforms.
    Mr. Fitzpatrick. Thanks, Tom. What could we be doing to 
help with that?
    Mr. Shaw. We could implement the sanitation runs again. We 
can bring them back. And then enforce that the sanitation runs 
are filled and that they are there, especially as you get later 
into the night. There were no late shifts. But enforcement of 
the runs and having the people out there sanitizing.
    Mr. Fitzpatrick. Got it. Thanks, Tom. And thank you so much 
for your service. You guys are warriors, and we really 
appreciate you and the union and all you do to keep us safe, 
including my constituents in Bucks and Montgomery Counties. So 
thank you, Tom.
    My second and final question is for Larry Willis, president 
of TTD.
    So, Larry, Congressman Malinowski and I, along with about 
150 of our colleagues, sent a letter to the FTA Administrator 
in April urging updated guidelines on an increase in PPE 
allocations for transit workers.
    So I was wondering, Larry, if you could just share with us, 
what more FTA and we at the Federal level could be doing to 
support the transit workers that you represent.
    Mr. Willis. Well, thank you, Congressman, not only for the 
question but the leadership you played on that letter and so 
many other issues. You are a good friend, and we appreciate 
what you are doing there.
    You know, I think what Tom said about what is going on is 
unfortunately what we are seeing across the country. I think, 
as you talk to other locals at TWU, ATU, SMART, the other 
unions that represent transit workers, they would tell you 
similar stories.
    So I think getting it [inaudible] to make sure, again, that 
they are requiring these agencies to actually abide by what CDC 
is saying is what we need to do. It is why the legislative 
solutions that we have talked about here and that are included 
in the Heroes legislation have to be a part of that discussion 
as well.
    We just can't leave it up to individual transit agencies to 
decide when and how they are going to protect workers. Rear-
door boarding was the right idea to try to create some social 
distancing. Granted, they lost revenue on that. But we can 
think creatively about how to both collect revenue and make 
sure that these drivers and passengers are protected to the 
greatest degree that we can. We need to do better on that 
front.
    So, again, thank you for what you have done here.
    Mr. Fitzpatrick. Thanks, Larry. And thank you, Tom. Both of 
you, thank you for your service. And we have your back on this 
committee. We appreciate the work you do.
    Mr. Chairman, I yield back.
    Mr. DeFazio. Thank you.
    Representative Finkenauer?
    Representative Garcia?
    Mr. Garcia. Thank you, Mr. Chairman and Ranking Member, for 
this very important hearing.
    The COVID-19 pandemic has affected us all, and those in my 
Chicago district particularly hard. Many have lost jobs and 
have experienced some of the highest infection rates in the 
State of Illinois.
    In Chicago, like the rest of the country, black and brown 
communities make up a disproportionate number of frontline 
workers who bear the brunt of this deadly virus.
    I ask for unanimous consent to add three articles into the 
record from the New York Times, the Chicago Tribune, and the 
Los Angeles Times that demonstrate the disproportionate impact 
COVID has had on communities of color, including an article 
entitled ``The Price of Being `Essential': Latino Service 
Workers Bear Brunt of Coronavirus.''
    Mr. DeFazio. Without objection.
    [The information is on pages 92-108.]
    Mr. Garcia. Thank you, Mr. Chairman.
    And as we are discussing, frontline workers include our 
transportation workers. They both provide an essential service 
and also get other essential workers to their jobs. In urban 
areas and especially for those in the northwest and southwest 
sides of Chicago, working-class neighborhoods, many healthcare 
workers, grocery store workers, and janitors rely on bus and 
transit operators to get to their jobs. They do this every day, 
even while risking their health and their family's health in 
the process. They deserve our thanks, but, far more than that, 
they deserve our protection. These workers are essential and 
not expendable.
    That is why the CARES Act provided some help, but didn't go 
far enough. In contrast, the Heroes Act would help further by 
extending airline worker pay protection, adding PPE 
requirements, and making more workers eligible for hazard pay. 
It would also help provide much-needed funding to State and 
local governments, as we all know.
    A question for Mr. Willis.
    Your written testimony mentioned the importance of State 
revenues in maintaining our transportation infrastructure. What 
impact would you anticipate if State and local governments 
don't receive more financial support during this crisis?
    Mr. Willis. Well, thank you, Congressman.
    You know, I believe that the State aid that was included in 
the Heroes Act is absolutely essential to stabilizing the 
economy and to financially protecting so many workers that rely 
on their State and local governments for their employment and 
the services they provide for our fellow citizens. So that has 
got to be part of any relief package that Congress considers.
    On the transportation side, we have already talked about it 
here. We know that State DOTs have seen a fall-off in revenue 
from both highways and transit. I think that is having 
immediate impact. If you look at the employment levels in April 
for construction on the highway and roadside, it is the biggest 
single-month drop. Even though construction overall has been a 
little bit better, if you go back and look at April, that is 
the biggest drop in employment levels that they have ever seen 
at the BLS for that workforce since they started collecting 
data in 1990. And I think a lot of that goes to the State and 
local revenue problem that you have raised.
    So I think, overall, States need the assistance. I think it 
is also critical to the transit agencies and to the State 
highway and transportation authorities that rely on these funds 
as well.
    So, again, thank you for the question. It is an absolutely 
critical issue for us in the labor movement.
    Mr. Garcia. Great. Thank you, Mr. Willis.
    Mr. Byrd, in your testimony, you mentioned that there are 
safety implications working under suspended hours-of-service 
regulations. And what can Congress do to ensure that we are 
prioritizing driver safety while also supporting the supply 
chain?
    Mr. Byrd. Thank you for the question.
    What can we do? I think that, you know, during this crisis, 
it is certainly understandable that there were suspended hours-
of-service regulations. What our concern is, is that, while 
there are suspended hours-of-service regulations for those 
drivers who are responding to the COVID crisis, there was 
rulemaking done that further, in our opinion, weakened the 
safety standards for short-haul drivers.
    I think it is just important that we are mindful that, you 
know, truck drivers--there are a limited number of hours that 
they can safely operate. And we just would like to see no 
further degrading of safety standards while we are in the midst 
of this pandemic.
    Mr. DeFazio. OK. Thank you.
    Mr. Garcia. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. DeFazio. Yep. Thank you.
    Representative Cohen.
    Steve? Unmute, Steve.
    OK. He must have had to go. All right.
    Sam, I see you are still with us. Do you have any closing 
remarks?
    Mr. Graves of Missouri. I couldn't get it off mute.
    I don't. I think it has been a good hearing. I think that, 
you know, a lot of good information.
    Mr. DeFazio. OK. Great. Thank you.
    I think the experiment worked. I was skeptical, and we did 
have a little initial problem with the mixed use, but I think 
it worked out well, and I think it bodes well for the future.
    So thanks, everybody, for participating and hanging in.
    Thanks to our witnesses. Three and a half hours, that is a 
long time. I appreciate that. And we will hope to act on some 
of the suggestions received here today.
    With that--let's see. I have to find my proper closing 
script. Can I just adjourn the hearing? Is there anything I 
have to say?
    The record remains open for 15 days.
    And, with that, the hearing is adjourned.
    [Whereupon, at 4:27 p.m., the committee was adjourned.]


                       Submissions for the Record

                              ----------                              

 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
  from the State of Washington, and Chairman, Subcommittee on Aviation
    Thank you, Chair DeFazio, for calling today's hearing on ``On the 
Front Lines: The Impacts of COVID-19 on Transportation Workers.'' The 
past few months have been unprecedented times for the country and U.S. 
transportation. The COVID-19 pandemic has devastated ridership across 
all modes of transportation, shaken passenger confidence, delayed 
critical infrastructure projects and triggered layoffs throughout the 
industry. Today's hearing is an important opportunity to hear directly 
from individuals representing the hardworking women and men of the U.S. 
transportation workforce on the frontlines who risk their own health to 
keep the country moving safely.
    My top priority is the health and well-being of all Washingtonians. 
The impacts of the ongoing pandemic are seen across industries. In 
Washington state, the pandemic has hit the maritime industry 
particularly hard. In my district, more than 100 crew members from 
three fishing vessels tested positive for COVID-19 last week, many of 
whom were asymptomatic. The crew is quarantined and vessels, which 
offloaded at the Port of Bellingham, are currently anchored in the 
Bellingham Bay and Port of Seattle waiting for further directions. 
Washington state's maritime sector, including its commercial fishing 
and seafood industry, support 148,000 jobs and contributed $30 billion 
to the state's economy revenue. With the upcoming fishing seasons in 
the Pacific Northwest fast approaching, this incident underscores the 
importance of rapid COVID-19 testing for frontline transportation 
workers to ensure the economy can operate safely during the pandemic.
    To ensure the health and safety of the U.S. transportation 
workforce, Congress, the federal government and relevant stakeholders 
must develop and implement guidance for appropriate working conditions. 
Paramount to these efforts is access to personal protective equipment 
(PPE) and cleaning/sanitation materials for frontline workers. The 
HEROES Act, which the House passed last month, strengthens working and 
travel conditions for the transportation workforce and the traveling 
public by requiring masks and/or face coverings for workers and 
passengers on Amtrak trains, domestic commercial flights and some modes 
of public transit. Although it took far too long and needs to expand, I 
am encouraged to see the U.S. Department of Transportation (DOT) 
support frontline transportation workers by providing 15.5 million 
cloth facial coverings. In my home state, the Washington State 
Department of Transportation (WSDOT) expects a delivery of 5,500 masks 
from the Federal Transit Administration (FTA) to distribute to smaller 
transit agencies, tribes and nonprofit organizations.
    Although most Americans continue to follow public health guidance 
to avoid nonessential travel, air travel is starting to increase. 
According to the latest data, nearly 9,000 passengers passed through 
Transportation Security Administration (TSA) checkpoints at Seattle-
Tacoma International Airport on June 3, up from approximately 7,000 
passengers on May 28. As Chair of the House Aviation Subcommittee, I am 
committed to working with the administration, industry and labor unions 
to ensure the health and safety of U.S. airline pilots, flight 
attendants and crew, and airport workers. Recently, Chair DeFazio and I 
sent a letter to Airlines for America and the National Air Carrier 
Association calling for carriers to better comply with public health 
recommendations on cleaning, sanitation and social distancing, on the 
ground and in the air.
    Throughout the COVID-19 pandemic, public transit agencies have been 
at the forefront of carrying out policies to protect riders and transit 
operators. In my district, Island Transit, Community Transit, Whatcom 
Transit Authority and other local transit authorities implemented rear-
door boarding and installed protective shields to maintain a safe 
distance between riders and transit operators, where feasible, and 
suspended fare collection to help comply with social distancing 
guidance. In addition, transit workers regularly disinfect buses, 
ferries, trains and worker facilities. Congress must increase federal 
investment in future relief packages to support state and local transit 
agencies' efforts to preserve jobs, expand access to PPE and other 
safety measures.
    In my home state, transportation means jobs. However, the COVID-19 
pandemic has had a devastating impact on the aviation and aerospace 
industry in Washington state and across the country. Recently, the 
Boeing Company announced it is laying off nearly 10,000 employees in 
Washington state and more than 12,000 employees nationwide in the 
upcoming weeks. Small and medium-sized aerospace suppliers and 
maintenance/repair stations in my district, such as Aviation Technical 
Services in Everett, were forced to lay off hundreds of employees. 
Further, some airlines are already discussing the possibility of 
furloughing thousands of employees by the end of the year. While the 
CARES Act was a significant step in the federal government's COVID-19 
response, Congress has more work to do to help keep employees on 
payroll throughout the pandemic. Congress must work to extend the 
prohibition on involuntary furloughs of aviation employees through the 
expiration of the CARES Act if federal relief was accepted, expand sick 
and family leave, and improve unemployment benefits for transportation 
workers laid off during the pandemic.
    Americans can and will get through this difficult time together. I 
want to acknowledge and thank the dedicated frontline transportation 
workers who are ensuring the sustainability, safety and efficiency of 
the U.S. transportation network. Your efforts will not be in vain. As 
parts of the country enter new phases of reopening, Congress, guided by 
public health, must continue to provide relief to protect Americans' 
health and economic futures. Again, thank you, Chair DeFazio, for 
calling today's hearing, and thank you to today's witnesses for your 
insights.

                                 <F-dash>
Statement of the American Bus Association, Submitted for the Record by 
                      Hon. Sam Graves of Missouri
    Chairman DeFazio, Ranking Member Graves, and distinguished members 
of the Transportation and Infrastructure Committee, on behalf of the 
American Bus Association (ABA) thank you for calling today's important 
hearing. We are submitting testimony for the record on behalf of the 
motorcoach industry.
    ABA wants to start by thanking Chairman DeFazio for the April 24th 
letter he coauthored with Chairman Neal to Secretary Mnuchin and 
Chairman Powell requesting the Treasury Department and Federal Reserve 
provide at least $5 billion in loans to over-the-road bus carriers 
under the Economic Stabilization and Assistance to Severely Distressed 
Sectors of the U.S. Economy program of the CARES Act. Unfortunately, 
the letter has so far gone unanswered and the funds requested have not 
been provided. Nonetheless, we appreciate Chairman DeFazio standing 
with the motorcoach industry, and ask for his continued support.
    The ABA is the oldest, largest, and most respected voice of the 
motorcoach, tour and travel industries. Our Association represents 
private motorcoach operators, tour operations and all facets of small 
businesses supporting the travel industry. Our motorcoach members are a 
vital component of the national public transportation network, and are 
employees proudly provide intercity scheduled bus service, commuter and 
shuttle operations, school bus transportation, charter operations, and 
in some cases contract services for public transit authorities. 
Collectively, the motorcoach industry is a $15 billion industry, 
directly employing close to 100,000 employees, and providing nearly 600 
million passenger trips annually, a statistic on par with the domestic 
commercial airline industry.
    However, the Corona Virus Disease 2019 (COVID-19) outbreak has 
decimated the motorcoach industry, and it is struggling to survive. As 
your Committee reviews the impact of COVID-19 on transportation workers 
and develops further actions necessary to counteract these negative 
impacts, the ABA implores you to ensure the workers of the motorcoach 
industry are not forgotten. We appreciate Representative Katko 
highlighting the plight of our industry at the hearing, as well as 
Larry Willis, President of the Transportation Trades Department, AFL-
CIO commenting orally and through his written testimony noting how 
critical the U.S. motorcoach industry is to the national transportation 
network and the importance of ensuring Congress provides assistance to 
the sustain the industry through this pandemic crisis, stating ``We 
also believe emergency supplemental funding is needed for the 
motorcoach industry and its heavily impacted workforce.''
    Not surprisingly, based on our membership, ABA members and their 
employees are at the center of the COVID-19 ``storm''. With the 
worldwide outbreak continuing to effect the global economy, the 
devastating impact on travel and transportation operators cannot be 
understated. The daily cancellation of trips and gatherings along with 
the cancellation of school, compounded by broadly publicized reports 
warning workers and travelers away from public modes of transportation, 
is taking a serious toll. As an industry dominated by small, U.S. 
entrepreneurial businesses, many of which are multigenerational family 
businesses, unlike larger corporate interests, many of our members and 
their employees are not prepared to withstand this significant economic 
downturn. The current situation is far worse than the downturn 
following the tragic events of September 11, 2001. At that time, 
although fear of travel was a factor, particularly travel by air and to 
larger urban areas, travel did continue by motorcoaches and to other 
venues. Timing also plays a factor. For example, springtime is the 
largest travel period for the industry with most being student 
educational and recreational activities. But with the COVID-19 
outbreak, spring 2020 will likely go down as the worst travel season on 
record.
    We are hearing daily from our members struggling to survive. In 
March, as urban centers across the country shut down, along with 
schools, and travel in general, the motorcoach industry came to a 
standstill, practically overnight. Travel contracts are now cancelled 
through the summer; offices closed and workforces converted to 
teleworking; school, sporting events, concerts and conventions all 
cancelled. An industry comprised of 3,000 companies, with a fleet size 
of 36,000 vehicles, was forced to lay-off or furlough close to 100,000 
employees and idle the entire fleet. For many operators, the spring 
season provides close to 50-60% of their annual revenue, with the fall 
time period providing the next financial boost for the year, based on 
school related travel. But not this year. The pandemic has left a 
successful, independent industry and its workers, completely decimated.
    Further, as economies begin to reopen and businesses start to 
restore or resume normal operations, the motorcoach industry will lag 
behind, for an extended period of time. Continuing concerns about the 
virus and travel by mass transit, directives from the Center for 
Disease Control calling for on-going social distancing requirements, 
and restrictions and cancellation of school field trips and 
extracurricular activities, coupled with increased costs for sanitizing 
and ensuring the health safety of vehicles, will interfere with any 
effort for the motorcoach industry to recover. At this point, the 
industry outlook for recovery is, at best, about 24 months or longer. 
Also, unlike its counterparts in the air, rail and public transit 
arena, the motorcoach industry has received little to no assistance to 
support it through this pandemic crisis.
    Yet, when called upon during these troubled times, there have been 
several ``heroic'' services provided by motorcoach operators and their 
employees, who have managed to continue operations on the front lines, 
albeit operating at only 5-15% capacity. These operators, and their 
drivers particularly, have provided essential service to bring needed 
nurses and medical staff to numerous medical facilities like the Mayo 
Clinic, and into New York City, at the height of the outbreak. Last 
week, motorcoaches and their drivers conducted an emergency evacuation 
of a retirement community, moving 150 people in under an hour. In May, 
motorcoaches were also portside, providing service to cruise line 
passengers stranded on COVID-19 infected ships when they were finally 
permitted to disembark. Motorcoaches operators have also continued to 
meet the needs of the U.S. Department of Defenses, moving military 
personnel and their equipment. Operators, such as Greyhound instituted 
a special program to provide travel for responders who left their home 
town to help out other towns in need of additional support during the 
outbreak; and Coach USA, who offered buses for medical workers, 
equipment and supplies. Now, these front line operators and their 
drivers are bracing for what is expected to be a highly active storm 
season, because these motorcoaches are a key component of the nation's 
emergency response capabilities for moving people out of harm's way.
    We also want to highlight what ABA and its safety task force of 
industry peers is doing, in terms of supporting the recovery effort, 
when it comes, by ensuring our workers and the public are confident 
about riding motorcoaches again. Our members have workers that are 
anxious to get back to work, and they want to welcome passengers back 
and ensure they are confident about riding in motorcoaches again. For 
this purpose, the task force prepared guidelines for member companies 
to follow to protect employees, those in the office as well as on the 
motorcoach, appreciating that there is no return to business without a 
safe and secure workforce. These guidelines include employee protective 
measures, vehicle maintenance and cleaning, customer care, and other 
protocols to assist employees with interacting with colleagues, 
partners and customers in a safe manner. Also, the Task force is taking 
into account passenger needs for assurance that they are traveling 
safely, not only in safely operating and maintaining the vehicle, but 
also with clean, disinfected vehicles to minimize the risk of exposure 
to COVID-19. Safety has always been our industry's number one priority, 
and this safety mission has expanded in the wake of the COVID-19 
pandemic to better address the health and welfare of our workforce and 
our passengers.
    We appreciate you holding this hearing to discuss the important 
role of transportation workers and the essential services provided by 
our transportation providers during this pandemic, and especially want 
to highlight the critical role of the motorcoach workforce. As Congress 
continues to seek ways to assist with the recovery of the national 
economy and the return to normal operations in the wake of this COVID-
19 pandemic, we hope this Committee will engage and develop measures to 
sustain the motorcoach industry through this unprecedented economic 
crisis. Specifically, we need Congress to provide dedicated funding for 
the motorcoach industry businesses and their employees to ensure the 
viability of this critical aspect of the national transportation 
network. Specifically, to preserve jobs and keep continuity of 
operations, the industry needs $10 billion in grants and $5 billion in 
long term, low interest loans. This historically successful industry is 
not looking for a permanent funding commitment, but a bridge to keep 
its workforce employed and survive this unprecedented economic crisis. 
If the motorcoach industry and its workforce does not receive help, 
motorcoaches will not be available to connect rural communities to 
necessary resources, to take commuters to necessary jobs, to provide 
the only means of travel for some low or fixed-income travelers, to 
assist when the next hurricane hits and people need evacuation, or to 
assist in moving military personnel. Timing is critical, and ABA stands 
ready to assist the Committee in its role moving forward.

                                 <F-dash>
``Many of Chicago area's essential workers are people of color and live 
    in lower-income neighborhoods, new analysis says,'' by Jessica 
 Villagomez, Chicago Tribune, April 27, 2020, Submitted for the Record 
              by Hon. Jesus G. ``Chuy'' Garcia of Illinois
 Many of Chicago area's essential workers are people of color and live 
            in lower-income neighborhoods, new analysis says
by Jessica Villagomez

Chicago Tribune, April 27, 2020
https://www.chicagotribune.com/coronavirus/ct-coronavirus-analysis-
essential-workers-20200427-wt3idxtkprbz3fzfeptremtl5e-story.html

    A disproportionately high number of essential worker jobs in the 
Chicago area are held by people of color and those who live in lower-
income neighborhoods, according to a new analysis by the Chicago 
Metropolitan Agency for Planning.
    The analysis categorized essential workers by using 12 occupation 
categories released by the Bureau of Labor Statistics. The categories 
include employees who work in health care support, building and ground 
maintenance, transportation and construction.
    ``This is our first pass at trying to take a look at a regional 
level at who our essential workers are,'' said Simone Weil, principal 
for policy at the agency.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 More than 54% of essential workers in the Chicago area are people of 
   color, compared to 44% of all regional workers, the study found. 
 Essential workers include those who work for the CTA, Pace and Metra. 
                (Terrence Antonio James/Chicago Tribune)

    More than 54% of essential workers are people of color, compared 
with 44% of all workers in the region, the study found. Black workers 
are most overrepresented in health care support and protective services 
jobs, whereas Hispanic workers are overrepresented in both construction 
and food service industries, according to the analysis.
    Many essential workers live on the South and West sides of the 
city; in nearby south, southwest and west suburban Cook County; and in 
job centers in Lake, DuPage and Will counties, according to the 
analysis.
    The analysis also found that 1 in 4 essential workers lives in a 
census tract that has a median household income at least 30% below the 
regional median of $70,500.
    However, the estimates excluded workers in some industries that 
have become essential during the coronavirus pandemic. For example, 
grocery store employees are classified under a nonessential occupation 
role as retail sales workers.
    Austen Edwards, a senior policy analyst at the agency, said the 
analysis speaks to new and long-running economic pressures that workers 
in these sectors are facing. In beginning to examine data, Chicago can 
better look at how to provide better equitable access to education, 
health care and government services, he said.
    ``It speaks to longer-term trends in employment that we continue to 
see play out today,'' he said. ``When we're thinking of coronavirus and 
the shift to long-term recovery, we need to have a strong understanding 
of long-term trends and what opportunities are being presented to 
workers.''
                                 <F-dash>
``The price of being `essential': Latino service workers bear brunt of 
 coronavirus,'' by Hailey Branson-Potts, Alejandra Reyes-Velarde, Matt 
Stiles, Andrew J. Campa, Los Angeles Times, May 17, 2020, Submitted for 
        the Record by Hon. Jesus G. ``Chuy'' Garcia of Illinois
 The price of being `essential': Latino service workers bear brunt of 
                              coronavirus
by Hailey Branson-Potts, Alejandra Reyes-Velarde, Matt Stiles, Andrew 
J. Campa

Los Angeles Times, May 17, 2020
https://www.latimes.com/california/story/2020-05-17/latino-essential-
workers-coronavirus
accessed at https://finance.yahoo.com/news/price-being-essential-
latino-workers-130044345.html

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Certified nursing assistant Rosa Arenas has been home quarantining 
  since May 2 after testing positive for COVID-19 at her apartment in 
              Orange. (Gary Coronado / Los Angeles Times)

    For Lupe Martinez, who does the laundry at a Riverside nursing 
home, each day presented an agonizing choice: Go to work and risk 
getting the novel coronavirus or lose the $13.58-an-hour paycheck her 
family relies upon.
    Martinez went to work.
    Even after the masks started running low. Even, she said, after a 
patient whose room she had entered without protective equipment fell 
ill and was put into isolation.
    Martinez, 62, tested positive for COVID-19 last month, followed by 
her 60-year-old husband, who had to stop working after having a heart 
attack last year. Her adult son and daughter, who live with them, also 
tested positive.
    ``There were many times I didn't want to go to work,'' said 
Martinez, coughing heavily as she spoke. ``I didn't want to get sick. 
My husband said, `Don't.' I said we can't live. We have these bills. . 
. . I had to push myself to go. I had a commitment to my family.''
    For low-paid employees whose work is rarely if ever glorified--the 
people who clean the floors, do the laundry, serve fast food, pick the 
crops, work in the meat plants--having the jobs that keep America 
running has come with a heavy price. By the odd calculus wrought by the 
viral outbreak, they have been deemed ``essential.'' And that means 
being a target.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Rafael Saavedra at his home in Alhambra. The truck driver, whose pay 
  has been cut in half, fears infecting his daughters at home. (Gary 
                     Coronado / Los Angeles Times)

    Along with blacks, Latinos have borne the brunt of the COVID-19 
pandemic in California and other parts of the United States, becoming 
infected and dying at disproportionately high rates relative to their 
share of the population. Health experts say one of the main reasons 
Latinos are especially vulnerable to COVID-19 is because many work in 
low-paying jobs that require them to leave home and interact with the 
public.
    Latinos comprise about 40% of California's population but 53% of 
positive cases, according to state data. In San Francisco, Latinos 
comprise 15% of the population but make up 43% of the confirmed COVID-
19 cases as of Saturday.
    UC San Francisco researchers tested thousands of people in the 
city's Mission District for COVID-19. While Latinos made up 44% of the 
people tested, they accounted for more than 95% of the positive cases. 
About 90% of those who tested positive said they were unable to work 
from home.
    A Los Angeles Times data analysis last month also found that 
younger Latinos and blacks were dying at disproportionately high rates, 
belying the conventional wisdom that old age is the primary risk factor 
for death.
    Latinos in California are significantly less likely than whites, 
Asians and blacks to say that working from home amid the pandemic is an 
option, according to a new poll of California voters from the UC 
Berkeley Institute of Governmental Studies.
    Some 42% of Latinos polled said they could work from home, compared 
with 53% of blacks, 59% of Asians and 61% of whites. The poll also 
showed that Latinos were nearly three times more likely than whites to 
be concerned about their jobs placing them in close proximity to 
others. This was a particular problem in the first weeks of the 
pandemic, when masks and other protective gear were in shorter supply 
and many businesses were still trying to implement social distancing 
policies.
    ``They feel essential; they're trying to do their part to get us 
out of this crisis,'' said Jose Lopez, a Los Angeles-based spokesman 
for the Food Chain Workers Alliance. ``Yet we can't provide face masks. 
We can't give them the space to give them six feet of separation 
between their co-workers.''
    A Times analysis of U.S. Census Bureau data shows that Latinos make 
up just under 40% of the workforce across all industry sectors deemed 
essential by the California state government, consistent with their 
share of the statewide population. But in some sectors, they are 
greatly overrepresented.
    In essential agriculture jobs, the workforce is more than 80% 
Latino. They also hold more than half of essential food jobs and nearly 
60% of construction jobs deemed essential. At the same time, Latinos in 
the U.S. are more likely than the overall population to say they or 
someone in their household has experienced a pay cut or lost a job amid 
the pandemic, according to a Pew Research Center survey in April.
    For weeks, Dr. Marlene Martin, an assistant clinical professor at 
UC San Francisco and a physician at Zuckerberg San Francisco General 
Hospital, has watched as Latino patients with COVID-19 have streamed 
into the emergency room. More than 80% of the hospitalized coronavirus 
patients at the facility were Latino as of last month.
    They have been roofers, cooks, janitors, dishwashers and delivery 
drivers. Many were under 50. They lived in households where social 
distancing is difficult, sometimes with two or three other families. 
For Mart!n, a 36-year-old Latina, stepping into the intensive care unit 
sometimes feels like being confronted with an unsettling mirror.
    ``It was already full of people who look like me,'' she said, ``who 
share a common language and similar cultural backgrounds.''
    ``You see the extremes of what happens when someone can shelter in 
place or someone can't. It's not that people don't want to stay home. 
It's not that they're not listening. It's not that they're not 
educated. It's that they don't have an option.''
    The coronavirus' heavy toll on Latinos raises questions about 
whether employers across the U.S. and the government are doing enough 
to protect these workers.
    In Iowa, Latinos make up about 6% of the population but have 
accounted for a quarter of all positive cases, according to the state's 
tally. In Washington state, Latinos represented 35% of all positive 
cases, even though they only make up 13% of the population.
    The balance between keeping Latino essential workers safe and 
depending on their labor is being tested in the city of Hanford, where 
a coronavirus outbreak at a meat-packing plant now accounts for half of 
the confirmed cases in Kings County.
    About 180 employees at Central Valley Meat Co. had tested positive 
as of Tuesday, according to County Supervisor Doug Verboon. Most of the 
employees at the facility--who work in close proximity amid ``moist and 
wet working conditions''--are Latino, he said. Central Valley Meat did 
not respond to calls or emails from The Times.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Karla Barrera is a deli manager at a grocery store in Sun Valley and 
 the mother of two. ``I'm so scared for my babies. I'm praying that I 
   don't have it,'' Barrera said. (Dania Maxwell / Los Angeles Times)

    Verboon said the county is depending on even more Latino workers 
during the current cherry-picking season, which lasts until mid-June. 
He said one Hanford fruit-packing company that employed 800 workers to 
pick cherries told him that an outbreak similar to the one at Central 
Valley Meat Co. would be ``catastrophic.''
    ``We can't have those people get ill because we have a short window 
of work,'' Verboon said.
    Lupe Martinez started at Alta Vista Healthcare & Wellness Centre in 
Riverside last July after her husband, a sheet metal worker and the 
family breadwinner, had a heart attack and had to stop working.
    In the laundry room, Martinez--a member of the Service Employees 
International Union Local 2015, which represents some 400,000 home care 
and nursing home workers in California--was surrounded by mostly 
Latinos and Filipinos. A lot of her colleagues work two jobs or pull 
double shifts, washing heavy comforters and blankets, cleaning shower 
curtains, handling patients' linens.
    Martinez's family asked her not to go as the virus began spreading 
in California.
    ``I told them, `I'm going to trust God. I'm not going to get it,' 
'' she said. ``I'd go to work. I'd worry.''
    A few weeks ago, Martinez said, she walked into the room of an 
elderly woman to bring her clean clothes. Usually, there is a notice on 
the door if a patient has an illness that requires staff to put on 
gloves, masks or other gear, she said. There was nothing posted, 
Martinez said, so she entered unmasked.
    Martinez said the woman told her she was feeling sick. A few days 
later, a sign on the door said she was in isolation.
    Alta Vista Healthcare & Wellness Centre did not return calls or 
emails seeking comment.
    On April 13, Martinez came home with a sore throat, dry cough and 
aching body. She couldn't taste the tea her son brought her. She 
struggled to breathe. She went to the hospital before and after a 
positive COVID-19 test and was sent home, told to try and self-isolate.
    When her husband, son and daughter who live in the house tested 
positive, she lay in bed, crying out to God.
    Another son and his wife live in a back house on the property. He's 
a barber. She's a dental hygienist. They are not currently leaving home 
to work. They have not gotten COVID-19.
    Because she had not yet worked at the nursing home a year, Martinez 
said, she was not eligible for sick pay. She has applied for state 
disability but has not yet heard back. Martinez said she feels she has 
to return to work.
    ``My kids don't want me to go back,'' Martinez said. ``But I have 
bills. I know it's my life, but--I don't know.''
    Rosa Arenas, another union member and certified nursing assistant 
at an Orange nursing home, said she got tested after learning a patient 
had tested positive for COVID-19 last month. On May 2, Arenas tested 
positive.
    Now, she is isolated in one bedroom of her family's apartment, away 
from her husband and two children, ages 12 and 6, who have tested 
negative. She spent Mother's Day reading the Bible alone and video-
chatting with her children and husband from the other side of the door.
    ``My kids told me they were sad they weren't going to give me a 
Mother's Day hug,'' Arenas, 32, said. ``It broke my heart.''
    She said there was not enough personal protective equipment at work 
and that colleagues have become infected. Her husband, a landscaper, 
recently was sent home by his employer to quarantine and be tested, and 
she has burned through all her paid vacation and sick time while 
quarantining at home. And she misses working.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Rafael Saavedra, 40, outside his home last week in Alhambra. (Gary 
                     Coronado / Los Angeles Times)

    When Rafael Saavedra, a 40-year-old truck driver from Alhambra, 
returns home from work, he undresses in his garage, throws his clothes 
in the washing machine and rushes to the shower, careful not to touch 
anything inside. His greatest fear is infecting his daughters, ages 16 
and 6.
    At a San Pedro dispatch center, where he and hundreds of other 
drivers drop off paperwork and take breaks, he hardly ever finds soap 
or hand sanitizer.
    Employees who normally work in the center are now working remotely, 
and there's little communication with drivers about how they can stay 
safe, Saavedra said. Drivers were given a single, thin mask about a 
month ago and nothing else, he said.
    Saavedra said the vast majority of drivers he works with are Latino 
immigrants who are struggling to navigate the pandemic because of 
language barriers and a lack of resources.
    ``They don't know their rights. They're scared of talking. They 
stay in their cocoon,'' he said.
    Saavedra has carved out a comfortable life for his family. He 
travels often with his wife and daughters, who attend private Christian 
schools. But his paycheck has been cut in half due to reduced hours. He 
fears losing his house.
    His wife, a nurse at a Pasadena homeless shelter, cut down her own 
hours out of fear of catching the virus and infecting their daughters.
    Sonia Hernandez, who raised four children as a single mother, has 
worked as a cook at a McDonald's in Monterey Park for 18 years and 
makes just over $14 an hour, said her daughter, Jenniffer Barrera 
Hernandez.
    In early April, Hernandez was hospitalized with COVID-19 and went 
into an induced coma for weeks.
    ``They told us she wasn't going to make it through the day and we 
had to decide whether she wanted to go in peace or do chest 
compressions to try and get a pulse,'' Barrera Hernandez said. ``It was 
really hard to make that decision.''
    Miraculously, Barrera Hernandez said, her mother woke up.
    After her diagnosis, Hernandez's co-workers walked off the job to 
demand safety supplies, including masks, gloves, soap and hand 
sanitizer. Barrera Hernandez said after she called McDonald's to alert 
the company her mom had tested positive, she did not get a call back.
    ``That's really sad, because my mom really liked that job. You 
provide for a company for so long, and at the end you're just a 
number.''
    Hernandez is recovering in her South L.A. home. She is extremely 
fatigued and unable to walk or even hold a phone for very long, her 
daughter said. She feels guilty she can't go back to work yet.
    David Tovar, McDonald's U.S. vice president of communications, said 
many of Barrera Hernandez's and some employees' statements were false.
    He said McDonald's restaurants, including the one where Hernandez 
worked, have had an ample supply of soap, hand sanitizer and cleaning 
supplies and close overnight once per week for deep cleanings. Tovar 
said restaurants have been open for takeout only, with social 
distancing requirements enforced and bathrooms closed.
    When McDonald's learned of Hernandez's diagnosis on April 8, the 
company immediately informed four crew members who she had been in 
contact with, he said.
    ``We have the utmost respect for Ms. Hernandez and all the 
employees at McDonald's, but it's unfair to let them try to tell a 
story to you that's simply not true,'' Tovar said. ``We are a very 
large employer of diverse employees, particularly Latinos. We want 
everyone who comes to work for McDonald's to have a good experience.''
    When Mariana Lui's mother got a letter from her employer in March 
that labeled her an essential worker, she announced it with a sense of 
pride.
    Lui's mother, an undocumented immigrant from Mexico who works at a 
San Fernando food production warehouse that makes meals for schools, 
told her daughter that she had never before been deemed ``essential.'' 
Now, she said, people needed her.
    But then her colleagues, many of them undocumented Latinas, started 
getting sick. They stopped showing up on the assembly line, where, she 
said, they stack ingredients onto sandwiches while standing shoulder to 
shoulder.
    Lui's mother spoke to The Times on the condition of anonymity 
because she feared losing her job. Lui, who also spoke to The Times, is 
a 31-year-old legal administrative assistant in Whittier with a 
different surname than her mother.
    Lui's 50-year-old mother said colleagues were taking aspirin and 
continuing to work, despite having fevers and headaches. Then she 
started showing symptoms.
    ``I was getting tired at work and I had a little bit of a cough,'' 
she said. ``I didn't think it would be something so serious, so I kept 
going to work for three or four days.''
    A few days later, she tested positive for COVID-19.

                                 <F-dash>
  ``Subway and bus workers are bearing a disproportionate coronavirus 
 death toll,'' by Dana Rubinstein, Politico, April 7, 2020, Submitted 
      for the Record by Hon. Jesus G. ``Chuy'' Garcia of Illinois
Subway and bus workers are bearing a disproportionate coronavirus death 
                                  toll
by Dana Rubinstein

Politico, April 7, 2020
https://www.politico.com/states/new-york/albany/story/2020/04/07/
subway-and-bus-workers-are-bearing-a-disproportionate-coronavirus-
death-toll-1273457

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           A crowded subway stop in Manhattan (Getty Images)

    The workers who toil on New York City's subways and buses are 
disproportionately male, disproportionately a minority and 
disproportionately middle-aged. In the age of the coronavirus, they 
also appear to be paying a disproportionate price.
    As of early Tuesday afternoon, 33 of the roughly 55,000 workers 
employed by New York City Transit and MTA Bus had died due to 
complications from the coronavirus. That translates into a death rate 
of about 60 out of 100,000. At this moment in the pandemic's fast-
changing trajectory, that death rate appears to exceed that of both the 
New York Police Department and the Fire Department's emergency medical 
services.
    The FDNY's emergency medical services had, as of Tuesday mid-day, 
two deaths out of 4,000 workers (or 50 out of 100,000). The NYPD had 13 
out of 55,000, or 24 out of 100,000.
    Transit's interim president, Sarah Feinberg, on Monday called the 
death toll ``devastating.''
    ``We are reeling and are struggling . . . to come to work every 
day,'' she said in a TV interview.
    The MTA hasn't released many of the names or information about its 
fallen. Nor has it offered any theories as to why the transit 
division's workforce is suffering such losses.
    ``The death of any our colleagues is personal; not about 
statistics,'' said MTA spokesperson Ken Lovett. ``We greatly mourn 
those we've lost as we continue to do all we can to protect our workers 
and customers.''
    But the division's demographics, coupled with the hazards inherent 
to working for transit, may play a role.
    As of Dec. 31, New York City Transit's workforce was 81 percent 
male, and 46 percent African American, according to MTA statistics. 
(MTA Bus, which employs just 4,000 people, had similar numbers). Fifty-
two percent of transit workers are between 36 and 54 years old, 
according to union data. Another 28 percent are over 55. Early data 
suggests that African Americans and older men are dying at 
disproportionately higher rates than other groups.
    ``There's a lot of risk factors right there,'' said Dr. John 
Balmes, a pulmonary critical care physician and a spokesperson for the 
American Lung Association.
    Transit workers may also have jobs that predispose them to ailments 
that make them vulnerable to the coronavirus.
    A 2005 state- and union-funded report out of Queens College 
concluded that the ``Occupational hazards of New York City transit 
workers are uncommonly diverse and . . . include chemical, safety, 
ergonomic, physical, psychological, and biologic hazards.''
    ``Anecdotally, almost every transit worker develops lung 
conditions, lung problems, and anecdotally, so many transit workers I 
began on the job with died of lung related problems,'' said John 
Samuelsen, the international president of the Transport Workers Union. 
``They breathe in steel dust, they breathe in manganese from the 
welding, they breathe in creosote, they breathe in all of the the 
disgusting stuff in the subway.''
    Then there is that other precondition--working in the nation's most 
densely packed subway and bus system.
    ``The subways are an unfortunately almost perfect way to transmit 
the infection, because people are close together,'' Samuelsen said.
    Further exacerbating matters was the workers inability to access 
masks and gloves. Following federal guidance, the MTA didn't start 
doling out personal protective equipment en masse until March 27. The 
MTA has also halted cash transactions and allowed rear-door boarding of 
buses, to reduce driver exposure to infectious passengers.
    ``Think about it, the public that they're exposed to [and] working 
near . . . are, more likely than not, essential workers--many of them 
health care workers, many of them grocery store workers,'' said Steven 
Markowitz, an author of the 2005 Queens College report and director of 
the college's Barry Commoner Center for Health and the Environment. 
``Meaning that the public they're exposed to is more likely to be 
infected, more likely to be exposed to Covid.''

                                 <F-dash>
 ``Transit workers are paying a heavy price during the pandemic,'' by 
Justin George and Greg Jaffe, Washington Post, May 17, 2020, Submitted 
      for the Record by Hon. Jesus G. ``Chuy'' Garcia of Illinois
      Transit workers are paying a heavy price during the pandemic
by Justin George and Greg Jaffe

Washington Post, May 17, 2020
https://www.washingtonpost.com/local/trafficandcommuting/transit-
workers-are-
paying-heavy-price-in-the-coronavirus-pandemic/2020/05/17/d7251b18-
8edc-11ea-a9c0-73b93422d691_story.html

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Sandra Crawford has seen a lot in her 17 years as a New York City bus 
  driver, but she's never been this concerned about her safety. (The 
                            Washington Post)

    The covid-19 deaths were piling up so fast that New York City bus 
driver Danny Cruz began to worry that no one understood the toll the 
virus was taking on his fellow transit workers.
    So in early April, he began keeping a list of those killed by the 
disease and posting it on Facebook. Cruz had lost a friend and fellow 
driver at his depot to the novel coronavirus a few days earlier. He 
also had tested positive for it himself.
    ``Every morning I wake up and one of the hardest things I have to 
do is to try to keep this updated,'' he wrote April 7, when the death 
toll was 41. ``Every time I have to add a name, my heart loses a beat. 
. . . Why is this happening? Why were we not better prepared? How many 
more members will we have to lose?''
    By Cruz's count, 129 New York City transit workers have died of 
covid-19.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 New York City bus driver Danny Cruz is keeping a list on Facebook of 
 his fellow transit workers who have died of covid-19. (Michael Noble 
                      Jr. for The Washington Post)

    Across the country, an estimated 430,000 public transit workers, 
including train operators and bus drivers like Cruz, have kept systems 
operating, moving essential workers such as doctors, nurses and first 
responders who have been hailed as heroes. By comparison, the lower-
paid and largely minority transit workers said they are often abused by 
riders and insufficiently protected by their employers.
    As offices, stores and restaurants reopen in the coming days and 
weeks, trains and buses will almost certainly see more passengers. For 
transit workers, the return to normal life only exacerbates their 
fears.
    ``We run the risk of bringing that virus back into our houses, 
infecting our children, our wives, our husbands, our parents,'' said 
John Samuelsen, president of Transport Union Workers International. 
``We're not health-care professionals, but health-care professionals 
wouldn't be able to do what they're doing without transit workers.''
    No transit system in the nation has been as hard hit by the 
pandemic as New York City's and its 74,000 workers. At least 10,000 
Metropolitan Transit Authority employees have been quarantined during 
the outbreak.
    The novel coronavirus has sickened or killed transit workers in 
nearly every major system in the country. Transit and union officials--
many of whom were slow to recognize the threat that the virus posed to 
their workforces--have scrambled to implement new safety measures such 
as more frequent cleanings, adjusting boarding processes to isolate 
drivers and requiring passengers to wear face coverings.
    Such measures may have helped slow the virus's spread, but they 
have not done much to lessen the anxiety of transit employees who have 
lost co-workers, infected family members and are regularly being asked 
to take unprecedented risks.
    In Seattle, a bus driver who recently lost his wife, who also was a 
driver, is left to raise three children while he contemplates 
continuing in a job that may have exposed his wife to the virus that 
killed her. In the District, where 81 Metro workers have tested 
positive for coronavirus as of Friday, a bus operator who spent three 
weeks fighting covid-19 recently returned to work, but with mental 
scars that make her afraid of everything she touches or any cough or 
sneeze she hears on board.
    On the Facebook page where Cruz posts his list, workers routinely 
complain that they feel pressured to return to work too soon after 
their symptoms abate, and they routinely worry that the transportation 
authority's stepped up efforts at cleaning buses and trains are not 
good enough.
    ``Some MTA employees have said we signed up for this,'' Cruz said. 
``No one signed up to report to work knowing that we are all getting 
exposed and possibly bringing the virus back home to our loved ones.''
Agencies address fears
    Transit officials countered that they have moved faster than most 
government agencies to protect workers, even going beyond 
recommendations from the Centers for Disease Control and Prevention.
    ``The MTA has been a global leader in protecting the health and 
safety of our employees,'' Sarah Feinberg, interim president of the MTA 
NYC Transit, said in a statement.
    Since the outbreak began, the MTA has distributed more than 1.4 
million N95 masks to drivers, 3.5 million pairs of gloves and more than 
17,000 gallons of hand sanitizer, the agency said.
    In April, the transit authority raised a death benefit for family 
members of any workers who die of covid-19 to $500,000. And on May 6, 
it began shutting down the subway from 1 a.m. to 5 a.m. daily for deep 
cleaning--the first planned overnight shutdown in the system's 115-year 
history.
    The agency also established a ``Temperature Brigade'' to check for 
early signs of the virus in the workforce and even lobbied Costco to 
include MTA employees among front-line workers receiving priority 
access to stores.
    Still, transit agencies nationwide have struggled to address the 
fear and mistrust among their workforces. In Washington, Metro, the 
nation's second-busiest transit system, sudden bus driver shortages and 
increased absences in late March were part of the reason the system was 
forced to cut service to just 25 routes on at least two occasions.
    The biggest challenge for transit agencies has been protecting bus 
operators, whose pay nationally averages $21.74 an hour and who have 
been hit hardest by the virus. While the overall number of Metro 
workers infected make up a small fraction of the transit agency's 
12,000 employees, half of those who have tested positive for the novel 
coronavirus work among the public, including Transit Police, operators, 
janitors and station managers. Of 81 employees infected, 20 have been 
bus operators. More than 500 workers have been quarantined.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Metrobus driver Latisa Holmes recently returned to work after fighting 
                       covid-19 for three weeks.
                            (Latisa Holmes)

    Among the ill was Latisa Holmes, who remembers the fever, headache, 
aches and pains hitting her like a wave in mid-March.
    It felt, she said, as if she had been put in an oven. She struggled 
to breathe--it was like a brick was being pounded on her chest, she 
said. And she had disorienting headaches. She watched the news as the 
death toll rose, worried that she was next.
    ``I saw people dying having underlying health issues,'' she said. 
``I said that could be me because I have high blood pressure. I began 
to panic more because I realized that I might die.''
    Her son, a typically stoic and unfazed teenager, stood outside her 
bedroom door crying.
    ``All I could say to him with a tone of affirmation is, `Your 
mother is not going to die,' '' she said, though she herself was unsure 
and prayed constantly.
    Metro, meanwhile, raced to institute changes to protect and win 
back the confidence of its drivers. It cut service hours and routes, 
required passengers to board through the rear doors, waived fares and 
roped off the first few seats on buses to lessen contact between 
drivers and riders.
    Many of the changes were brought about through pressure from 
Amalgamated Transit Union Local 689.
    ``One of the biggest things that we did very early was we worked 
very closely with the union, particularly 689, our largest union, but 
also the others, and really started to think about it from the 
perspective of that bus operator, that mechanic, that rail operator, 
that station manager, and come at it from that perspective,'' Metro 
General Manager Paul J. Wiedefeld said.
    Transit agencies around the country took similar steps.
    Some cities, such as Atlanta and Detroit, went further, deciding to 
compensate drivers for the increased risk in much the same way the 
military pays soldiers extra for combat duty. The Metropolitan Atlanta 
Rapid Transit Authority, relying on the money it received as part of 
the $2 trillion federal bailout package, distributed a one-time $500 
``hero'' bonus to more than 3,500 of its workers. It passed out 
surgical masks, gloves and sanitizing wipes, in addition to giving 
drivers $75 stipends to spend on supplies, spokeswoman Stephany Fisher 
said. MARTA also has provided an extra 80 hours of sick leave for 
employees infected by covid-19, free testing and counseling to deal 
with stress.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 ``Every time I have to add a name, my heart loses a beat,'' Cruz says 
    about the list he keeps on Facebook. (Michael Noble Jr. for The 
                            Washington Post)

    In Florida's Miami-Dade County, frustrated and angry transit 
workers have sued over a lack of protective equipment and challenged 
Transit Director Alice Bravo to ride the bus so she can see firsthand 
the lack of social distancing, sanitizer and adequate face masks for 
drivers. Their battle cry on social media: #RideNotDie.
    Bravo declined to say whether she has ridden a bus during the 
pandemic, but she said she has spoken to hundreds of drivers to address 
their needs. Like other agencies, Miami-Dade transportation officials 
scrambled to get enough personal protective equipment for drivers. 
While the agency acknowledges that it did not initially have enough 
masks, Bravo said the agency quickly recovered.
    ``The minute we got our hands on supplies, we distributed them and 
started using them,'' she said. ``We even have hand sanitizer 
dispensers on our buses now. I know for a fact we are doing everything 
other agencies in other cities are doing, and I know we are doing some 
things other agencies aren't even doing.''
    Calls for more support for transit workers have been bolstered by 
national coalitions led by the NAACP and the TransitCenter, a 
foundation for transit research and advocacy, which have pressed 
Congress and the White House for hazard pay and more protective 
equipment for transit workers.
    The NAACP views transit workers as essential to helping the 
unemployed find jobs, while public transportation helps people, already 
burdened by high mortgage or rent payments, keep costs down.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Cruz is among the New York transit workers who tested positive for 
        coronavirus. (Michael Noble Jr. for The Washington Post)

    Some union officials blamed years of budget cuts for the inadequate 
protection of workers. Transit agencies, for example, could have 
purchased buses with sealed-off compartments for drivers--similar to 
models used throughout Europe, said John Costa, international president 
of the Amalgamated Transit Union, North America's largest 
transportation workers guild.
    Even before the pandemic, unions insisted such measures were needed 
to protect drivers in the wake of several high-profile attacks on 
drivers. Many agencies, including Metro in the nation's capital, have 
retrofitted buses with clear shielding, but union officials say the 
vehicles, which cost upward of $500,000, can be built with separate 
cabs that could have afforded greater protection.
    ``For the money we pay for buses, the way they're designed, we 
should have had them enclosed,'' Costa said.
    Costa said that less than half of his members have the masks, 
gloves and disinfectant they need, and he warned that strikes are 
possible if agencies don't respond to worker concerns.
    Rep. Peter A. DeFazio (D-Ore.), chairman of the House 
Transportation and Infrastructure Committee, has similar worries about 
shortages of protective gear and workers who feel forgotten.
    ``Hopefully the American public will recognize that more,'' DeFazio 
said. ``I mean, they certainly would recognize it if transit went 
away.''
    DeFazio said he's pushing for Washington to help pay for protective 
compartments on buses and has called for more federal aid to be 
directed to transit in a second massive stimulus bill that lawmakers 
are considering.
    Such drivers as Holmes, who recently returned to work at Metro 
after fighting covid-19 for nearly three weeks, are painfully aware of 
the stakes. ``I think no one knew that we were the front-line people, 
also,'' Holmes said. ``It's like they forgot about us and that we're 
risking our lives every day.''
    Holmes said she recovered physically before she was mentally able 
to return to work. Day by day, the aches began to subside and her chest 
began to open.
    But she noticed that she would cry suddenly for no reason. Her 
doctor advised her that it was normal for a person who has suffered 
trauma.
    Her bosses at Metro told her to take as much time as she needed, 
and the agency referred her to a therapist, who helped her cope.
    She started to feel less and less like she was going to die every 
time she closed her eyes. She worried less about a stranger's cough or 
sneeze.
    One of her biggest fears when she returned to work was whether her 
co-workers would treat her as if she had an infectious disease. Those 
worries went away on her first day.
    ``When I see you I see hope,'' her supervisor told her.
    But on May 6, Holmes learned she would need to be quarantined for 
another two weeks. Her 17-year-old son had tested positive for the 
novel coronavirus.
    ``I'm just lost for words right now,'' she said.
A list that keeps growing
    When Cruz started his list of dead New York City transit workers, 
the MTA was reporting only seven deaths.
    But Cruz, who was seeing and hearing about the deaths of colleagues 
online, worried the transit authority wasn't keeping a good count.
    ``Every day it was another name and another name,'' he said. ``I 
thought we should know who these people are. We should be keeping 
track. He posted his list in a small Facebook group that he had built 
for his depot and encouraged his fellow drivers to share it as widely 
as possible.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Metrobus operator Katherine Sherrill prepares to put the bus she is 
  driving back into service on May 7. (Jahi Chikwendiu/The Washington 
                                 Post)

    Within a week it had grown to more than 41 names. The group also 
has grown to more than 700 transit workers who use it to pay tribute to 
their dead colleagues, organize and share their fears.
    ``To go into work is like walking into a death camp with all that's 
going on around me,'' one transit employee wrote in April. Another who 
drove through the 9/11 terrorist attacks and Hurricane Sandy called the 
pandemic ``the scariest and most emotionally exhausting'' stretch of 
her career.
    ``I'm only on day 8 of self quarantine,'' another worker wrote. 
``My doctor told me to self-quarantine for 14 days,'' one transit 
worker wrote recently.
    That driver felt as though she was being pressured into going back 
to work earlier than her doctor advised.
    In the early days of the pandemic, many objected to a transit 
authority directive ordering workers not to wear masks. At the time, 
the workers did not meet CDC guidelines for mask use.
    Pressure from workers and the union forced the agency to change 
course in early March. MTA officials noted that they shifted their 
policy on masks before the CDC changed its guidance and ahead of other 
transit agencies.
    For many MTA workers, though, the changes haven't been enough. A 
popular meme shared among transit workers in Cruz's group is a picture 
of the MTA shield with blood running down it. Every day, New York City 
drivers face grim reminders of the risk they face. For Robert Coleman, 
it is a recently erected sign at the end of his route that states an 
entrance is for funeral directors only.
    ``Keep in mind, there's no funeral home there,'' Coleman said. ``I 
see trucks coming in, and when I see trucks coming in, I know this is 
where they drop off the bodies.''
    Coleman, 53, is a survivor of nasopharyngeal cancer and underwent 
chemotherapy and radiation for seven months in 2009. Health officials 
have warned that cancer survivors are particularly vulnerable to the 
virus.
    He remembers walking downstairs to get a mask and gloves at his bus 
garage just after the city began gearing up for the coronavirus and 
seeing a sign that explicitly said bus drivers did not qualify for the 
protective equipment. His friends at the New York Police Department 
repeatedly tell him, ``I would never do your job,'' he said.
    He wonders why transit workers don't qualify for the first 
responder discounts that are set aside for police and health-care 
workers.
    ``We don't look for it,'' he said, ``but we do want to be 
appreciated like everyone else.''
    With each passing day, Cruz's list has continued to grow.
    No. 18 on Cruz's list is Darlisa Nesbitt, 51, who operated a train 
for the MTA for more than two decades and died on April 2.
    She was just two years from retiring and had planned to join her 
extended family in Atlanta, where it was a ``little quieter,'' said her 
brother, the Rev. Charles E. Nesbitt.
    When she became ill in March, Charles began organizing a daily 
conference call for family members to pray for her.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 A Metrobus operator drives through Chinatown in Washington on May 5. 
                  (Ricky Carioti/The Washington Post)

    ``She was having tremendous respiratory problems,'' he said. 
``Could barely get her breath. She pretty much talked like she didn't 
expect to survive this. So the conversation leaned more in the 
direction of, `I love you, and here are some things I want you to do.' 
''
    Nesbitt left behind a 14-year-old daughter.
    No. 39 on the list is Hesroni Cayenne, who died April 9. ``He 
believed men had to go to work,'' said his wife, Heather.
    When the coronavirus outbreak hit New York, the 6-foot-tall native 
of Carriacou, a small island that is part of the Grenadine Islands, 
worried more about his wife's health than his own. He pressed her to 
drive to her job as a nursing educator, rather than taking the train, 
where she was more likely to fall ill.
    She worked days, and he worked nights at a shop in Brooklyn. Before 
he went to sleep each day, he typically cooked her an omelet with 
peppers, onions, tomatoes, sausage and cheese, and packed her a lunch. 
He called her ``chunks,'' a nickname he had given her when they met, 
symbolizing that she was a chunk of something special.
    He fell ill in late March, complaining of the flu. A week later, 
Hesroni had trouble breathing. He died on April 9.
    Hesroni and his wife acknowledged that working for the transit 
authority carried risks: terrorist attacks, storms, blackouts and 
fires. So did nursing.
    ``We both understood that,'' Heather said. ``When we took our jobs, 
we both understood we had to take the good with the bad.''
    In late April, the transit authority began publishing a list of 
deceased transit workers; initially, it included only first names. To 
many drivers it was another sign that the city didn't take their 
sacrifice seriously.
    ``That shouldn't ever be a question,'' Coleman said. ``That 
shouldn't even be a topic. It should be automatic. It should be 
automatic that we are respected for what we do.''
    Cruz pleaded with the agency to change course, which it did a few 
days later. Cruz's list typically includes more names than the city's 
list because he updates it more often. These days the list has become a 
collective effort.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Buses in New York are operating with social distancing rules. (Michael 
                   Noble Jr. for The Washington Post)

    Often, fellow drivers will leave tips in the comments section for 
Cruz and his colleagues to chase.
    ``College Point Depot bus operator Harold (idk last name),'' wrote 
one transit worker. ``The union received notice on Monday.'' The tip 
led them to Harold Germain, a bus operator who died April 16. He's No. 
37 on the list.
    A few days later, another transit worker posted a picture of his 
co-worker Palawandir Singh. ``It is a heavy heart that I announce the 
passing of my infrastructure supervisor,'' he wrote. He became No. 69.
    For Jalymeh Medina, who has helped Cruz collect the names of subway 
employees, the list is a means of humanizing the losses.
    ``People are dying so fast,'' she said. ``Every day, it is two or 
three more names, and it gets blurred after a while. It gets lost.''
    For Cruz, it's also a means of holding the transit agency 
accountable. On April 26, Cruz's list cleared a milestone, adding its 
100th name. ``It's just a sad day to see,'' he said. ``Out of all the 
agencies being affected, we are the worst, and I feel like all of that 
could've been avoided. If they'd provided us masks, people would be 
alive today who aren't with us.''
    He posted the list, as he always does, in the morning. ``Nobody 
needs to see it right before going to bed,'' he said. And he headed off 
to work.
    Later that day, Cruz added two more names: Mitchell Rosenwasser, a 
28-year veteran of the system who worked out of the Casey Stengel 
Depot, and Cuong Luu, an immigrant from Vietnam who worked for the 
transit system for 23 years. ``Luu was a very quiet guy, but if you 
ever had an issue or a problem on the job he was the first one to come 
over and give you a hand,'' one of his co-workers wrote.

Julie Tate contributed to this report.

                                 <F-dash>
  ``2019 Labor Force Statistics from the Current Population Survey,'' 
U.S. Bureau of Labor Statistics, Submitted for the Record by Hon. Jesus 
                     G. ``Chuy'' Garcia of Illinois
    The statistics are retained in committee files and are available 
online at https://www.bls.gov/cps/cpsaat18.htm.

                                    
                                 [all]
</pre></body></html>
